                                                                                       Fiscal Year 2008 United States Army Annual Financial Statement
                   The Soldier’s Creed
                        I am an American Soldier.
                 I am a Warrior and a member of a team.
    I serve the people of the United States and live the Army Values.

                     I will always place the mission first.
                            I will never accept defeat.
                                   I will never quit.
                      I will never leave a fallen comrade.

              I am disciplined, physically and mentally tough,
                 trained and proficient in my warrior tasks
                   and drills. I always maintain my arms,
                         my equipment and myself.

                   I am an expert and I am a professional.

                   I stand ready to deploy, engage, and
                 destroy the enemies of the United States
                        of America in close combat.

                     I am a guardian of freedom and the
                            American way of life.

                          I am an American Soldier.




                                                                                                                                                                                       2008
                                                                                      2008                                                                           Fiscal Year 2008 United States Army Annual Financial Statement
                                                                                                                                                        Financing America’s Army: The Strength of the Nation
United States Army : 1500 Army Pentagon : Washington, DC, 20310-1500 : www.army.mil
                                                                                                                     We are interested in your feedback regarding the content of this report.
                                                                                                                  Please feel free to e-mail your comments to AAFS@hqda.army.mil or write to:

                                                                                                                                      Department of the Army
                                                                                                                                 Office of the Deputy Assistant Secretary of the Army
                                                                                                                                      (Financial Management and Comptroller)
                                                                                                                                    Office of the Financial Reporting Directorate
                                                                                                                                          Room 3A312, 109 Army Pentagon
                                                                                                                                             Washington, DC 20310-0109

                                                                                                                    Additional copies of this report can be obtained by sending a written request to
                                                                                                                                       the e-mail or mailing address listed above.

*Unless otherwise noted, all photos on the cover and inside pages are courtesy of the U.S. Army. (www.army.mil)   You may also view this document at: http://www.asafm.army.mil/fo/fod/cfo/cfo.asp
                                                 Contents
                                                 Message from the Secretary of the Army               iii

                                                 Message from the Acting Assistant Secretary of the
                                                 Army (Financial Management and Comptroller)           v

                                                 Management’s Discussion & Analysis                    1

                                                 General Fund – Principal Financial Statements,
                                                 Notes and Supplementary Information                  27

                                                 Working Capital Fund – Principal Financial
                                                 Statements, Notes and Supplementary Information      95




                                                                                                        Fiscal Year 2008 United States Army Annual Financial Statement




A U.S. Army military policeman gives a
high five to a young Iraqi girl. (U.S. Air
Force photo by Tech Sgt. Cohen A. Young/
Released)




                                             i
The Honorable

Pete Geren
Secretary of the Army




                        ii
The seven years since 9/11 have been years of radical transformation. The Army of 2008 does not look like the Army of
2001. Our Soldiers are trained, equipped and led differently. They have adapted to the evolving threats of an asymmetric
battlefield with innovation, resiliency and resoluteness of purpose. And they are battle-hardened and combat-proven
throughout the ranks.

Many of the challenges of the past remain the challenges for our future. They include ensuring that we have full spectrum
readiness, adapting to shifting current and future threats, and providing a quality of life for our Army Families equal to their
extraordinary service.

Over the last year, with Congressional and budgetary support, the Army has made progress in rebalancing its force while
simultaneously fighting two wars. Spin-off technologies from our Future Combat System are being implemented now,
helping to both sustain and prepare our Soldiers as we transform our Army to meet present and future challenges. This
continued Army growth – and the necessary funding for it – remains vital.

Just as we have adapted to evolving threats on the battlefield, our support for Army Families must adapt to their changed
circumstances – the increasing physical and emotional demands of an Army long at war. In this past year, communities
across the Nation have embraced our Community Covenants – and pledged to work collaboratively with our military
Families. Using appropriated resources, we have improved housing, built child development centers and restructured
the support system for our returning Wounded Warriors. These are all laudable initiatives – but they are not complete.
We must continue to provide the financial resources that will guarantee that our support of Army Families and Soldiers is
second to none.

We have made great progress in this past year – but more work lies ahead. With your support and partnership, we will
continue to build an Army that will meet the threats, challenges and opportunities of the 21st Century.




                                                                                                                                   Fiscal Year 2008 United States Army Annual Financial Statement
                                                                              Pete Geren
                                                                              Secretary of the Army




                                                           iii
Peter E. Kunkel
Acting Assistant Secretary of the Army
(Financial Management and Comptroller)




                               iv
In FY 2008, the Army continued to transform its warfighting forces with the most sweeping changes undertaken since
WorldWar II. From the division-centric, forward-deployed force that served us well for many years, we are transitioning
to the brigade-centric, expeditionary Army that is needed to meet the national security demands of the 21st century. We
are simultaneously growing the Army by more than 74,000 Soldiers, restationing our warfighting and supporting forces
in the U. S. and overseas and conducting combat operations against a highly capable enemy. If the Army is to successfully
accomplish this challenging array of tasks with limited resources, it is essential that all Army organizations operate more
effectively and efficiently.

To that end,Army financial management has continued to adapt and integrate cost management into the Army culture – to
ensure that cost implications are factored into decision-making at all levels of the organization. Through education and
training, new processes and procedures, cost and performance metrics and new systems, we are pressing on to “run the
Army” just as effectively and efficiently as we “fight the Army.”

The centerpiece of our efforts is the General Fund Enterprise Business System (GFEBS), which will link financial
accounting, funds control, asset accounting and cost management information across the Army. GFEBS will provide the
information and analytical tools needed by executives, operational leaders and resource managers to make informed
decisions. GFEBS continues to be on schedule and on budget. In March 2008, GFEBS successfully completed a critical
acquisition milestone requirement and began implementation at our test site at Fort Jackson, SC, in October 2008. The
system will “go live” in waves across the Army, beginning in FY 2009.

Going forward, we will develop a series of initiatives to make cost management an integral part of senior leader decision
making. We are examining the workforce changes required to effectively field GFEBS and to provide expertise Army-wide
to capitalize on its full range of capabilities. We will also renew our focus on a federated approach to enterprise resource
planning as we integrate GFEBS with other systems in the logistics enterprise.

In FY 2008, we steadily progressed in process and systems improvements, making Army financial transformation a
permanent element of the Army’s broader and ongoing transformation. FY 2009 holds the opportunity to continue that
momentum through additional investments in our people and our systems. We are looking forward to it.




                                                                                                                               Fiscal Year 2008 United States Army Annual Financial Statement
                                                                            Peter E. Kunkel
                                                                            Acting Assistant Secretary of the Army
                                                                            (Financial Management and Comptroller)




                                                          v
              “We have magnificent Soldiers, leaders and 

           civilians. They are ordinary people who are doing 

                   extraordinary things for our country.”

                            General George Casey, Chief of Staff of the Army




General Fund and Working Capital Fund               vi
                                                     Overview
                                                     The last seven years have been years of radical
                                                     transformation. The Army of 2008 does not look like
                                                     the Army of 2001. Soldiers are trained, equipped
                                                     and led differently. They are battle-hardened and
                                                     combat-proven throughout the ranks. But many of the
                                                     challenges of the past remain the challenges for our
                                                     future.

                                                     We are halfway through the largest transformation
                                                     sinceWorldWar II and this effort impacts everything
                                                     we do. Our Army is changing, becoming more
                                                     lethal, sustainable and versatile. While executing this
                                                     transformation, the Army is adding more than 74,000
                                                     Soldiers to the active and reserve forces, a process
                                                     that will be completed in 2013. The Army also is in
                                                     the midst of a mass repositioning of forces worldwide.
                                                     Plans for resetting equipment and units to full capacity
                                                     through Army Force Generation are in full swing.

                                                     Last year, we reported that the Army, while a
                                                     committed, resilient and combat-seasoned force,
                                                     was out of balance. The demand for our forces
                                                     exceeded the sustainable supply, and we had gone to
                                                     15-month deployments. Consumed with meeting the
                                                     requirements of the current fight, we lacked sufficient
                                                     strategic flexibility and operational depth to respond
                                                     to other contingencies. We were unable to provide a
                                                     predictable, sustainable tempo of deployments for our
                                                     Soldiers and their Families. Support systems designed
                                                     for the pre-September 11 peacetime Army were
                                                     stretched and stressed by the demands of lengthy and
                                                     repeated deployments with insufficient recovery time.
                                                     Overall, our readiness was being consumed as fast as we
                                                     could build it.




                                                                                                                 Fiscal Year 2008 United States Army Annual Financial Statement
                                                     In 2008, we initiated a plan founded on four
                                                     imperatives to restore balance. We said we would
                                                     sustain the Army’s Soldiers, Families and civilians;
                                                     continue to prepare forces for success in the current
                                                     conflict; reset returning units to rebuild the readiness
                                                     consumed in operations and to prepare for future
                                                     deployments and contingencies; and transform to
                                                     meet the demands of the 21st century. At the time,
                                                     we acknowledged that implementing these imperatives
                                                     would require several years, considerable resources and
Soldiers hold onto Static lines while training       sustained national commitment. By 2011, we expect
                                                     to: grow the Army to 1.1 million; establish acceptable
for their next airborne operation at the
                                                     balance between deployments and time spent at home;
United States Army Special Operations                achieve substantial progress in modular transformation
Command mock trainer in Fort Bragg,                  and rebalancing initiatives; complete Base Realignment
North Carolina.                                      and Closure and associated restationing; and fully
                                                     implement the Army Force Generation model, all while
                                                     sustaining the all-volunteer force and setting conditions
                                                     for the future.


                                                 1
Mission, Vision and Organization of the Army
The Army’s mission is to support the National Military Strategy by providing well-trained, well-led and well-equipped
forces to the combatant commanders. This mission has remained constant throughout the 233-year life of the Army;
however, the environment and nature of conflict have changed dramatically over that same time, especially in the context
of today’s GlobalWar onTerrorism (GWOT). New adversaries and the growth in asymmetric warfare have compelled the
Army to transform how it trains and equips its Soldiers, how those Soldiers are organized and how they fight.

The Army is committed to remaining the world’s preeminent land power – relevant and ready at all times to serve the
nation and to support our allies. The Army will continue to supply U.S. combatant commanders with the forces necessary
to defeat any adversary, in any situation, at any time. The Army, therefore, must fully train and appropriately organize
its forces; develop innovative and adaptive leaders; and design support structures that are appropriate for the new global
security environment.
                                                          Figure 1 – Army Vision


               ARMY VISION
               The Army Vision is to remain the preeminent landpower on Earth—the ultimate instrument of national
               resolve—that is both ready to meet, and relevant to, the challenges of the dangerous and complex 21st
               century security environment.



                  LED BY CAPABLE LEADERS
                  Innovative, adaptive and confident in leading Soldiers and civilians. Leading change, building teams,
                  confronting uncertainty, and solving
                  complex problems.
                                                               LEADERS
                                                                 DIERS
                                                             SOL
                   ORGANIZED                                                                             SUPPORTED BY
                   INTO MODULAR                                                                                    THE
                   FORCES                                                                                  INSTITUTION
                   Rapidly deployable,                        Living the                                   Providing relevant
                                       MODULA




                                                                                                 UTION




                   full-spectrum,                           Warrior Ethos -                                   and ready land
                   networked,                                                                                      forces and
                   adaptive, and more                    on duty protecting the                            capabilities to the
                   powerful. Enabling                    Nation and the society                                    combatant
                   joint and                                  they serve.                                 commanders while
                                                                                              TIT




                   expeditionary                                                                                transforming.
                                                      O
                                          R




                   operations with                                                                        Leading change to
                                                          UR             E
                                                                                              S




                   interagency and                                                                    create the future Army.
                                                               CENTERPIEC
                                            FO




                                                 RC
                                                                                           IN




                   multinational partners.                                                             Providing the people,
                                                      ES                    E
                                                                          TH
                   Executing protracted                                                             resources, quality of life,
                   campaigns to protect                                                          and infrastructure critical to
                   freedom and deter                                                         the success of America’s Army.
                   adversaries; if required, defeat
                   our enemies, secure peace, and
                   provide stability and reconstruction.




The Army is a large and complex organization, with more than 543,000 active duty Soldiers and approximately 250,000
active and reserve component Soldiers deployed or forward-stationed in nearly 80 countries overseas. They are supported
by nearly 290,000 Army civilians, who are critical members of the institution at every level.

The Army is organized with the primary objective of supporting and sustaining the mobilization, training and deployment of
its Soldiers anywhere in the world. The Headquarters, Department of the Army (HQDA) (Figure 2), under the direction of
the Secretary of the Army and the Chief of Staff, leads and manages the entire Army.



General Fund and Working Capital Fund                                      2
                                            Figure 2 – Headquarters, Department of the Army (HQDA)

                                                                                                              Admin.
                                                                                                            Assistant to     General       Inspector          Auditor
                                                                                                           the Secretary     Counsel        General           General
                                                                                                            of the Army




                                                                                                                                                Deputy Under Secretary
                                                                                                                                                     of the Army
                                                                                                                   Secretary
                                    ASA                                                                           of the Army
       ASA                                            ASA            ASA                                                                       Deputy Under Secretary
                                  Financial                                       Chief
   Acquisitions,      ASA                         Installations   Manpower                     Director,                                           of the Army for
                                 Management                                    Information
    Logistics &    Civil Works                          &         & Reserve                   Army Staff                                       Business Transformation
                                      &                                        Officer/G-6
   Technology                                     Environment       Affairs
                                 Comptroller
                                                                                                               Under Secretary
                                                                                                                 of the Army                   Chief, Legislative Liaison



                                                                                                                                               Small and Disadvantaged
                                                                                                                                               Business Utilization Office



                                     DCS

                                                                                                                 Chief of Staff,                 The Surgeon General
      DCS
                                 Programming,

                                                      ACS           DCS            DCS
                                                                                                DCS                  Army
                    Chief of
       Materiel
                                                 Operations
    Logistics                                      Installation   Personnel    Intelligence
                   Engineers
    Integration &
                                                & Plans
      G-4                                         Management         G-1           G-2
                                 Management
                                                   G-3/5/7                                              Chief, National
                                      G-8

                                                                                                             Vice Chief of Staff,                   Guard Bureau

                                                                                                                   Army
                                                                                                                                                 Chief, Army Reserve



                                                           Defined responsibilities to ASAs
                                                           Oversight
                                                                                                            Sergeant Major          Chief of           Judge Advocate
                                                  ACS      Assistant Chief of Staff                          of the Army           Chaplains              General
                                                  ASA      Assistant Secretary of the Army
                                                  DCS      Deputy Chief of Staff


The Army’s organizational structure consists of two interdependent pieces: (1) the warfighting, operational Army; and (2)
the institutional Army, which supports the operational force by providing the training, facilities and equipment necessary to
prepare and to sustain Soldiers.

The operational Army provides the land-power capabilities for the combatant commander. Within the operational Army, the
transition from a division-centric warfighting force to a brigade-centric force continues. At the heart of this change is the




                                                                                                                                                                             Fiscal Year 2008 United States Army Annual Financial Statement
modularization and standardization of Army brigade combat teams (BCTs), a process that is essential to the development of a
more rapidly deployable, flexible and powerful force.

Viewed by its constituent elements, the Army can be separated into the active and reserve components. The active component
consists of full-time Soldiers assigned to the operational and institutional organizations that perform day-to-day Army
missions. The Congress annually reviews and mandates the number of Soldiers that the Army may maintain. The reserve
component consists of the Army National Guard (ARNG) and the U.S.Army Reserve (USAR).

The ARNG has two missions: federal and state. Its federal mission is to provide trained and ready forces for wartime, national
emergencies and other requirements, as necessary. Its state mission is to train for, and respond to, domestic emergencies and
other missions as required by state law. Unless federally mobilized,ARNG units are commanded by their state executive,
usually the governor.

The USAR is the primary federal reserve force of the Army. The USAR provides specialized units and resources to support
the deployment and sustainment of Army forces around the globe. In addition, the USAR is the main source of individual
Soldiers to augment headquarters staff and to fill vacancies in the active component.




                                                                                3
Performance Goals, Objectives and Results
Our country has been at war since the September 11, 2001, attacks on NewYork City and the Pentagon. The Army is a
leader in this war and in the liberation of 50 million people from tyranny and oppression. It is also fully engaged in the
difficult process of consolidating success, building stability and providing assistance in the development of local security
forces and governance capacity. Over time, these operations have expanded in scope and duration, and have stretched and
stressed our all-volunteer force.

As a result, the Army is out of balance. The demand for forces in Iraq and Afghanistan has exceeded the sustainable supply
and limited our ability to provide ready forces for other contingencies. The Army’s overall posture is further affected by
the extraordinary requirement for counterinsurgency training, insufficient time between deployments and the extreme
wear and tear on equipment. In addition, while the Reserve Components are performing magnificently, many reserve
component (RC) units have found themselves assigned missions for which they were not originally intended nor adequately
resourced.

The Honorable Pete Geren, Secretary of the Army, and General George Casey, Chief of Staff of the Army, have identified
four critical Army imperatives necessary to restore balance and, based upon these imperatives, have initiated a plan to
restore balance by 2011. These four imperatives will sustain our Soldiers, Families and civilians; prepare Soldiers for
success in current operations; reset units to restore readiness and depth for future operations; and transform the Army into
the force the nation needs today and in the future. These are not easy tasks and they require the full support of the Congress
and the American people. While we have achieved much, more remains to be done.

In FY 2008, the Army refined the Cost of the Army model using newer data and methods to validate the cost of the force
structure associated with accomplishing the missions set forth by Office of the Secretary of Defense (OSD). Factoring the
costs associated with full implementation of the President’s Grow the Army plan (an increase of 74,200 active and reserve
component Soldiers), along with the associated recruiting and retention programs, resulted in an annual estimate of $173
billion in FY 2010 dollars once the Army reaches the steady-state force structure levels approved by OSD in a peacetime
operational status. We continue to refine our methodology and resourcing strategy so that we produce the leanest possible
estimate, while accurately articulating the cost of the Army and its operational capabilities to the Congress and the
American people.

The following sections discuss the four imperatives, goals and program performance results.




General Fund and Working Capital Fund                            4
U.S. Army recruits wait in line for their
initial haircut while still partially dressed
in their civilian clothes during basic
combat training at Fort Jackson, S.C.,
January 16, 2008. (U.S. Air Force
photo by Senior Airman Micky M.
Bazaldua) (www.army.mil)




            Sustain
            To sustain Soldiers, Families and Army civilians in an era of persistent conflict, the Army must maintain the quality and
            viability of the all-volunteer force and the many capabilities it provides the nation. Sustain ensures that Soldiers and their
            Families have the quality of life they deserve, which helps to improve retention rates.


            Manning the Force – Recruiting and Retaining Soldiers
            While the recruiting environment is challenging, the Army remains committed to bringing only the very best into our
            ranks. Our goal is for Tier 1 Educational Credential Holders (e.g., those with high school diplomas and college degrees) to
            comprise no less than 90 percent of new recruits. Typically,Tier 1 recruits are a lower risk for attrition and, therefore, are
            the most desirable group from which to draw. While the Army achieved 83 percentTier 1 recruits in FY 2008, first-term
            attrition declined and training base attrition was at a historic low. Both are positive signs that we are recruiting, training and




                                                                                                                                                 Fiscal Year 2008 United States Army Annual Financial Statement
            retaining a highly qualified force.

                                            Table 1 – Quality – Percent Tier 1 Educational Credential Holders

                                         FY 2004              FY 2005              FY 2006               FY 2007              FY 2008
             Tier 1 Goal                        90               90                   90                    90                    90
             Tier 1 Actual                      92               87                   83                    79                    83

            Though FY 2008 presented a challenging recruiting environment, the Army was able to meet its recruiting mission in all
            components. Several initiatives were implemented, such as Active First, the Army Prep School and the Army Advantage
            Fund, which helped the Army achieve its goals. FY 2009 is also expected to be a challenging recruiting year and we will
            continue to utilize these initiatives to attract high-quality recruits.




                                                                        5
                                                               Table 2 – Recruiting

                                     FY 2005             FY 2006             FY 2007             FY 2007             FY 2008             FY 2008
                                      Actual              Actual              Goal                Actual              Goal                Actual
 Active Army                          73,373              80,635              80,000              80,407              80,000              80,517
 Army Reserve                         19,400              25,378              26,500              27,004              26,500              26,945
 Army National Guard                  50,219              69,042              65,115              66,652              60,600              62,397

Due to the Global War on Terrorism, several special skills are in high demand. To fill them, it has been necessary to augment
recruiting and retention incentives. The Army instituted a Critical Skills Retention and Accession Bonus (CSRB) to attract
and to retain personnel in specific skills areas, including Special Forces, Criminal Investigations, Military Intelligence and
Field Artillery. Further, medical-related CSRBs have been offered to physician’s assistants and maxillofacial/oral surgeons.

                                          Table 3 – Active Component End Strength Within 2%

                                           FY 2005                       FY 2006                      FY 2007                       FY 2008
 Goal                                      502,400                       502,400                       518,400                      529,191
 Congressional Baseline                    512,400                       512,400                       518,400                      525,400
 Actual                                    492,728                       505,402                       522,017                      543,645
 % Delta                                    -2.0%                         +0.6%                        +0.7%                         +3.5%*
Performance Measure: The number of Soldiers on active duty at the end of the year. *When the President declares a State of National Emergency, end
strength limits can be waived. The Army is trying to grow as fast as possible to relieve stress on the force and increase time between deployments.



                                    Table 4 – Reserve (USAR and ARNG) End Strength Within 2%

                                           FY 2005                       FY 2006                       FY 2007                      FY 2008
 Goal                                       555,000                      555,000                       550,000                      556,300
 Actual                                     522,182                      536,263                       542,589                      557,375
 % Delta                                     -5.9%                        -3.4%                         -1.3%                        +0.2%
Performance Measure: The number of Soldiers in the USAR and ARNG at the end-of-month (EOM) August 2008.


The Army has boosted reenlistment bonuses to a maximum of $33,500 for high-demand specialties. These bonuses, which
are a vital tool in keeping Soldiers who possess valuable combat experience, have helped the Army to exceed its retention
goal for FY 2008. Careful and deliberate adjustments to bonuses, including which critical skills are targeted, will be made
in order to retain the correct Soldiers.

                                          Table 5 – Active and Reserve Component Retention

                                       FY 2005            FY 2006             FY 2007             FY 2007            FY 2008             FY 2008
                                        Actual             Actual              Goal                Actual             Goal                Actual
 Active Army                            69,512             67,307              62,200              69,777             65,000              73,913
 Army Reserve                           16,485             18,223              16,571              19,761             14,946              16,523
 Army National Guard                    33,804             41,083              37,578              37,718             31,889              29,618
Performance Measure: Measures the number of Soldiers reenlisted during a given fiscal year against the published goals. The AC and USAR have achieved
their recruiting mission for FY 2008 as of EOM September. The ARNG is considered successful as they have exceeded their end-strength requirements.




General Fund and Working Capital Fund                                          6
Recruiting and retaining Soldiers who are confident, adaptive, competent and able to handle the full complexity of 21st
century warfare in this combined, joint, expeditionary environment is a highly competitive endeavor. The Army will
continue to develop and to implement programs to address this challenge.


Improving the Quality of Life for Soldiers and Their Families
To retain Soldiers and meet the needs of their Families, the Army must care for them by providing exceptional programs
and services that support their well-being. The Army is committed to attaining a quality of life for active, Guard and
Reserve Soldiers and their Families that matches the quality of their service. Senior leaders across the Army signed an Army
Family Covenant to demonstrate this commitment. To better fulfill this promise during war, the Army initiated programs
to improve spouse employment, to ease the transition of high school students during moves and to extend in-state college
tuition rates to military Families. In addition, there is an on-going effort to improve access to and availability of health
care, child care, youth programs, schools and facilities. The Army also is concerned about our Soldiers’ financial health and
continued a multiyear initiative to eliminate Soldiers’ out-of-pocket housing expenses.

To improve unit cohesion and readiness while reducing unit turbulence and uncertainty for Families, the Army is changing
how units are manned. Under Force Stabilization, the Army plans to keep Soldiers in each assignment longer and
will synchronize their assignments to brigade combat team (BCT) rotational schedules. Stabilization will create more
deployable, combat-capable units while improving predictability and quality of life for Soldiers and their Families. They, in
turn, will be able to build deeper roots in their communities and will have better opportunities for spouse employment,
continuity of health care and schooling, and access to stronger support networks that enhance well-being.


Improving Soldier and Family Housing
Housing programs are essential for demonstrating our concern for Soldiers and their Families. In concert with the private
sector, the Army continues to focus a considerable amount of effort on the Residential Communities Initiative and the
Barracks Modernization Program. Congressional support for these initiatives has had a dramatic effect on improving the
quality of life for our Soldiers and their Families.

Our programs are on track to eliminate the original inventory of inadequate family housing worldwide by FY 2009,
through privatization, construction and divestiture of excess units. Additional inventory at Baumholder, recently
reclassified as enduring, will be fully adequate by 2015. In FY 2008, 2,301 homes were privatized, bringing the total to
78,743. In addition, 2,179 homes were renovated and 5,052 homes were constructed using appropriated funds as equity
contributions.




                                                                                                                                   Fiscal Year 2008 United States Army Annual Financial Statement
The Army’s permanent-party, single-Soldier barracks requirement is 169,977 spaces. In FY 2008, the Army built or
modernized 15,150 barracks spaces for about $2.14 billion, bringing the total spaces built or modernized to 85.6 percent
of the Army’s requirement.

The Army has a training barracks requirement for 115,413 Soldiers but only has 92,833 spaces available. Installation Status
Report ratings for almost all training barracks showed facility condition deficiencies that impair the capability of, or present
significant obstacles to, the tenant organizations’ accomplishment of required missions. In FY 2008, the Army built or
modernized 14,356 training barracks spaces for $1.27 billion.

The First Sergeant Barracks Initiative (FSBI) is being implemented across the Army and will provide centralized barracks
management, similar to Family Housing management, for single Soldiers. The FSBI will encompass all aspects of asset
management, to include Housing Operations Management System software modules designed specifically for barracks
management.

The Army also is executing limited Unaccompanied Personnel Housing privatization projects for staff sergeants and above at
Forts Irwin, Drum, Bragg, Bliss and Stewart. Together, these facilities will provide 1,396 apartments (1,804 bedrooms) in
areas that have limited available rental properties for these grades.




                                                           7
                                                                                              A Soldier secures an area of a market
                                                                                              development project in New Baghdad,
                                                                                              Iraq, during a dismounted tour of the
                                                                                              area January 27, 2008. (U.S. Army
                                                                                              photo by Spc. Nicholas Hernandez)
                                                                                              (www.army.mil)




Prepare
To prepare Solders, units and equipment, the Army must maintain a high level of readiness for the current operational
environments, especially in Iraq and Afghanistan, while taking into consideration potential future conflicts. The Army is
continually adapting training and materiel to keep pace with an evolving enemy. We remain committed to providing our
deploying Soldiers with the best available equipment so that they can maintain a technological advantage over any enemy
they may face.


Providing Support for Operational Requirements
The pace of operations in the new security environment presents a number of significant force management challenges
to the Army. As a result of the Army’s global commitments, approximately 250,000 Soldiers are deployed or forward-
stationed in nearly 80 countries overseas. As of October 2008, approximately 543,000 personnel were serving in the active
component, and approximately 76,000 reserve-component Soldiers were on mobilization orders.

Repeated deployments affect recruiting and retention, and have a very real impact on our ability to care for Soldiers and
their Families. To meet today’s challenges, and to better position troops for the future, the Army is pursuing numerous
initiatives that will reduce force-management risk. By developing the Army Modular Force, we will significantly increase
the pool of rotating units and, by employing the Army Force Generation Model (ARFORGEN), we will reduce the stress
on the force. The results will be greater stability, unit cohesion and readiness, and less uncertainty for Families.

The ARFORGEN process leverages modular unit designs and the operational cycle to create a sustainable deployment
posture with units that are ready in predictable patterns and with the capacity to surge combat power for major operations.
When fully operational,ARFORGEN will enable the Army to schedule effectively and efficiently fully ready units for
deployment, which will:

    (1) Reduce uncertainty for Soldiers, Families and the communities that support installations;

    (2) Improve the availability of forces for combatant commanders;




General Fund and Working Capital Fund                            8
      (3) Generate a continuous number of available brigade combat teams (BCTs), augmented by all required supporting
          organizations (given appropriate mobilization authority); and

      (4) Enable the Army to surge additional BCTs augmented by all required supporting organizations (given appropriate
          mobilization authority).

Training Soldiers
Initial Entry Training increases the Soldier’s warfighting capability through individual warrior tasks and battle drills. Every
six months, the Army reviews and updates these tasks and drills to ensure that training is relevant to today’s environment.
During FY 2008, the Army’s training centers and schools increased student throughput by 10.3 percent compared to the
program baseline. This increase was tied to the Grow the Army initiative to achieve an active component (AC) end strength
of 547,000.

The Army continues to augment its ability to conduct irregular warfare through several functional courses that build
on language and cultural competencies and improve Soldiers’ and civilians’ knowledge of, and capabilities in, electronic
warfare, red teaming (opposing forces), counterterrorism, weapons of mass destruction, civil affairs, information
operations, counter-explosive hazards and operational law.

                                                             Table 6 – Individual Training

                                   Basic Combat     One Station         Advanced           Basic Officer   Officer Candidate   Warrant Officer    Initial Entry
                                     Training       Unit Training   Individual Training   Leader Course         School          Entry Course      Rotary Wing

 2007 Trained (reported)             65,098          22,644             70,219              13,043             1,337              2,666              N/A
 2007 Trained (actual)               76,166          31,414             93,888              15,214             1,756              2,667              967
 2008 Trained (interim)              65,262          21,252             74,041              13,594             1,518              2,606              653
This data represents active Army, ARNG and USAR students graduating from active component schools. All data is based on start date (i.e., if a class starts
in FY 2007 and graduates in FY 2008 it is counted in the FY 2007 data). 2008 Trained (interim) data is as of October 15, 2008.



Training Units
In FY 2008, the Army provided trained and ready forces to commanders around the globe in addition to meeting critical
homeland defense missions. To make sure Soldiers were combat-ready in FY 2008, they engaged in an appropriate mix of
live, virtual and constructive training. The AC and RC fully executed their ground and air training plans, which included




                                                                                                                                                                  Fiscal Year 2008 United States Army Annual Financial Statement
actual miles driven and hours flown as well as virtual miles associated with the use of simulators. In FY 2008, home-station
training miles execution was impacted by the limited dwell times between rotations and the surge of units into theater.

                                        Table 7 – Ground and Air Operational Tempo (OPTEMPO)

                                                   FY 2005               FY 2006               FY 2007           FY 2008 Goal           FY 2008 Actual
 AC Ground OPTEMPO (Mileage)                          708                    666                  729                   459                      500
 AC Air OPTEMPO (Flight Hours)                        12.2                   12.6                 12.8                 11.6                      12.4
 ARNG Ground OPTEMPO                                  176                    139                  127                   129                      150
 ARNG Air OPTEMPO                                      7.5                   4.7                  10.1                  6.5                      9.7
 USAR Ground OPTEMPO                                  213                    169                  138                   152                      152
 USAR Air OPTEMPO                                      8.0                   8.7                   9.7                  6.4                      8.1
NOTE: FY 2005 through FY 2007 reflects home-station execution only. FY 2008 amounts are estimates based on execution as of August 2008.




                                                                         9
Training Support Systems
The Army’s Training Support Systems enable the execution of training at home stations, the combat training centers, and at
Training and Doctrine Command schools by creating realistic conditions that reflect the operational environment. These
critical training enablers include ranges and targets; live-virtual-constructive and gaming training aids, devices, simulations
and simulators; instrumentation systems; training facilities; and training support operations.

                                 Table 8 – Military Construction (MILCON) Range Projects

                                                  FY 2005              FY 2006              FY 2007              FY 2008
 Range Construction Projects                         17                   30                   37                   26

The Army is adapting theTraining Support Systems to support ARFORGEN training requirements and lessons learned
from current operations. At home station, training must expose Soldiers, leaders and units to the full spectrum of possible
conflict under realistic conditions. Ranges are being modernized to integrate digital systems that allow crews and platoons
to train as they fight. New ranges are being built to support gunnery requirements in accordance with the Army Campaign
Plan; and Urban Operations Training Facilities are being constructed and fielded to provide units a complex urban-area
training capability. This live training environment will be further enhanced with a Home Station Instrumentation Training
System that links ranges, urban complexes and training areas.

New and improved live-virtual-constructive and gaming training aids, devices, simulations and simulators are being fielded
to augment training against improvised explosive devices (IEDs). Virtual simulators, IED simulators, gaming simulations
and convoy live-fire systems provide a complete package for battle drills, learning tactical techniques and procedures, and
generally raising IED situational awareness.

The Army also is modernizing the Battle CommandTraining Centers (BCTCs) and training simulations to increase
leader and battle-staff training and to improve mission-rehearsal capabilities for deploying units. The BCTCs provide
units the ability to train and to sustain critical individual/operator and battle-staff skills on digital command, control,
communications, computer, intelligence, surveillance and reconnaissance systems. The BCTCs will also network with other
installations and simulations to support joint training exercises.

Army training modernization must continue to keep pace with equipment modernization and Army transformation in
order to meet expeditionary readiness requirements.


Adapting Training
In FY 2008, the Army conducted 24 rotations at CombatTraining Centers (CTCs). The CTCs provide realistic joint and
combined-arms training that approximates actual combat according to Army and joint doctrine. The CTCs are at the core
of the Army’s collective training strategy and have dedicated resources beyond those available at home-station training
sites. Training is specifically tailored to prepare units for the conditions in the theater to which they will deploy. While the
CTCs have retained the capability for high-intensity unit training needed for other potential theaters of war and the new
modular brigades, the current focus is counter-insurgency operations and lessons from combat in Iraq and Afghanistan. The
training environment emphasizes rapid change and adaptation to current activities, and uses improved facilities, civilians
on the battlefield and realistic scenarios. The complex, event-driven scenarios challenge the BCT to execute multiple,
simultaneous missions that include integrated enablers from the Army and the joint community.

Combat Training Center modernization lags behind Army modernization. CTC commanders are using supplemental funds
to improve their centers and provide conditions that reflect the current operational environment.




General Fund and Working Capital Fund                             10
“Military success in this war is tied to the capabilities of our leaders 

  and Soldiers, and we will not fail to prepare them for success.” 

                                                  — General George Casey, Chief of Staff of the Army




Growing Adaptive Leaders
The current operational environment proves that leaders must possess skills beyond those of pure tactical war fighting.
It instead demands leaders who have developed non-lethal skills in such disciplines as irregular warfare, information
operations, negotiation, cultural awareness, stability and reconstruction operations and foreign language proficiency –
without losing their warfighting focus. The Army initiated and will continue to:

      (1) Incorporate cultural awareness training and education into all levels of Professional Military Education (PME);
      (2) Develop expertise in irregular warfare and full-spectrum operations for Soldiers and leaders from the tactical to
          strategic levels, emphasizing multinational, interagency and joint operations; and
      (3) Encourage language training and cultural education throughout the Army – in schools, through self-development,
          online and in training at CTCs.

Due to the current high operational demand, many of our leaders are unable to attend their PME at the optimal time
in their career. As a result, the Army has a large backlog at nearly all educational levels in both the active and reserve
components. To slow the growth of the backlog, the Army employed mobile training teams for Noncommissioned Officer
(NCO) Education System courses and increased use of distributed learning to facilitate conducting PME within the
constraints of ARFORGEN. As mission requirements change, the Army expects the availability of leaders to attend PME to




                                                                                                                                                             Fiscal Year 2008 United States Army Annual Financial Statement
increase sufficiently to begin reducing the backlog.
                                          Table 9 – Professional Development (AC Schools Only)

                         Warrior Leader          Basic NCO          Advanced NCO          Sergeants Major        Intermediate          Senior Service
                            Course                Course               Course                 Course            Level Education           College

 2008 Trained               26,457                10,817                 9,792                 0/779                 0/508               609/474
These data represent active Army, ARNG and USAR students graduating from active component schools. The FY 2008 resident Sergeants Major Course
does not graduate until May 2009. The FY 2008 Resident Intermediate Level Education classes do not graduate until December 2008 and June 2009. All
data is based on start date (i.e. if a class starts in FY 2007 and graduates in FY 2008 it is counted in the FY 2007 data). FY 2008 Trained data are as of
October 15, 2008. For the Sergeants Major, Intermediate Level and Senior Service College courses, the number to the left of the diagonal represents the
number of FY 2008 entrants graduating as of October 15, 2008. The number to the right of the diagonal represents FY 2008 entrants who remain enrolled in
the course as of October 15, 2008.



The Civilian Education System (CES) will meet the Secretary of the Army’s mandate that leaders of tomorrow be “adaptable
and multi-skilled.” This requires a new paradigm and a centralized development program for training and educating the
Army’s future leaders, “who will serve in both operational and institutional capacities in order to operate, and win, in this
new environment.”




                                                                      11
The Army is keenly aware of the valuable contributions of its Civilian Corps in supporting the National Military Strategy. The
Army must provide its civilians training, education and operational experiences that develop leader competencies and enhance
their ability to support Soldiers, the Army and the nation. To accomplish this, the Civilian Leader Development Program has
been revamped into a training and education system, the CES, that is similar to the military leader development system.
                                                 Table 10 – Civilian Professional Development

                                Senior Service           Senior Fellowship                                   Industrial College of           NATO Staff
                                   College                   Program              National War College       Armed Forces (ICAF)         Orientation Course

 2008 Trained                         42                          1                         56                        111                         10
All data is based on start date (i.e., if a class starts in FY 2007 and graduates in FY 2008 it is counted in the FY 2007 data). FY 2008 Trained data are as of
October 15, 2008.



The CES uses leadership competencies derived from those set by the Office of Personnel Management and those identified
by the Center for Army Leadership. These courses provide leader development training and education that support civilian
leaders’ career path requirements and professional development, and promote lifelong learning and self-development.

In October 2008, CES will complete its first full year. The training is producing adaptive, multi-skilled and innovative leaders,
who are proficient in all disciplines – not just those disciplines in which they specialize. Looking toward FY 2009 and beyond,
CES will provide the training and education underpinnings of the new holistic Enterprise Civilian Human Capital Lifecycle
Management System, which will manage the workforce across the lifecycle from an enterprise perspective to efficiently meet
national security and enterprise needs.


Modernizing and Equipping the Army to Increase Strategic Depth
The Army’s Soldiers and commanders rely on and deserve the very best equipment that can be provided, and they play a large
role in setting Army requirements. Since 2002, the Army has shifted resources in response to the many lessons learned from
Operations Iraqi Freedom and Enduring Freedom. Force protection, communications, surveillance and weapon systems
programs were accelerated to meet Soldiers’ urgent needs. To modernize the force, the Army invested in a variety of new
equipment to replace the outdated and expensive-to-maintain, including trucks and aircraft. For example, the Army expects
to divest its 2.5 ton M35 series trucks over the next five years, replacing them with both armored and un-armored variants of
medium tactical vehicles.

The Army also has accelerated the fielding of the M4 Carbine and Enhanced NightVision Devices, and continued efforts to
provide Soldiers the very best body armor. To address a unique operational requirement, the Army invested in the Mine
Resistant Ambush Protected (MRAP) vehicle. The Army’s aviation fleet was significantly modernized through procurements
of UH-60M Black Hawk, CH-47F Chinook and AH-64D Apache helicopters. The Army is accelerating development of Future
Combat Systems spin-out technologies as well, in order to give today’s Soldiers the most advanced systems possible.

The Rapid Fielding Initiative was initiated to enhance warfighting capabilities through commercial-off-the-shelf technology,
rather than waiting for acquisition programs, to address Soldier requirements and shortfalls. Twenty-four brigade combat
teams and other Army units comprising 196,229 Soldiers were fielded Rapid Fielding Initiative equipment during FY 2008.
The focus of this program continues to be providing the latest equipment to Soldiers as they prepare for deployments.

Units returning from theater enter a RESET phase of ARFORGEN focused on repairing and modernizing their equipment.
RESET extends the life of vital systems and platforms in order to reduce the need to procure new equipment and, in certain
cases, to introduce new technologies during the maintenance and repair process.

The Army continues to invest in the Army National Guard and Army Reserve to enhance their mission capabilities and to ready
forces entering the ARFORGEN cycle for deployment. The fleet age of trucks, combat vehicles, communications systems and
Soldier weapons continues to decline as new equipment is fielded to the reserve component. Army National Guard and Army
Reserve forces preparing to deploy are fielded with the very best equipment, reducing the disparity in modernization between
the active and reserve components – a critical goal in the effort to create strategic depth.



General Fund and Working Capital Fund                                              12
A Soldier works with Australian combat
engineers as they align two sections of
a bridge. Photo by Capt. James Reid,
Combined Task Force Castle




          Reset
          To reset the force, the Army must prepare Soldiers, units and equipment for future deployments and other contingencies.
          Since FY 2003, equipment has been used at unprecedented rates in harsh and demanding desert and mountain
          environments. In addition to fixing, replacing and upgrading equipment, and retraining for future missions, the Army must
          also revitalize Soldiers and their Families by providing them the time and the opportunity to recover from the cumulative
          effects of sustained operations.


          Reset and Repair Army Units and Equipment
          Upon return from deployment,Army units and equipment must be reset to ensure full readiness for future operations. In
          FY 2008, the Reset program was highly successful despite a dynamic strategic environment. For the fiscal year, the Army
          received $16 billion in supplemental funding from the Congress. The Army aggressively executed this funding to restore




                                                                                                                                       Fiscal Year 2008 United States Army Annual Financial Statement
          units’ equipment readiness. The Army obligates the majority of procurement funding within 90 days of receipt, while
          Operation and Maintenance,Army (OMA) obligations occur throughout the fiscal year as equipment returns. The Army
          completed resetting 23 brigades’ worth of equipment during the fiscal year and began resetting 12 more brigades’ worth of
          equipment as surge forces started to return.

          A fully-funded Army Reset program ensures that equipment is operationally ready for use by combat forces in Iraq,
          Afghanistan and other potential contingencies, and by forces that are training prior to deployment. Reset program funding
          should match Reset requirements, and should be provided in a timely manner at the beginning of each fiscal year to
          promote cost efficiencies and process effectiveness, while ensuring the timely return of equipment to support training and
          future deployments.


          Enhancing Logistics Readiness
          Accomplishing logistics information technology transformation objectives is paramount to modernizing the force and
          supporting the warfighter. The Army also must ensure that logistics information systems seamlessly interoperate with
          associated systems in other functional areas, such as finance, personnel, medical, transportation and command/control.




                                                                  13
The Army has a three-tiered strategy: 1) continue support to legacy systems still in the field; 2) replace legacy systems
with modernized bridging systems, as required; and 3) implement Enterprise Resource Planning solutions, the Logistics
Modernization Program (LMP), the Global Combat Support System – Army (GCSS-Army) and Product Lifecycle
Management Plus. The following are key accomplishments during FY 2008:

    n	 GCSS-Army completed a successful operational assessment of the supply module at the National Training Center.

    n	 GCSS-Army received Milestone B approval from the Under Secretary of Defense (Acquisition,Technology and
       Logistics) and began developing maintenance, ammunition and property-book functionality.

    n	 LMP prepared for enterprise expansion to the Army Aviation and Missile Life Cycle Management Command and
       Corpus Christi Army Depot.

    n	 Bridging systems were fielded to 90 percent of the total Army and are on track to complete fielding by end of
       FY 2009.

Together, these initiatives provide more effective support for Soldiers on the front lines of the GWOT, put logistics
management practices in line with world-class businesses, and provide the Army the tools necessary to manage one of the
most valuable, complex logistics systems in the world.

In FY 2008, more than 110,000 items were repaired at depot facilities. This includes, for example, more than 2,000
tracked vehicles (e.g.,Abrams tanks, Bradley Fighting Vehicles, M88 Recovery Vehicles), more than 12,000 wheeled vehicles
(e.g., HMMWVs, Medium and Heavy Tactical Vehicles), more than 20,000 small arms (e.g., rifles, pistols, machine guns),
more than 30,000 communications-electronics items and more than 80 aircraft.




General Fund and Working Capital Fund                           14
A Soldier prepares to fire an M2
.50-caliber machine gun during
mobilization training. (U.S. Army photo
by Staff Sgt. Russell Lee Klika) (www.
army.mil)




            Transform
            To transform itself, the Army must continuously improve its ability to meet the combatant commanders’ needs in a
            changing 21st century security environment. Transformation is a holistic effort to adapt how we fight, train, modernize,
            develop leaders, base our forces and support our Soldiers, Families and civilians. Transformation is a journey, not a
            destination.


            Developing Force Generation Platforms in Support of ARFORGEN
            One deployment infrastructure project was executed in FY 2008 at Fort Lewis,Washington, to support the “Flagships of
            Readiness” concept using Grow the Army funding. This project will improve rail out-loading of vehicles, ammunition and
            other cargo. The upgrade at the rail interchange yard will increase throughput of Army equipment and cargo from 180
            railcars to 240 railcars per day. This growth will facilitate meeting deployment timelines to Europe,Africa and the Middle




                                                                                                                                            Fiscal Year 2008 United States Army Annual Financial Statement
            East when ship loading occurs at Fort Lewis’ designated secondary seaport of embarkation, Norfolk,Virginia. Also included
            in this project is the construction of an engine house, which will facilitate repair and maintenance of the locomotives
            operating at Fort Lewis. The contract was awarded on June 30, 2008. The beneficial occupancy date is scheduled for April
            2010.


            Growing and Modularizing the Army
            The GlobalWar onTerrorism and the requirement to maintain a forward presence, have created both the necessity and the
            opportunity to accelerate change from the current to the future force. The Army’s conversion to a modular force that is
            carefully balanced between the active and reserve components is well under way. Modularity is intertwined throughout
            the force to the point that it is now indistinguishable as a separate effort. As a result, the Army is more lethal, flexible,
            deployable and sustainable.

            The Army Modular Force reorganizes the operational Army into Army Service Component Commands, theater support
            structures, corps and division headquarters, BCTs, and multi-functional and functional support brigades, all based on
            standardized organizational designs across the three components. The intent of this transformation is to:




                                                                      15
     (1) Increase the number of available BCTs to meet operational requirements;

     (2) Create brigade-size combat support and combat service support formations of common organizational designs;
         and

     (3) Redesign organizations to perform as integral parts of the joint force, making them more effective across the range
         of military operations and enhancing their ability to contribute to joint, interagency and multinational efforts.

The Army is increasing its operational end strength in order to man the modular force. The Congress has authorized the
Army to add a total of 74,200 spaces, growing the AC from 482,400 to 547,400; the ARNG from 350,000 to 358,200; and
the USAR from 205,000 to 206,000.

As part of the modular conversion, the Army is rebalancing capability within and among its three components to provide a
force capable of meeting current operational demands with the strategic depth to meet the security challenges of the future.
The AC and RC rebalancing initiative is an incremental process and it continues to evolve. The major tenets of this initiative
include:

     (1) Increasing capabilities to relieve stress on units with persistent shortfalls;

     (2) Eliminating demand for RC forces during the initial phase of an operational deployment; and

     (3) Rebalancing structure to maximize readiness and rotational availability while preserving homeland defense and
         homeland security capabilities.

The Army also is re-designating military positions in the institutional force as civilian slots, where appropriate, freeing
uniformed personnel for the operating force. Already, since FY 2003, 14,000 Soldiers have been returned to the
operational structure. In addition, the Army has been able to improve the individual Soldier assignment process and thereby
ensure full manning of operational units and command posts.

Of the 43 AC maneuver brigades programmed for the end FY 2008, the Army finished converting 38 to the modular
design and was in the process of converting another two. The conversion process can take up to 12 months for an active
component Heavy Brigade Combat Team and Infantry Brigade Combat Team, and as long as 24 months for a Stryker Brigade
Combat Team.

The ARNG began transforming in FY 2005 with an accelerated plan allowing early reorganization, manning and training
under the new BCT designs. Transformation for an ARNG BCT can take as long as 48 months. At the end of FY 2008, the
ARNG was in the process of transforming 28 BCTs. The ARNG will fully convert seven BCTs by the end of FY 2009 and
will complete another seven by the end of FY 2010.

The overall transformation plan is on track to achieve a combined total of 76 BCTs: 48 in the active component and 28 in
the ARNG. Initial transformation covers training, manning and organization only; equipment transformation will occur
over time. Table 11 provides a summary of BCT transformation.




                                                                   16
                                                    Table 11 – BCT Transformation Summary

                                                                        FY 2006                FY 2007                FY 2008
                         AC Transformed                                     31                     35                    38
                         ARNG Transformed                                     0                     0                     0
                         Total Transformed                                  31                     35                    38


                         AC Transforming                                      4                     4                     2
                         ARNG Transforming                                  16                     26                    28
                         Total Transforming                                 20                     30                    30


                         Total Transformation                               51                     65                    68
Transformed means the unit has completed its initial reorganization and re-equipping to a modular design within resource constraints, is participating in the
ARFORGEN process, and may be used against a requirement. Transforming means the unit is still undergoing initial reorganization and re-equipping to a
modular design within resource constraints.



Restructuring Army Aviation
The Army continues to transform its aviation structure as part of its efforts to develop modular, capabilities-based
forces that are optimized to operate in a joint and expeditionary environment. Over the next six years, the Army plans
to accelerate the modernization of the rotary- and fixed-wing aircraft fleets, using the funds made available through
termination of the Comanche program. The Army will also modernize aircraft sensors, execute safety and reliability
modifications, and procure the best available aircraft survivability equipment. This will reduce maintenance costs, increase
survivability and improve readiness rates. Key components of the aviation modernization plan include accelerating
modernization of RC aviation and unmanned aerial vehicle programs, as well as pushing forward the development of a
common cockpit for cargo and utility aircraft.

                                                     Table 12 – Restructuring Army Aviation

                                                                                                            FY 2007            FY 2008          FY 2008
                                                                                                            Delivered           Goals           Delivered
 # of Aircraft Reset (Mix of Operation Enduring Freedom and Operation Iraqi
 Freedom Returning Fixed/Rotary-Wing Aircraft)                                                                  526               401               392




                                                                                                                                                                Fiscal Year 2008 United States Army Annual Financial Statement
 UH-60 Recapitalization                                                                                          27                38                29
 UH-60M Produced                                                                                                 14                56                50
 MH-47G Produced                                                                                                  4                 6                 6
 CH-47 Recapitalization                                                                                           3                 4                 4
 CH-47F Produced                                                                                                 25                26                26
 AH-64 Recapitalization                                                                                          80                96                82
 AH-64D Produced (Wartime Replacements)                                                                          13                 2                 2
 UH-72A Produced                                                                                                  8                33                31


Developing and Fielding FCS and FCS Spin-Outs
The Future Combat Systems (FCS) is the cornerstone of Army Modernization. FCS embodies the Army’s promise to
provide Soldiers the best equipment and technology available as soon as practical. FCS is not just a technology development
program; it is the development of new Brigade Combat Teams. These new brigades, with more infantry Soldiers, better
equipment, and unmatched situational awareness and communications, will enable complete domination in asymmetric




                                                                         17
    “We’re ultimately working toward an agile, globally responsive 

   Army that’s enhanced by modern networks, surveillance sensors, 

    precision weapons and platforms that are lighter, less logistics-

               dependent and less manpower-intensive.

                    It’s a truly 21st century force.” 

                                         — General George Casey, Chief of Staff of the Army




ground warfare and will produce a force that can sustain itself in remote areas. In addition to forming these new FCS
brigades, starting in 2011, early FCS capabilities will be provided to Soldiers in active and National Guard Infantry Brigade
Combat Teams. The FCS program consists of eight new manned ground vehicles, a family of unmanned air and ground
vehicles, the Non-Line-of-Sight Launch System, and advanced tactical and urban sensors that are all connected by a state-
of-the-art network. Working together, these systems will help Soldiers share real-time information across the battlefield.
Overall, FCS will provide Soldiers vastly increased situational awareness, survivability and lethality, ensuring that they can
take the fight to the enemy before the enemy has time to react.


Developing LandWarNet Operational Capabilities
LandWarNet is a capability-focused, orders-based system of systems that is derived from the Army’s Battle Command
and Global Information Grid. It is an integral part of the decision-support process, and enables information-based joint,
interagency, multinational, civil defense, warfighting and support operations, regardless of Joint Operational Phase,
operational urgency or the battlespace circumstances of its authorized users. LandWarNet also provides warfighters the
capability to “train as they fight” and is necessary to creating a global collaborative environment. The transformation of
LandWarNet into an Army enterprise activity within the joint enterprise construct will not only enable network-dependent
capabilities but it will dramatically improve the computer network defense and information assurance posture.

In FY 2008, the Army pursued integration of architectures for the Future Combat Systems network, with communications
spin-outs scheduled for delivery in FY 2010. The Army also continued fielding the Warfighter Information Network-
Tactical Increment 1 (WIN-T Inc 1) and added Ka satellite band upgrades that will leverage the Wideband Global Satellite
constellation. In addition, the Army continued to field the Army Battle Command Systems to units deploying into
operational theaters.

HQDA, in coordination with the Training and Doctrine Command and the WIN-T program manager, restructured the
High Capacity Communications Capability (HC3) satellite terminal program, pending an HC3 program review. The
restructuring ensures that ground combatants will be able to maintain the current AN/TSC-93 and Phoenix satellite
terminals, with life extension upgrades through FY 2020.




General Fund and Working Capital Fund                               18
Developing LandWarNet Institutional Infrastructure
The objective of transformation for the institutional Army is to achieve joint, standardized data collection processes,
effective communication linkages and efficient information sharing among stakeholders. The Installation Information
Infrastructure Modernization Program is providing necessary infrastructure upgrades, with the goal of making Army
installations “docking stations” that allow Soldiers to train as they will fight, with the same equipment and capabilities
in garrison as they use during operational deployments. In FY 2008, the Army modernized information technology
infrastructure at an additional two installations and refreshed four more installations that previously were upgraded.

In addition, the Army continued to apply its defense-in-depth strategy through networthiness certification and
authorization. The Army implemented financial data collection within the mission areas and domains as part of the Army
information technology portfolio management process. The Army completed the Service Migration Plan for the transition
of Army Knowledge On-Line (AKO) to Defense Knowledge Online (DKO), with continued support to AKO services.
Also, the Army established within the G-6 a chief data officer position to oversee data transformation and a general officer
billet to oversee cyber operations.


Implementing Base Realignment and Closure
The Army Base Realignment and Closure (BRAC) 2005 strategy established a streamlined portfolio of installations with
optimized military value and a significantly reduced cost of ownership, which facilitates transformation, joint operations and
joint business functions. The BRAC accommodates the rebasing of overseas units within the Integrated Global Presence and
Basing Strategy, and divests an accumulation of installations that are no longer relevant and are less effective in supporting a
joint and expeditionary Army.

The Army partnered with the other Services to seek joint training, deployment and operational opportunities and
efficiencies in common business functions, as well as to transform reserve component infrastructure. The Army selected
the optimum locations for units returning from overseas, locating modular brigades to ensure that they have the capability
to train and to deploy, and to take care of Families and Soldiers when at home.

The Army BRAC 2005 program is more than three-times larger than the four previous Army BRAC rounds combined, and
represents 53 percent of the entire DoD program. This effort is made more complex by the need to synchronize it with
other Army initiatives and the GlobalWar onTerrorism. The Army will close 13 active component installations, 387 reserve
component installations and eight leased facilities in this round. It realigns 53 installations and functions, and creates 125
multi-component Armed Forces Reserve Centers.




                                                                                                                                   Fiscal Year 2008 United States Army Annual Financial Statement
The Army developed 102 business plans to further define the BRAC 2005 recommendations into a list of more than 1,100
actions. These plans represent Army BRAC requirements and collectively provide the budget input, as well as the means for
measuring the cost and savings associated with each recommendation and achieving full implementation by September 15,
2011.

A majority of the BRAC 2005 actions are dependent on construction at gaining installations, with fully 75 percent of the
total program dedicated to funding 330 major construction projects. FY 2008 was the third year of the six-year BRAC
execution window. In FY 2008, the Army awarded 77 construction projects, valued at $3.4 billion, adding to the 71 already
awarded in FYs 2006 and 2007. To date, the Army has completed seven of these projects. The Army also completed 75
National Environmental Policy Act actions, closed one active installation and nine U.S.Army Reserve Centers, and disposed
of 1,133 excess acres from BRAC 2005 properties.

The program remains fully funded and on track to meet the September 2011 deadline. However, with more than 180
construction projects still to be awarded, and more than 800 unit/activity moves remaining, timely receipt of funding
in the remaining years of the program will be critical to successful execution of an already significantly compressed
implementation schedule.




                                                           19
Implementing the National Security Personnel System
As a result of the GlobalWar onTerrorism, the role of the Army’s civilian workforce is expanding to include more
significant participation in combat support functions. This growth allows military personnel to focus on warfighting duties.

More generally, civilian personnel are vital to maintaining institutional knowledge in the face of frequent rotations of
military personnel. Since the end of the Cold War, the civilian workforce has experienced substantial changes resulting
from downsizing, base realignments and closures, and competitive sourcing initiatives. Considering the Army’s aging
workforce and the “baby bust” anticipated by Bureau of Labor Statistics analyses, the Army’s institutional knowledge and its
future ability to acquire skilled personnel is at risk. In order for the Army to meet present and future mission requirements,
action must be taken to mitigate this risk.

The National Security Personnel System (NSPS) allows DoD to manage civilian personnel with more flexibility and
in a manner that is consistent with the human capital management strategy. NSPS also allows the Army to be a more
competitive and progressive employer at a time when national security demands a highly responsive civilian personnel
management system. It links personnel management to the Army’s overarching goals and enables the Army to rapidly adapt
its civilian workforce composition to meet changes in mission requirements. NSPS was designed to create an environment
in which all employees can excel, be challenged with meaningful work and can be recognized for their contributions.
By the end of FY 2008, the Army had 73,000 civilian employees in NSPS, representing 42 percent of those eligible to
transition to NSPS.


Implementing Business Transformation Initiatives
The Army advanced its journey of BusinessTransformation (BT) in FY 2008, literally touching or impacting everyone in
and every facet of the Army. The BT initiatives continue to focus on three areas: continuous process improvement (CPI),
organizational analysis and design (OA&D) and situational awareness.

The Army chose Lean Six Sigma (LSS) as its CPI methodology. Lean focuses on removing waste while Six Sigma reduces
variation and produces a consistently reliable product, thereby increasing quality. The Army selected LSS because its
methodology is applicable to the vast majority of Army process improvement opportunities. LSS also provides a common
business lexicon that both increases the business acumen of the workforce and creates a common framework in which to
discuss, report and approach process improvement. This commonality is critical to leveraging and replicating work done by
one individual or an entire organization. Progress in FY 2008 validated the Army’s approach to CPI.

In FY 2008, the spearhead for LSS was transitioned to the Army’s Enterprise Task Force to ensure strategic alignment,
continuity of effort and enterprise prioritization. The Army has worked aggressively to institutionalize LSS, including
fostering a culture of continuous improvement and producing the first Army certified LSS Master Black Belts. These Black
Belts are the internal experts who will train, teach, coach and mentor, thereby creating a self-generating LSS capability and
decreasing reliance on external support. The Army also continued to train Green Belts, who executed thousands of projects
in vital areas that need reformation, such as force generation, health care and operational capabilities.

OA&D is designed to identify and to fix typical organizational pathologies, such as ill-defined roles and accountability,
excessive overhead and permanent “temporary” task forces. OA&D looks at organizations from the customer’s viewpoint,
with an understanding that real organizational change and reform need to be catalyzed by external evaluation. OA&D
efforts continued in the Office of the Administrative Assistant and the Installation Management Command (IMCOM), and
were also under way in theTraining and Doctrine Command, the Office of the Chief Information Officer and the Office of
the Assistant Secretary for Acquisition, Logistics and Technology.

The Army continues to field a robust solution of systems and software controls to streamline the Army business enterprise’s
accounting and financial processes. The General Fund Enterprise Business System (GFEBS) is the centerpiece of this effort,



General Fund and Working Capital Fund                           20
and remains on schedule and on budget. On October 1, 2008, the Army successfully implemented Release 1.2 of GFEBS
at the Fort Jackson garrison, along with seven other organizations, including the Installation Management Command
headquarters and the Defense Finance and Accounting Service. Army-wide implementation of GFEBS will improve
financial, asset and real-property management and is scheduled to be completed in FY 2011.


Conclusion
The Army is involved in a difficult but essential transformation. We are simultaneously and significantly increasing our
permanent end strength, accelerating formation of new BCTs, converting the remaining legacy force to modular designs,
modernizing equipment, including fielding improved weapons systems, and carrying out the most significant restationing
in decades. To support these efforts, the Army’s financial managers are balancing resources among a myriad of competing
but critical demands. Clearly, the challenges we face are significant. The degree of difficulty has increased as a result of the
requirement for financial managers to develop and execute simultaneously the largest base and supplemental budgets in the
Army’s history while at war. Implementing the Chief of Staff’s four imperatives to bring the Army back into balance will
take several years, considerable resources, and the continued support of the Congress and the American people.




                                                                                                                                   Fiscal Year 2008 United States Army Annual Financial Statement




                                                           21
Analysis of Financial Statements and Stewardship Information
As discussed in the accompanying independent auditor’s report, longstanding financial management challenges prevent
the Army’s producing auditable financial statements for the Army General Fund and the ArmyWorking Capital Fund. The
Army, however, continues to work with DoD to develop sustainable business practices and enhanced internal controls that
will improve financial management processes and produce quality financial management information. These processes must
be supported by compliant business systems and an effective set of management controls.


General Fund Financial Results and Balance Sheet
The Army General Fund balance sheet includes total assets that exceed $325 billion. Two asset categories, Fund Balance
with Treasury and General Property, Plant and Equipment (GPP&E), comprise 85 percent of total assets, with values of
$163.3 billion and $111.9 billion, respectively.

Liabilities primarily consist of $42.5 billion in Environmental Liabilities and $13.5 billion in Accounts Payable.

                              Figure 2 – Composition of General Fund Assets and Liabilities

                    3%                                                                               2%

                12%                                                              22%
    35%                                          50%                                                                 58%
                                                                            18%




                General Fund Assets                                               General Fund Liabilities
               Fund Balance with Treasury                                             Environmental Liabilities
               General Property, Plant and Equipment                                  Accounts Payable
               Inventory                                                              Other Liabilities
               Remaining Assets                                                       Remaining Liabilities



Fund Balance withTreasury grew by $34.0 billion in FY 2008 due to an increase in Army appropriations received for
               4% GPP&E increased $20.9 billion due to continued deliveries of and upgrades for High Mobility
GWOT requirements.          4%
 10%
Multipurpose Wheeled Vehicles, Bradley combat vehicles and Abrams tanks.
                                                                                  14%
                                                 82%                     26%                                         60%




      Army Working Capital Fund Assets                                   Army Working Capital Fund Liabilities
               Inventory                                                              Accounts Payable
               Fund Balance with Treasury                                             Other Liabilities
               General Property, Plant and Equipment                                  Military Retirement and
               Remaining Assets                                                       Other Federal Employment Benefits




General Fund and Working Capital Fund                             22
                                      Table 13 – Select General Fund Assets and Liabilities

 (Amounts in billions)

                                                                                                 Percentage of FY 2008
 Asset Type                                            FY 2008        FY 2007      Change               Assets
 Fund Balance with Treasury                                $163.3        $129.3         $34.0              50%
 General Property, Plant and Equipment                      111.9          91.0          20.9              35%
 Inventory                                                   40.1          33.9           6.2              12%
 Remaining Assets                                            10.5          10.3           0.2               3%
 Total Assets                                              $325.8        $264.5         $61.3             100%


                                                                                                 Percentage of FY 2008
 Liability Type                                        FY 2008        FY 2007      Change              Liabilities
 Environmental Liabilities                                  $42.5         $45.7         ($3.2)             58%
 Accounts Payable                                            13.5          10.8           2.7              18%
 Other Liabilities                                           15.9          13.5           2.4              22%
 Remaining Liabilities                                          1.5         1.5           0.0               2%
 Total Liabilities                                          $73.4         $71.5          $1.9             100%
Amounts may not sum due to rounding



Army Working Capital Fund Financial Results
Army Working Capital Fund (AWCF) activities maintain the Army’s combat readiness by providing supplies, equipment
and ordnance necessary to prepare, sustain and reset our forces in the most efficient and cost-effective manner possible.
In performing this mission,AWCF activities are obligated to control and minimize costs. Financial performance is
measured through cash management, net operating result (NOR) and accumulated operating results (AOR). Operational
performance is measured by carryover, stock availability and production.


Cash Management
Managing the cash balance is dependent on setting rates to recover full costs, including any prior-year losses, projecting




                                                                                                                                Fiscal Year 2008 United States Army Annual Financial Statement
accurate workload and achieving established operational goals. The AWCF must maintain a sufficient cash balance at the
U.S.Treasury to pay liabilities when due. The AWCF forecasts monthly collections and disbursements to ensure sufficient
funds are available.

The AWCF ended FY 2008 with a cash balance of $2,571.4 million, $1,868.5 million above the 10-day cash level of $702.9
million. The AWCF cash balance will return to a balance closer to the 10-day level when operations in Iraq and Afghanistan
decline and payments associated with the delivery of replacement stocks and repair of spares are higher than inventory sales.

Table 14 shows an overall growth in cash from both operations and direct appropriations offset by transfers out. The AWCF
received direct appropriations for war reserve materiel, inventory augmentation, replacement of inventory combat losses
and higher fuel costs. Transfers were made to several appropriations in support of urgent, unfunded combat requirements.
At some point, part or all of the transfers will require repayment to ensure that the fund has sufficient cash on hand.




                                                           23
                                                              Table 14 – AWCF Cash

                          Cash (Amounts in millions)                  FY 2006        FY 2007       FY 2008
                          Collections                                  $14,053.4       $15,256.7   $16,352.9
                          Disbursements                                 14,260.8        14,335.0    15,934.9
                          Cash from Operations                           (207.5)          921.7           418.0
                          Appropriations Received                          459.5          627.8      1,324.3
                          Transfers Out                                         0         145.7      1,450.0
                          Net Outlays                                      252.1         1,403.8          292.3
                          Cash Balance                                   $875.3         $2,279.1    $2,571.4


Net Operating Result and Accumulated Operating Results
The NOR represents the difference between revenues and costs within a fiscal year. AOR represent the aggregate of all
recoverable net earnings, including prior-year adjustments, since inception of the working capital fund. The goal of the
AWCF is to establish rates that will bring the AOR to zero in the budget year. An activity group’s financial performance is
measured by comparing actual results to the budget’s NOR and AOR.

Supply Management AOR was reduced by $920 million in FY 2008, reflecting a reprogramming of AWCF cash to the
Operation and Maintenance,Army appropriation. Reprogrammed cash is not available for return to customers through
reduced rates.

                                 Table 15 – Net and Accumulated Operating Results by Activity Group

                          Operating Results (Amounts in millions)     FY 2006        FY 2007       FY 2008
                          Industrial Operations NOR                      ($209.3)       ($117.7)      $158.8
                          Industrial Operations AOR*                      $437.8         $324.7       $481.5


                          Supply Management NOR                               $5.5       $489.3       $411.0
                          Supply Management AOR                           ($36.7)        $452.6       ($56.4)
* Includes prior-period AOR adjustments.



Carryover
Carryover is the dollar amount of orders accepted from customers that have not been completed by the end of a fiscal year.
It is a normal part of doing business; these orders enable the industrial workforce to maintain continuity in production
operations. The Army expects carryover for FY 2008 to be less than the allowable amount.

                                                           Table 16 – AWCF Carryover

                         (Amounts in millions)                        FY 2006        FY 2007       FY 2008
                         New Orders                                     $5,425.2        $6,850.3     $6,990.6
                         Allowable Carryover                            $2,115.1        $2,752.4      *
                         Carryover                                      $2,141.3        $3,029.5      *
* Amounts not available at time of printing




General Fund and Working Capital Fund                                    24
Stock Availability
Stock availability measures the percentage of requisitions filled within established timeframes. DoD and the Army have
set a target of 85 percent stock availability. Since FY 2005, stock availability has remained high due to sufficient hardware
funding levels, more accurate customer-demand forecasts and inventory levels built to support combat operations.

                                                  Figure 3 – Stock Availability (percentage)


90


88


86


84
                                                                                                         Stock Availability
82                                                                                                       Target

80        Q1          Q2          Q3         Q4           Q1         Q2             Q3   Q4        Q1     Q2      Q3          Q4


                       FY 2006                                        FY 2007                              FY 2008

Production
Although the Industrial Operations activity group is comprised of 13 activities, the preponderance of workload is
performed at the five hard-iron maintenance depots. Major operations in Iraq and Afghanistan are placing tremendous
demands on equipment. As a result of higher operating tempo, rough desert environments and limited depot maintenance
available in theater, operational fleets are aging at a far greater pace than expected. To counter this, the Army established a
Reset program designed to reverse the effects of combat stress on equipment and to prepare equipment for future missions.
Industrial Operations received $2.3 billion in Reset orders, representing one-third of FY 2008 new orders.

The Army’s depots and their efforts to partner with industry are critical to the entire Reset effort. These repair programs




                                                                                                                                   Fiscal Year 2008 United States Army Annual Financial Statement
must continue through the end of the current conflict and for at least an additional two to three years afterward to
completely reconstitute equipment. Due to actions taken in support of wartime requirements, the Industrial Operations
activity group has dramatically increased depot production over pre-war levels, as illustrated below:

                                               Table 17 – Annual Production Throughput*

                                                      Pre-War             FY 2006        FY 2007        FY 2008
                      Aircraft                            4                    46             66          82
                      Helicopter Engines                <200                  >700        >750           781
                      Bradleys                           144                  600         >850           1,038
                      HMMWVs                            <100                  7,398       9,344          9,471
                      Firefinder Radars                   <1                   57             49          50
                      Track Shoes                     120,000                400,000     141,000        250,660
* Throughput is the number of weapon systems completed for any given year.




                                                                    25
                                                                               18%




AWCF Balance     General
                       Sheet Fund Assets                                             General Fund Liabilities
The AWCF balance Fundsheet  shows
                       Balance withassets  exceeding $24.8 billion, primarily in Inventory
                                    Treasury                                               and Fund Balance
                                                                                         Environmental            with Treasury.
                                                                                                         Liabilities
                 General
Liabilities consist      Property,
                    of Accounts    Plant and
                                Payable   andEquipment                                   Accounts accrued
                                              Other Liabilities, which includes payroll, benefits, Payable annual leave and
                 Inventory                                                               Other Liabilities
workman’s compensation.
                 Remaining Assets                                                        Remaining Liabilities

                                             Figure 4 – AWCF Assets and Liabilities

                   4%
                                 4%
 10%
                                                                                           14%
                                                   82%                      26%                                           60%




       Army Working Capital Fund Assets                                     Army Working Capital Fund Liabilities
                  Inventory                                                               Accounts Payable
                  Fund Balance with Treasury                                              Other Liabilities
                  General Property, Plant and Equipment                                   Military Retirement and
                  Remaining Assets                                                        Other Federal Employment Benefits


                                            Table 18 – AWCF Assets and Liabilities

 (Amounts in millions)

                                                                                                        Percentage of FY 2008
 Asset Type                                          FY 2008          FY 2007           Change                 Assets
 Inventory                                            $20,279.7         $19,728.7            $551.0                82%
 Fund Balance with Treasury                                2,571.4         2,279.1            292.3                10%
 General Property, Plant and Equipment                     1,097.7          996.9             100.8                 4%
 Remaining Assets                                           876.3           712.1             164.2                 4%
 Total Assets                                         $24,825.1         $23,716.8          $1,108.3               100%


                                                                                                        Percentage of FY 2008
 Liability Type                                      FY 2008          FY 2007           Change                Liabilities
 Accounts Payable                                         $1,031.5        $1,120.3           ($88.8)               60%
 Other Liabilities                                          443.0           459.5             (16.5)               26%
 Military Retirement and Other Federal
 Employment Benefits                                        254.5           243.1               11.4               14%
 Total Liabilities                                        $1,729.0        $1,822.9           ($93.9)              100%
Amounts may not sum due to rounding




General Fund and Working Capital Fund                                26
     Limitations
     Limitations of the Financial Statements
     The financial statements have been prepared to report
     the financial position and results of operations for the
     entity, pursuant to the requirements of Title 31, United
     States Code, section 3515(b).

     While the statements have been prepared from the
     books and records of the entity, in accordance with
     the formats prescribed by the Office of Management
     and Budget, the statements are in addition to the
     financial reports used to monitor and control budgetary
     resources which are prepared from the same books and
     records.

     The statements should be read with the realization
     that they are for a component of the United States
     Government, a sovereign entity.




                                                                Fiscal Year 2008 United States Army Annual Financial Statement




27
 Department of Defense - Department of the Army

 CONSOLIDATED BALANCE SHEET
                                                                                                                       Restated
 As of September 30, 2008 and 2007 (Amounts in thousands)                              2008 Consolidated           2007 Consolidated
 ASSETS (Note 2)
 Intragovernmental:
       Fund Balance with Treasury (Note 3)                                         $           163,322,471     $           129,263,268
       Investments (Note 4)                                                                          3,532                       3,448
       Accounts Receivable (Note 5)                                                                499,668                    420,417
       Other Assets (Note 6)                                                                       430,932                    514,835
       Total Intragovernmental Assets                                              $           164,256,603     $           130,201,968


 Cash and Other Monetary Assets (Note 7)                                           $             2,418,049     $             2,183,051
 Accounts Receivable, Net (Note 5)                                                                 619,471                    576,533
 Loans Receivable (Note 8)                                                                                 0                       67
 Inventory and Related Property, Net (Note 9)                                                   40,134,982                  33,938,649
 General Property, Plant and Equipment, Net (Note 10)                                          111,908,995                  90,968,019
 Other Assets (Note 6)                                                                           6,495,961                   6,607,587
 TOTAL ASSETS                                                                      $           325,834,061     $           264,475,874


 LIABILITIES (Note 11)
 Intragovernmental:
       Accounts Payable (Note 12)                                                  $             1,563,994     $             1,729,905
       Debt (Note 13)                                                                                  833                     26,706
       Other Liabilities (Note 15 & 16)                                                          3,647,103                   3,085,453
       Total Intragovernmental Liabilities                                         $             5,211,930     $             4,842,064


 Accounts Payable (Note 12)                                                        $            11,956,805     $             9,108,551
 Military Retirement and Other Federal Employment Benefits (Note 17)                             1,472,383                   1,483,177
 Environmental and Disposal Liabilities (Note 14)                                               42,475,466                  45,698,351
 Loan Guarantee Liability (Note 8)                                                                   2,337                        290
 Other Liabilities (Note 15 and Note 16)                                                        12,240,852                  10,374,078
 TOTAL LIABILITIES                                                                 $            73,359,773     $            71,506,511


 NET POSITION
 Unexpended Appropriations - Other Funds                                           $           153,860,352     $           124,485,255
 Cumulative Results of Operations - Earmarked Funds                                                 52,946                     24,620
 Cumulative Results of Operations - Other Funds                                                 98,560,990                  68,459,488
 TOTAL NET POSITION                                                                $           252,474,288     $           192,969,363


 TOTAL LIABILITIES AND NET POSITION                                                $           325,834,061     $           264,475,874


 The accompanying notes are an integral part of these financial statements.




General Fund
Principal Financial Statements, Notes and Supplementary Information           28
Department of Defense - Department of the Army

CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2008 and 2007 (Amounts in thousands)                         2008 Consolidated            2007 Consolidated
Program Costs
Gross Costs                                                                  $             200,428,354    $             178,746,856
(Less: Earned Revenue)                                                                      (9,927,425)                  (9,823,195)
Net Program Costs                                                            $             190,500,929    $             168,923,661
Net Cost of Operations                                                       $             190,500,929    $             168,923,661


The accompanying notes are an integral part of these financial statements.




                                                                                                                                       Fiscal Year 2008 United States Army Annual Financial Statement




                                                                    29
 Department of Defense - Department of the Army

 CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                                 2008 Earmarked              2008 All Other
 As of September 30, 2008 and 2007 (Amounts in thousands)             Funds                     Funds             2008 Eliminations   2008 Consolidated

 CUMULATIVE RESULTS OF OPERATIONS
 Beginning Balances                                              $            24,621     $       68,459,488       $              0    $     68,484,109
 Prior Period Adjustments:
       Changes in accounting principles (+/-)                                        0                        0                  0                    0
 Beginning balances, as adjusted                                 $            24,621     $       68,459,488       $              0    $     68,484,109
 Budgetary Financing Sources:
       Appropriations used                                                           0          212,944,662                      0         212,944,662
       Nonexchange revenue                                                    10,843                          0                  0              10,843
       Donations and forfeitures of cash and cash
       equivalents                                                             7,325                          0                  0               7,325
       Transfers-in/out without reimbursement                                        0            1,450,000                      0           1,450,000
 Other Financing Sources:
       Transfers-in/out without reimbursement (+/-)                                  0            2,578,457                      0           2,578,457
       Imputed financing from costs absorbed by
       others                                                                        0              948,408                      0             948,408
       Other (+/-)                                                            26,346              2,664,715                      0           2,691,061
 Total Financing Sources                                         $            44,514     $      220,586,242       $              0    $    220,630,756
 Net Cost of Operations (+/-)                                                 16,189            190,484,740                      0         190,500,929
 Net Change                                                      $            28,325     $       30,101,502       $              0    $     30,129,827
 Cumulative Results of Operations                                $            52,946     $       98,560,990       $              0    $     98,613,936


 UNEXPENDED APPROPRIATIONS
 Beginning Balances                                              $                   0   $      124,485,255       $              0    $    124,485,255
 Prior Period Adjustments:
       Changes in accounting principles                                              0                        0                  0                    0
 Beginning balances, as adjusted                                 $                   0   $      124,485,255       $              0    $    124,485,255
 Budgetary Financing Sources:
       Appropriations received                                                       0          231,149,155                      0         231,149,155
       Appropriations transferred-in/out                                             0           14,645,498                      0          14,645,498
       Other adjustments (rescissions, etc)                                          0           (3,474,894)                     0          (3,474,894)
       Appropriations used                                                           0        (212,944,662)                      0        (212,944,662)
 Total Budgetary Financing Sources                               $                   0   $       29,375,097       $              0    $     29,375,097
 Unexpended Apppropriations                                                          0          153,860,352                      0         153,860,352
 Net Position                                                    $            52,946     $      252,421,342       $              0    $    252,474,288


 The accompanying notes are an integral part of these financial statements.




General Fund
Principal Financial Statements, Notes and Supplementary Information             30
Department of Defense - Department of the Army

CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                                2007 Earmarked             2007 All Other
As of September 30, 2008 and 2007 (Amounts in thousands)             Funds                    Funds             2007 Eliminations   2007 Consolidated

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                             $             42,792    $       71,228,205       $              0    $     71,270,997
Prior Period Adjustments:
     Changes in accounting principles (+/-)                                       0            (3,780,694)                     0          (3,780,694)
Beginning balances, as adjusted                                $             42,792    $       67,447,511       $              0    $     67,490,303
Budgetary Financing Sources:
     Appropriations used                                                          0           179,732,087                      0         179,732,087
     Nonexchange revenue                                                        145                         0                  0                 145
     Donations and forfeitures of cash and cash
     equivalents                                                              5,761                         0                  0                5,761
     Transfers-in/out without reimbursement                                  (6,903)                38,700                     0              31,797
Other Financing Sources:
     Transfers-in/out without reimbursement (+/-)                                 0             1,689,316                      0           1,689,316
     Imputed financing from costs absorbed by
     others                                                                       0               954,983                      0             954,983
     Other (+/-)                                                                155           (12,496,778)                     0         (12,496,623)
Total Financing Sources                                        $              (842)    $      169,918,308       $              0    $    169,917,466
Net Cost of Operations (+/-)                                                 17,330           168,906,331                      0         168,923,661
Net Change                                                     $         (18,172)      $        1,011,977       $              0    $        993,805
Cumulative Results of Operations                               $             24,620    $       68,459,488       $              0    $     68,484,108


UNEXPENDED APPROPRIATIONS
Beginning Balances                                             $                  0    $       85,045,798       $              0    $     85,045,798
Prior Period Adjustments:
     Changes in accounting principles                                             0             3,780,694                      0           3,780,694
Beginning balances, as adjusted                                $                  0    $       88,826,492       $              0    $     88,826,492




                                                                                                                                                        Fiscal Year 2008 United States Army Annual Financial Statement
Budgetary Financing Sources:
     Appropriations received                                                      0           214,837,314                      0         214,837,314
     Appropriations transferred-in/out                                            0             1,600,147                      0           1,600,147
     Other adjustments (rescissions, etc)                                         0            (1,046,611)                     0          (1,046,611)
     Appropriations used                                                          0         (179,732,087)                      0        (179,732,087)
Total Budgetary Financing Sources                              $                  0    $       35,658,763       $              0    $     35,658,763
Unexpended Apppropriations                                                        0           124,485,255                      0         124,485,255
Net Position                                                   $             24,620    $      192,944,743       $              0    $    192,969,363


The accompanying notes are an integral part of these financial statements.




                                                                    31
 Department of Defense - Department of the Army

 COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                                         Budgetary Financing Accounts         Non-Budgetary Financing Accounts
                                                                                             Restated           2008
 As of September 30, 2008 and 2007 (Amounts in thousands)             2008 Combined       2007 Combined       Combined        2007 Combined
 BUDGETARY RESOURCES
 Unobligated balance, brought forward, October 1       $                   32,258,188 $       17,409,234 $           590 $               1,292
 Recoveries of prior year unpaid obligations                               16,325,368         17,827,086               0                     0
 Budget authority
      Appropriation                                                      231,167,292        214,853,089                0                     0
      Borrowing authority                                                          0                  0              590                15,500
      Spending authority from offsetting collections
          Earned
            Collected                                                      22,642,208         21,615,878          27,256                   285
            Change in receivables from Federal sources                         90,385             77,579               0                     0
          Change in unfilled customer orders
            Advance received                                                 246,196            199,782                0                     0
            Without advance from Federal sources                           2,836,858          2,430,565                0                     0
      Subtotal                                         $                 256,982,939 $      239,176,893 $         27,846 $              15,785
 Nonexpenditure transfers, net, anticipated and actual                    16,095,498          1,638,847                0                     0
 Permanently not available                                                (3,474,895)        (1,046,610)         (26,628)                    0
 Total Budgetary Resources                             $                 318,187,098 $      275,005,450 $          1,808 $              17,077

 Status of Budgetary Resources:
 Obligations incurred:
      Direct                                                      $      249,952,967 $      217,025,713 $          1,491 $              16,487
      Reimbursable                                                        27,681,171         25,721,549                0                     0
      Subtotal                                                    $      277,634,138 $      242,747,262 $          1,491 $              16,487
 Unobligated balance:
      Apportioned                                                         36,283,194         28,970,760              318                   187
      Exempt from apportionment                                                  125                  0                0                     0
      Subtotal                                                    $       36,283,319 $       28,970,760 $            318 $                 187
 Unobligated balance not available                                         4,269,641          3,287,428               (1)                  403
 Total status of budgetary resources                              $      318,187,098 $      275,005,450 $          1,808 $              17,077
 Change in Obligated Balance:
 Obligated balance, net
      Unpaid obligations, brought forward, October 1              $      116,374,290 $        93,609,036 $             0 $                       0
      Less: Uncollected customer payments                                (19,644,700)        (17,136,557)              0                         0
      from Federal sources, brought forward, October 1
      Total unpaid obligated balance                              $       96,729,590 $       76,472,479 $              0 $                   0
 Obligations incurred net (+/-)                                   $      277,634,138 $      242,747,262 $          1,491 $              16,487
 Less: Gross outlays                                                    (233,290,781)      (202,154,922)          (1,491)              (16,487)
 Obligated balance transferred, net
 Less: Recoveries of prior year unpaid obligations, actual        $      (16,325,368) $      (17,827,086) $            0 $                       0
 Change in uncollected customer
 payments from Federal sources (+/-)                                       (2,927,244)        (2,508,143)              0                         0
 Obligated balance, net, end of period
      Unpaid obligations                                                 144,392,278        116,374,290                0                         0
      Less: Uncollected customer payments (+/-)
      from Federal sources (-)                                           (22,571,943)        (19,644,700)              0                         0
      Total, unpaid obligated balance, net, end of period         $      121,820,335 $        96,729,590 $             0 $                       0
 Net Outlays
 Net Outlays:
      Gross outlays                                               $      233,290,781 $      202,154,922 $          1,491 $              16,487
      Less: Offsetting collections                                       (22,888,403)       (21,815,661)         (27,257)                 (284)
      Less: Distributed Offsetting receipts                                 (674,720)           807,967                0                     0
      Net Outlays                                                 $      209,727,658 $      181,147,228 $        (25,766) $             16,203

 The accompanying notes are an integral part of these financial statements.


General Fund
Principal Financial Statements, Notes and Supplementary Information           32
Note 1.       Significant Accounting Policies

1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the Army General
Fund, as required by the Chief Financial Officers Act of 1990, expanded by the Government Management Reform Act of
1994, and other appropriate legislation. The financial statements have been prepared from the books and records of the
Army General Fund in accordance with the Department of Defense (DoD), Financial Management Regulation (FMR), the
Office of Management and Budget (OMB) Circular A-136, Financial Reporting Requirements, and to the extent possible
generally accepted accounting principles (GAAP). The accompanying financial statements account for all resources for
which the Army General Fund is responsible, unless otherwise noted. Information relative to classified assets, programs,
and operations is excluded from the statements or otherwise aggregated and reported in such a manner that it is not
discernable.

The Army General Fund is unable to fully implement all elements of GAAP and the OMB Circular A-136 due to limitations
of its financial and nonfinancial management processes and systems that feed into the financial statements. The Army
General Fund derives its reported values and information for major asset and liability categories largely from nonfinancial
systems, such as inventory systems and logistic systems. These systems were designed to support reporting requirements
for maintaining accountability over assets and reporting the status of federal appropriations rather than preparing financial
statements in accordance with GAAP. The Army General Fund continues to implement process and system improvements
addressing these limitations.

The Army General Fund currently has 14 auditor identified financial statement material weaknesses: (1) Financial
Management Systems; (2) Fund Balance With Treasury; (3) Accounts Receivable; (4) Inventory; (5) General Property, Plant,
and Equipment; (6) Accounts Payable; (7) Environmental Liabilities; (8) Statement of Net Cost; (9) Statement of Budgetary
Resources; (10) Intragovernmental Eliminations; (11) Accounting Adjustments; (12) Abnormal Account Balances; (13)
Reconciliation of Net Cost of Operations to Budget; and (14) Contingency Payment Audit Trails.


1.B. Mission of the Reporting Entity
The Army mission is to support the National Security and Defense Strategies by providing well-trained, well-led, and well-
equipped forces to the combatant commanders. This mission encompasses the intent of the Congress, as defined in Title
10 of the U.S. Code, to preserve the peace and security, and provide for the defense of the United States, the Territories,




                                                                                                                                    Fiscal Year 2008 United States Army Annual Financial Statement
Commonwealths, and Possessions of the United States, and any areas occupied by the United States; support national
policies; implement national objectives; and overcome any nations responsible for aggressive acts that imperil the peace and
security of the United States.

This mission has been unchanged for the 233-year life of the Army, but the environment and nature of conflict have
undergone many changes over that same time, especially with the GlobalWar onTerrorism. This has required that the Army
simultaneously transform the way that it fights, trains, and equips its soldiers. This transformation is progressing rapidly, but
it must be taken to its full conclusion if the Army is to continue to meet the Nation’s domestic and international security
obligations today and into the future.


1.C. Appropriations and Funds
The Army General Fund receives its appropriations and funds as general, trust, special, and deposit funds. The Army
General Fund uses appropriations and funds to execute its missions and subsequently report on resource usage.

General funds are used for financial transactions funded by congressional appropriations, including personnel, operation and
maintenance, research and development, procurement, and military construction accounts.



                                                           33
Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific
purposes or programs in accordance with the terms of the donor, trust agreement, or statute. Certain trust and special
funds may be designated as earmarked funds. Earmarked funds are financed by specifically identified revenues, required
by statute to be used for designated activities, benefits or purposes, and remain available over time. Earmarked funds also
have a requirement to account for and report on the receipt, use and retention of revenues and other financing sources that
distinguish them from general revenues.

Special fund accounts are used to record government receipts reserved for a specific purpose.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity. The
Army General Fund is acting as an agent or a custodian for funds awaiting distribution.

The Army General Fund is a party to allocation transfers with other federal agencies as a transferring (parent) entity and/
or a receiving (child) entity. Allocation transfers are legal delegations by one agency of its authority to obligate budget
authority and outlay funds for another agency. Generally, all financial activity related to these allocation transfers (e.g.,
budget authority, obligations, outlays) is reported in the financial statements of the parent entity. Exceptions to this general
rule apply to specific funds for which the OMB has directed that all activity be reported in the financial statements of the
child entity. Exceptions include all Treasury-Managed Trust Funds, Executive Office of the President (EOP), and all other
funds specifically designated by OMB. The Army General Fund is a party to other allocation transfers as the child for
the following funds meeting the OMB exception and all related activity is thus included in our financial statements: the
Executive Office of the President (EOP).

The Army General Fund is a party to allocation transfers as the child for the following agencies: Federal Highway
Administration and the U.S. Forestry Service.

The Army General Fund allocates funds, as the parent, to the Department of Agriculture and the Department of
Transportation for Active Army and Army National Guard.


1.D. Basis of Accounting
For FY 2008, the Army General Fund’s financial management systems are unable to meet all of the requirements for
full accrual accounting. Many of the Army General Fund’s financial and nonfinancial feeder systems and processes were
designed and implemented prior to the issuance of GAAP for federal agencies. These systems were not designed to collect
and record financial information on the full accrual accounting basis as required by GAAP. Most of the Army General
Fund’s financial and nonfinancial legacy systems were designed to record information on a budgetary basis.

The DoD has undertaken efforts to determine the actions required to bring its financial and nonfinancial feeder systems
and processes into compliance with GAAP. One such action is the current revision of its accounting systems to record
transactions based on the United States Standard General Ledger (USSGL). Until all of the Army General Fund’s financial
and nonfinancial feeder systems and processes are updated to collect and report financial information as required by
GAAP, the Army General Fund’s financial data will be derived from budgetary transactions (obligations, disbursements,
and collections), transactions from nonfinancial feeder systems, and accruals made of major items such as payroll expenses,
accounts payable, and environmental liabilities.


1.E.     Revenues and Other Financing Sources
The Army General Fund receives congressional appropriations as financing sources for general funds on either an annual or
multi-year basis. When authorized by legislation, these appropriations are supplemented by revenues generated by sales of
goods or services. The Army General Fund recognizes revenue as a result of costs incurred for goods or services provided



General Fund
Principal Financial Statements, Notes and Supplementary Information   34
to other federal agencies and the public. Full cost pricing is the Army General Fund’s standard policy for services provided
as required by OMB Circular A-25,Transmittal Memorandum #1, User Charges. The Army General Fund recognizes
revenue when earned within the constraints of current system capabilities. In some instances, revenue is recognized when
bills are issued.

The Army General Fund does not include nonmonetary support provided by U.S. allies for common defense and mutual
security in amounts reported in the Statement of Net Cost and the Note 21, “Reconciliation of Net Cost of Operations to
Budget.” The U.S. has cost sharing agreements with other countries. Examples include countries where there is a mutual
or reciprocal defense agreement, where U.S. troops are stationed, or where the U.S. Fleet is in a port.


1.F.      Recognition of Expenses
For financial reporting purposes, the DoD policy requires the recognition of operating expenses in the period incurred.
However, because the Army General Fund’s financial and nonfinancial feeder systems were not designed to collect and
record financial information on the full accrual accounting basis, accruals are made for major items such as payroll
expenses, accounts payable, environmental liabilities, and unbilled revenue. Operating Materiels and Supplies (OM&S)
consist of tangible personal property consumed in normal operations, and they are generally recognized as expenses when
the items are purchased. Efforts are underway to transition towards the consumption method for recognizing OM&S
expenses.


1.G. Accounting for Intragovernmental Activities
Preparation of reliable financial statements requires the elimination of transactions occurring among entities within DoD or
between two or more federal agencies. However, the Army General Fund cannot accurately eliminate intragovernmental
transactions by customer because the Army General Fund’s systems do not track buyer and seller data at the transaction
level. Generally, seller entities within the DoD provide summary seller-side balances for revenue, accounts receivable, and
unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the buyer-side records are adjusted to
agree with DoD seller-side balances. IntraDoD balances are then eliminated. The volume of intragovernmental transactions
is so large that after-the-fact reconciliation cannot be accomplished effectively with existing or foreseeable resources. The
DoD is developing long-term system improvements to ensure accurate intragovernmental information, to include sufficient
up-front edits and controls to eliminate the need for after-the-fact reconciliations.

The U.S.Treasury Financial Management Service is responsible for eliminating transactions between DoD and other federal




                                                                                                                                Fiscal Year 2008 United States Army Annual Financial Statement
agencies. TheTreasury Financial Manual, Part 2 – Chapter 4700, “Agency Reporting Requirements for the Financial
Report of the United States Government,” and the U.S.Treasury’s “Federal IntragovernmentalTransactions Accounting
Policy Guide” provide guidance for reporting and reconciling intragovernmental balances. While the DoD is unable to fully
reconcile intragovernmental transactions with all federal partners, the Army General Fund is able to reconcile balances
pertaining to investments in federal securities, Federal Employees’ Compensation Act transactions with the Department of
Labor, and benefit program transactions with the Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included. The Federal
Government does not apportion debt and its related costs to federal agencies. The DoD’s financial statements, therefore,
do not report any portion of the public debt or interest thereon, nor do the statements report the source of public financing
whether from issuance of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing ultimately
may have been obtained through the issuance of public debt, interest costs have not been capitalized since the U.S.Treasury
does not allocate such interest costs to the benefiting agencies.




                                                         35
1.H. Transactions with Foreign Governments and International Organizations
Each year, the Army General Fund sells defense articles and services to foreign governments and international organizations
under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, DoD has authority to sell
defense articles and services to foreign countries and international organizations generally at no profit or loss to the U.S.
Government. Payment in U.S. dollars is required in advance.


1.I.     Funds with the U.S. Treasury
The Army General Fund’s monetary resources are maintained in U.S.Treasury accounts. The disbursing offices of the
Defense Finance and Accounting Service (DFAS), the Military Services, the U.S.Army Corps of Engineers (USACE),
and the Department of State’s financial service centers process the majority of the Army General Fund’s cash collections,
disbursements, and adjustments worldwide. Each disbursing station prepares monthly reports to the U.S.Treasury on
check issues, electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S.Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S.Treasury records these transactions to the applicable
Fund Balance with Treasury (FBWT) account. The Army General Fund’s recorded balance in the FBWT accounts and U.S.
Treasury’s FBWT accounts must reconcile monthly.


1.J.      Foreign Currency
Cash is the total of cash resources under the control of DoD, which includes coin, paper currency, negotiable instruments,
and amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total U.S. dollar
equivalent of both purchased and nonpurchased foreign currencies held in foreign currency fund accounts.

The majority of cash and all foreign currency is classified as nonentity and is restricted. Amounts reported consist
primarily of cash and foreign currency held by disbursing officers to carry out their paying, collecting, and foreign currency
accommodation exchange missions. Cash seized during Operation Iraqi Freedom is restricted for use to assist the Iraqi
people and support the restoration of Iraq.

The Army General Fund conducts a significant portion of its operations overseas. The Congress established a special
account to handle the gains and losses from foreign currency transactions for five general fund appropriations: operations
and maintenance, military personnel, military construction, family housing operations and maintenance, and family
housing construction. The gains and losses are computed as the variance between the exchange rate current at the date of
payment and a budget rate established at the beginning of each fiscal year. Foreign currency fluctuations related to other
appropriations require adjustments to the original obligation amount at the time of payment. The Army General Fund does
not separately identify currency fluctuation transactions.


1.K. Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes three categories: accounts, claims, and refunds receivable
from other federal entities or from the public. Allowances for uncollectible accounts due from the public are based on
the estimate of uncollectible accounts receivable from the public on a percentage of aged receivables by category. The
allowance is calculated by using 50 percent of aged receivables in the 180-day to 2-year category and 100 percent of aged
receivables in the greater than 2-year category. The DoD does not recognize an allowance for estimated uncollectible
amounts from other federal agencies. Claims against other federal agencies are to be resolved between the agencies in
accordance with dispute resolution procedures defined in the Intragovernmental Business Rules published in theTreasury
Financial Manual.




General Fund
Principal Financial Statements, Notes and Supplementary Information   36
1.L.        Direct Loans and Loan Guarantees
The Army General Fund operates a loan guarantee program designed to encourage commercial use of inactive government
facilities. The revenue generated from property rental offsets the cost of maintaining these facilities.

The “Federal Credit Reform Act of 1990” governs all amended direct loan obligations and loan guarantee commitments
made after FY 1991 resulting in direct loans or loan guarantees.


1.M. Inventories and Related Property
The Army General Fund manages only military or government specific materiel under normal conditions. “Materiel”
is a unique term that relates to military force management, and includes all items (including ships, tanks, self-propelled
weapons, aircraft, etc., and related spares, repair parts, and support equipment, but excluding real property, installations,
and utilities) necessary to equip, operate, maintain, and support military activities without distinction as to its application
for administrative or combat purposes. Items commonly used in and available from the commercial sector are not managed
in the Army General Fund materiel management activities. Operational cycles are irregular and the military risks associated
with stock-out positions have no commercial parallel. The Army General Fund holds materiel based on military need and
support for contingencies. The DoD does not attempt to account separately for “inventory held for sale” and “inventory
held in reserve for future sale” based on SFFAS No. 3 definitions, unless otherwise noted.

Related property includes Operating Materiels and Supplies (OM&S). The OM&S, including munitions not held for
sale, are valued at standard purchase price. The Army General Fund uses both the consumption method and the purchase
method of accounting for OM&S. Items that are centrally managed and stored, such as ammunition and engines, are
generally recorded using the consumption method and are reported on the Balance Sheet as OM&S. When current systems
cannot fully support the consumption method, the Army General Fund uses the purchase method. Under this method,
materials and supplies are expensed when purchased. During FY 2008, the Army General Fund expensed significant
amounts using the purchase method because the systems could not support the consumption method or management
deemed that the item was in the hands of the end user. This is a material weakness for the DoD and long-term system
corrections are in process. Once the proper systems are in place, these items will be accounted for under the consumption
method of accounting.

The Army General Fund determined that the recurring high dollar value of OM&S in need of repair is material to the
financial statements and requires a separate reporting category. Many high dollar items, such as aircraft engines, are




                                                                                                                                  Fiscal Year 2008 United States Army Annual Financial Statement
categorized as OM&S rather than military equipment.

The Army General Fund recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.” The cost of disposal
is greater than the potential scrap value, therefore, the net value of condemned materiel is zero. Potentially redistributed
materiel, presented in previous years as “Excess, Obsolete, and Unserviceable,” is included in the “Held for Use” or “Held
for Repair” categories according to its condition.


1.N. Investments in U.S. Treasury Securities
The Army General Fund reports investments in U.S.Treasury securities at cost, net of amortized premiums or discounts.
Premiums or discounts are amortized over the term of the investment using the effective interest rate method or another
method obtaining similar results. The Army General Fund’s intent is to hold investments to maturity, unless they are
needed to finance claims or otherwise sustain operations. Consequently, a provision is not made for unrealized gains or
losses on these securities.

The Army General Fund invests in nonmarketable market-based U.S.Treasury securities. These are U.S.Treasury securities
that are issued by the Bureau of Public Debt to federal agencies. They are not traded on any securities exchange but mirror
the prices or particular U.S.Treasury securities traded in the government securities market.



                                                          37
1.O. General Property, Plant and Equipment
The Army General Fund uses the estimated historical cost for valuing military equipment. The DoD identified the universe
of military equipment by accumulating information relating to program funding and associated military equipment,
equipment useful life, program acquisitions, and disposals to establish a baseline. The military equipment baseline is
updated using expenditure, acquisition and disposals information.

The DoD’s General Property, Plant & Equipment (General PP&E) capitalization threshold is $100,000 except for real
property which is $20,000. The Army General Fund has not implemented the threshold for real property but expects to be
fully compliant by FY 2009. Army General Fund is currently using the capitalization threshold of $100,000 for all General
PP&E.

General PP&E assets are capitalized at historical acquisition cost when an asset has a useful life of two or more years, and
when the acquisition cost equals or exceeds the DoD capitalization threshold. The DoD also requires the capitalization
of improvements to existing General PP&E assets if the improvements equal or exceed DoD capitalization threshold and
extend the useful life or increase the size, efficiency, or capacity of the asset. The DoD depreciates all General PP&E, other
than land, on a straight-line basis.

General PP&E previously capitalized at amounts below $100,000 was written off the Army General Fund financial
statements in FY 1998.

When it is in the best interest of the government, the Army General Fund provides government property to contractors
to complete contract work. The Army General Fund either owns or leases such property, or it is purchased directly by the
contractor for the government based on contract terms. When the value of contractor-procured General PP&E exceeds
the DoD capitalization threshold, Federal accounting standards require that it be reported on the Army General Fund’s
Balance Sheet.

The DoD is developing new policies and a contractor reporting process for Government Furnished Equipment that will
provide appropriate General PP&E information for future financial statement reporting purposes. Accordingly, the Army
General Fund reports only government property in the possession of contractors that is maintained in Army General Fund’s
property systems. The DoD has issued new property accountability and reporting requirements that require the Army
General Fund to maintain, in their property systems, information on all property furnished to contractors. This action and
other DoD proposed actions are structured to capture and report the information necessary for compliance with federal
accounting standards.


1.P.      Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, the DoD policy is to record advances
and prepayments in accordance with GAAP. As such, payments made in advance of the receipt of goods and services should
be reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when the
related goods and services are received. The Army General Fund has not implemented this policy primarily due to system
limitations.


1.Q. Leases
Lease payments for the rental of operating facilities are classified as either capital or operating leases. When a lease is
essentially equivalent to an installment purchase of property (a capital lease),Army General Fund records the applicable
asset and liability if the value equals or exceeds the current capitalization threshold. The Army General Fund records the
amounts as the lesser of the present value of the rental and other lease payments during the lease term (excluding portions
representing executory costs paid to the lessor) or the asset’s fair market value. The discount rate for the present value



General Fund
Principal Financial Statements, Notes and Supplementary Information   38
calculation is either the lessor’s implicit interest rate or the government’s incremental borrowing rate at the inception of
the lease. The Army General Fund as the lessee receives the use and possession of leased property, for example, real estate
or equipment, from a lessor in exchange for a payment of funds. An operating lease does not substantially transfer all the
benefits and risk of ownership. Payments for operating leases are charged to expense over the lease term as it becomes
payable.

Office space and leases entered into by Army General Fund in support of contingency operations are the largest component
of operating leases. These costs were gathered from existing leases, General Services Administration bills, and Interservice
Support Agreements. Future year projections use the Consumer Price Index (CPI), rather than the DoD inflation factor.
The CPI impacts increases to the leases, especially those at commercial lease sites. Equipment leases have a variety of lease
terms which are not expected to be renewed upon expiration. Other operating leases are generally one-year leases. The
Army General fund will strive to displace commercial leases with more economical GSA leases.


1.R. Other Assets
Other assets include those assets, such as military and civil service employee pay advances, travel advances, and certain
contract financing payments that are not reported elsewhere on Army General Fund’s Balance Sheet.

The Army General Fund conducts business with commercial contractors under two primary types of contracts: fixed price
and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause,
Army General Fund may provide financing payments. Contract financing payments are defined in the Federal Acquisition
Regulations, Part 32, as authorized disbursements of monies to a contractor prior to acceptance of supplies or services
by the Government. Contract financing payments clauses are incorporated in the contract terms and conditions and may
include advance payments, performance-based payments, commercial advance and interim payments, progress payments
based on cost, and interim payments under certain cost-reimbursement contracts.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments,
or progress payments based on a percentage or stage of completion, which the Defense Federal Acquisition Regulation
Supplement authorizes only for construction of real property, shipbuilding, and ship conversion, alteration, or repair.
Progress payments for real property and ships are reported as Construction In Progress. It is DoD policy to record certain
contract financing payments as Other Assets.




                                                                                                                                     Fiscal Year 2008 United States Army Annual Financial Statement
1.S.      Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12, “Recognition
of Contingent Liabilities Arising from Litigation,” defines a contingency as an existing condition, situation, or set of
circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more
future events occur or fail to occur. The Army General Fund recognizes contingent liabilities when past events or exchange
transactions occur, a future loss is probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at
least a reasonable possibility of incurring a loss or additional losses. Examples of loss contingencies include the collectibility
of receivables, pending, or threatened litigation, and possible claims and assessments. The Army General Fund’s risk of loss
and resultant contingent liabilities arise from pending or threatened litigation or claims and assessments due to events such
as aircraft, ship and vehicle accidents; medical malpractice; property or environmental damages; and contract disputes.

Other liabilities arise as a result of anticipated disposal costs for Army General Fund’s assets. This type of liability has two
components: nonenvironmental and environmental. Consistent with SFFAS No. 6, “Accounting for Property, Plant and
Equipment,” recognition of an anticipated environmental disposal liability begins when the asset is placed into service.




                                                            39
Nonenvironmental disposal liabilities are recognized for assets when management decides to dispose of an asset based
upon DoD’s policy, which is consistent with SFFAS No. 5 “Accounting for Liabilities of Federal Government.” The DoD
recognizes nonenvironmental disposal liabilities for military equipment nuclear-powered assets when placed into service.
Such amounts are developed in conjunction with, and not easily identifiable from, environmental disposal costs.


1.T.     Accrued Leave
The Army General Fund reports as liabilities military leave and civilian earned leave, except sick leave, that has been
accrued and not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported at the end of the
accounting period reflects the current pay rates.


1.U. Net Position
Net Position consists of Unexpended Appropriations and Cumulative Results of Operations.

Unexpended Appropriations represent the amounts of authority that are unobligated and have not been rescinded or
withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have not
been incurred.

Cumulative Results of Operations represent the net difference, since inception of an activity, between expenses and losses
and financing sources (including appropriations, revenue, and gains). Beginning with FY 1998, the cumulative results also
include donations and transfers in and out of assets that were not reimbursed.


1.V.      Treaties for Use of Foreign Bases
The DoD has the use of the land, buildings, and other overseas facilities that are obtained through various international
treaties and agreements negotiated by the Department of State. The Army General Fund purchases capital assets overseas
with appropriated funds; however, the host country retains title to land and improvements. Generally, treaty terms
allow the Army General Fund continued use of these properties until the treaties expire. In the event treaties or other
agreements are terminated, whereby use of the foreign bases is prohibited, losses are recorded for the value of any
nonretrievable capital assets. The settlement due to the U.S. or host nation is negotiated and takes into account the value of
capital investments and may be offset by the cost of environmental cleanup.


1.W. Comparative Data
The Army General Fund’s financial statements and notes are presented on a comparative basis.


1.X.       Unexpended Obligations
The Army General Fund obligates funds to provide goods and services for outstanding orders not yet delivered. Unless
the title has passed, the financial statements do not reflect a liability for payment for goods and services not yet delivered.
Unexpended obligations includes both obligations for which goods and services have been delivered (title passed) and
a liability recognized, and obligations for which no delivery has occurred and no liability recognized. The balance of
unexpended obligations appears immediately before net outlays in the Statement of Budgetary Resources, and is referred to
as “Total, unpaid obligated balances, net, end of period.”


1.Y.      Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at
the transaction level to a specific obligation, payable, or receivable in the activity field records as opposed to those reported
by the U.S.Treasury. These amounts should agree with the undistributed amounts reported on the monthly accounting



General Fund
Principal Financial Statements, Notes and Supplementary Information   40
reports. In transit payments are those payments that have been made, but have not been recorded in the fund holder’s
accounting records. These payments are applied to the entities’ outstanding accounts payable balance. In-transit collections
are those collections from other agencies or entities that have not been recorded in the accounting records. These
collections are also applied to the entities’ accounts receivable balance.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal
categories based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable.
Unsupported undistributed disbursements are recorded in accounts payable. Unsupported undistributed collections are
recorded in other liabilities.


1.Z.     Significant Events
No significant events noted.


Note 2.        Nonentity Assets

 As of September 30                                                       2008                            2007
 (Amounts in thousands)

 1. Intragovernmental Assets
   A. Fund Balance with Treasury                              $                    816,703 $                       663,415
   B. Accounts Receivable                                                                 0                               0
   C. Total Intragovernmental Assets                          $                    816,703 $                       663,415
 2. Nonfederal Assets
   A. Cash and Other Monetary Assets                          $                  2,418,049 $                     2,183,050
   B. Accounts Receivable                                                           14,136                          16,752
   C. Other Assets                                                                        0                               0
   D. Total Nonfederal Assets                                 $                  2,432,185 $                     2,199,802
 3. Total Nonentity Assets                                    $                  3,248,888 $                     2,863,217
 4. Total Entity Assets                                       $               322,585,173 $                   261,612,657
 5. Total Assets                                              $               325,834,061 $                   264,475,874




                                                                                                                               Fiscal Year 2008 United States Army Annual Financial Statement
Definitions

Nonentity assets are assets for which the Army General Fund maintains stewardship accountability and responsibility to
report, but are not available for the Army General Fund’s operations.

Nonentity Fund Balance withTreasury consists of deposit funds for humanitarian relief and reconstruction, seized Iraqi
cash, and Development Fund Iraq (DFI). Deposit funds are generally used to record amounts held temporarily until paid
to the appropriate government or public entity. Humanitarian relief and reconstruction deposit funds are funds held for
expenditures on behalf of the Iraqi people. Seized Iraqi cash is former Iraqi regime monies confiscated by coalition forces.
The DFI consists of proceeds from Iraqi oil sales, repatriated assets from the United States and other nations, and deposits
from unencumbered oil-for-food program funds. The deposit funds for seized Iraqi cash and DFI consist of residual
amounts only. The Nonentity Fund Balance with Treasury consists primarily of humanitarian relief and reconstruction funds
held for expenditures on behalf of the Iraqi people.




                                                         41
Nonentity Cash and Other Monetary Assets consist of cash held by disbursing officers to carry out their paying and
collecting missions, and foreign currency accommodation exchange primarily consisting of the burden sharing for the
Republic of Korea. Foreign currency is valued using the U.S.Treasury prevailing rate of exchange.

Nonentity Nonfederal Accounts Receivables are primarily from canceled year appropriations. These receivables will be
returned to the U.S.Treasury as miscellaneous receipts once collected.


Note 3.          Fund Balance with Treasury

 As of September 30                                                            2008                          2007
 (Amounts in thousands)

 1. Fund Balances
    A. Appropriated Funds                                              $           162,453,643 $                128,544,970
    B. Revolving Funds                                                                    4,286                        6,992
    C. Trust Funds                                                                        1,674                          976
    D. Special Funds                                                                     46,165                       46,915
    E. Other Fund Types                                                                 816,703                      663,415
    F. Total Fund Balances                                             $           163,322,471 $                129,263,268
 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                                       $           164,616,052 $                128,737,334
    B. Fund Balance per Army                                                       163,322,471                  129,263,269
 3. Reconciling Amount                                                 $              1,293,581 $                   (525,934)

Other Fund Types

Other FundTypes consists of deposit funds, clearing accounts, unavailable receipt accounts, Seized Iraqi Cash, and the
Development Fund Iraq (DFI). Deposit funds are generally used to record amounts held temporarily until paid to the
appropriate government or public entity. Clearing accounts are used as a temporary suspense account until later paid by or
refunded into another account or when the Government acts as a banker or agent for others. Unavailable receipt accounts
are credited with all collections not earmarked by law for a specific purpose. These include: taxes, customs duties, and
miscellaneous receipts. Seized Iraqi cash is former Iraqi regime monies confiscated by coalition forces. The DFI consists of
proceeds from Iraqi oil sales, repatriated assets from the United States and other nations, and deposits from unencumbered
oil-for-food program funds.

Reconciling Amount

The U.S.Treasury reported an additional $1.3 billion in Fund Balance withTreasury than reported by the Army General
Fund. This includes $1.2 billion in canceling year authority, $145.0 million in unavailable receipts and ($14.6) million in
net differences due to the U.S.Treasury treatment of allocation transfers.




General Fund
Principal Financial Statements, Notes and Supplementary Information   42
Status of Fund Balance with Treasury
 As of September 30                                                     2008                              2007
 (Amounts in thousands)

 1. Unobligated Balance
   A. Available                                            $                   36,283,637 $                       28,970,947
   B. Unavailable                                                               4,269,641                          3,287,831
 2. Obligated Balance not yet Disbursed                                      144,392,279                         116,374,288
 3. Nonbudgetary FBWT                                                            952,390                             278,513
 4. Non-FBWT Budgetary Accounts                                              (22,575,476)                        (19,648,311)
 5. Total                                                  $                 163,322,471 $                       129,263,268

Definitions

The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support the FBWT.

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to cover
outstanding obligations. Unobligated Balance is classified as available or unavailable and is associated with appropriations
expiring at fiscal year end that remain available only for obligation adjustments until the account is closed. Unobligated
Balance Unavailable consists of unobligated or unapportioned authority that has expired, which restricts the ability to incur
new obligations.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not been received,
services that have not been performed, and goods and services that have been delivered/received but not yet paid.

Nonbudgetary FBWT includes entity and nonentity FBWT accounts which represent adjustments that do not have
budgetary authority, such as unavailable receipt accounts, clearing accounts, deposit accounts and Iraqi custodial accounts.

Non-FBWT Budgetary Accounts represent adjustments to budgetary accounts that do not affect FBWT, such as contract
authority, borrowing authority and investment accounts, accounts receivable, as well as unfilled orders without advance
from customers. This category reduces the Status of FBWT.




                                                                                                                                Fiscal Year 2008 United States Army Annual Financial Statement




                                                          43
Note 4.          Investments and Related Interest

                                                                                                               2008
                                                                                                            Amortized                      Market
 As of September 30                                                                    Amortization        (Premium) /     Investments,     Value
 (Amounts in thousands)                                                   Cost           Method             Discount           Net        Disclosure

 1. Intragovernmental Securities
    A. Nonmarketable, Market-Based
       1. Military Retirement Fund                                    $           0                        $           0   $         0    $        0
       2. Medicare Eligible Retiree Health Care Fund                              0                                    0             0             0
       3. US Army Corps of Engineers                                              0                                   0              0             0
       4. Other Funds                                                      3,449      Effective Interest              51         3,500        3,530
       5. Total Nonmarketable, Market-Based                           $    3,449                           $          51   $     3,500    $   3,530
    B. Accrued Interest                                                          32                                                 32            32
    C. Total Intragovernmental Securities                             $    3,481                           $          51   $     3,532    $   3,562
 2. Other Investments
    A. Total Other Investments                                        $           0                        $           0   $         0          N/A


                                                                                                               2007
                                                                                                            Amortized                      Market
 As of September 30                                                                    Amortization        (Premium) /     Investments,     Value
 (Amounts in thousands)                                                   Cost           Method             Discount           Net        Disclosure

 3. Intragovernmental Securities
    A. Nonmarketable, Market-Based
       1. Military Retirement Fund                                    $           0                        $           0   $         0    $        0
       2. Medicare Eligible Retiree Health Care Fund                              0                                    0             0             0
       3. US Army Corps of Engineers                                              0                                    0             0             0
       4. Other Funds                                                      3,384      Effective Interest              30         3,414        3,257
       5. Total Nonmarketable, Market-Based                           $    3,384                           $          30   $     3,414    $   3,257
    B. Accrued Interest                                                          34                                                 34            34
    C. Total Intragovernmental Securities                             $    3,418                           $          30   $     3,448    $   3,291
 4. Other Investments
    A. Total Other Investments                                        $           0                        $           0   $         0          N/A

The Other Funds include the Army Gift Fund. The Army Gift Fund was established to control and account for the
disbursement and use of monies donated to the Army General Fund along with the interest received from the investment
of such donations. The related earnings are allocated to appropriate Army General Fund activities to be used in accordance
with the directions of the donor. These funds are recorded as Nonmarketable Market-Based U.S.Treasury Securities, which
are not traded on any securities exchange, but mirror the prices of marketable securities with similar terms.

The Federal Government does not set aside assets to pay future benefits or other expenditures associated with earmarked
funds. The cash receipts collected from the public for an earmarked fund are deposited in the U.S.Treasury, which uses
the cash for general government purposes. U.S.Treasury securities are issued to the Army General Fund as evidence of its
deposits. U.S.Treasury securities are an asset to the Army General Fund and a liability to the U.S.Treasury. Because the
Army General Fund and the U.S.Treasury are both parts of the Government, these assets and liabilities offset each other
from the standpoint of the Government as a whole. For this reason, they do not represent an asset or a liability in the U.S.



General Fund
Principal Financial Statements, Notes and Supplementary Information              44
Governmentwide financial statements. The U.S.Treasury securities provide the Army General Fund with authority to draw
upon the U.S.Treasury to make expenditures. When the Army General Fund requires redemption of these securities to
make expenditures, the Government finances those expenditures out of accumulated cash balances, by raising taxes or other
receipts, by borrowing from the public or repaying less debt, or by curtailing other expenditures. This is the same way that
the Government finances all other expenditures.


Note 5.        Accounts Receivable

                                                                              2008                                       2007
                                                                           Allowance
 As of September 30                                     Gross Amount      For Estimated          Accounts              Accounts
 (Amounts in thousands)                                     Due           Uncollectibles       Receivable, Net       Receivable, Net

 1. Intragovernmental Receivables                      $        499,668              N/A       $       499,668       $     420,417
 2. Nonfederal Receivables (From the Public)                    729,785   $    (110,314)               619,471             576,533
 3. Total Accounts Receivable                          $    1,229,453     $    (110,314)       $     1,119,139       $     996,950


Note 6.        Other Assets

 As of September 30                                                                                2008                  2007
 (Amounts in thousands)

 1. Intragovernmental Other Assets
   A. Advances and Prepayments                                                             $         430,932     $          514,835
   B. Other Assets                                                                                         0                       0
   C. Total Intragovernmental Other Assets                                                 $         430,932     $          514,835
 2. Nonfederal Other Assets
   A. Outstanding Contract Financing Payments                                              $        6,469,032    $       6,011,028
   B. Advances and Prepayments on behalf of Foreign Governments                                            0                       0
   C. Advances and Prepayments                                                                        26,929                596,559
   D. Other Assets (With the Public)                                                                       0                       0




                                                                                                                                       Fiscal Year 2008 United States Army Annual Financial Statement
   E. Total Nonfederal Other Assets                                                        $        6,495,961    $       6,607,587
 3. Total Other Assets                                                                     $        6,926,893    $       7,122,422

Contract terms and conditions for certain types of contract financing payments convey certain rights to the Army General
Fund that protect the contract work from state or local taxation, liens or attachment by the contractor’s creditors, transfer
of property, or disposition in bankruptcy; however, these rights should not be misconstrued to mean that ownership of the
contractor’s work has transferred to the Government. The Government does not have the right to take the work, except
as provided in contract clauses related to termination or acceptance, and the Army General Fund is not obligated to make
payment to the contractor until delivery and acceptance.

The Outstanding Contract Financing Payment balance of $6.5 billion is comprised of $6.1 billion in contract financing
payments and an additional $421.1 million in estimated future payments that will be paid to the contractor upon future
delivery and Government acceptance of a satisfactory product. See additional discussion in Note 15, Other Liabilities.




                                                           45
Note 7.          Cash and Other Monetary Assets

 As of September 30                                                              2008                         2007
 (Amounts in thousands)

 1. Cash                                                                   $            1,088,505 $                  1,101,981
 2. Foreign Currency                                                                    1,329,544                    1,081,070
 3. Other Monetary Assets                                                                       0                            0
 4. Total Cash, Foreign Currency, & Other Monetary Assets                  $            2,418,049 $                  2,183,051

Other Information Related to Cash and Other Monetary Assets

Cash consists primarily of cash held by disbursing officers to carry out their paying and collecting mission. Foreign
currency consists primarily of burden sharing funds from the Republic of Korea.

Foreign currency is valued using the U.S.Treasury Prevailing Rate of Exchange. This rate is the most favorable rate that
would legally be available to the U.S. Government’s acquisition of foreign currency for its official disbursements and
accommodation of exchange transactions. All the Army General Fund cash and foreign currency is nonentity and is,
therefore, restricted.


Note 8.          Direct Loan and Loan Guarantees
As of September 30

Direct Loan and/or Loan Guarantee Programs

The Army General Fund operates a loan guarantee program, the Armament Retooling & Manufacturing Support (ARMS)
Initiative Loan Guarantee Program, designed to encourage commercial use of inactive government facilities. The revenue
generated from property rental offsets the cost of maintaining these facilities.

The “Federal Credit Reform Act of 1990” governs all loan guarantee commitments made after FY 1991 resulting in direct
loans or loan guarantees. The Army General Fund does not operate a direct loan program.

Loan guarantee liabilities are reported at the net present value. The cost of the loan guarantee is the net present value of the
following estimated projected cash flows:

      n	 Payments by the Army General Fund to cover defaults and delinquencies, interest subsidies, or other payments;
         offset by

      n	 Payments to the Army General Fund including origination and other fees, penalties, and recoveries.


Armament Retooling and Manufacturing Support Initiative

The ARMS Initiative,Title 10 United States Code 4551-4555, is a Loan Guarantee Program designed to encourage
commercial use of the Army General Fund’s Inactive Ammunition Plants through many incentives for businesses willing to
locate to a government ammunition production facility. The production capacity of these facilities is greater than current
military requirements; however, this capacity may be needed by the military in the future. The revenues from the property
rental are used to pay for the operation, maintenance and environmental cleanup at the facilities. The resulting savings in



General Fund
Principal Financial Statements, Notes and Supplementary Information   46
overhead costs lower the production cost of the goods manufactured and fund environmental cleanup at no cost to the
government.

The Army General Fund, by means of ARMS Initiative legislation, established a loan guarantee program to facilitate
commercial firms’ use of specified ammunition manufacturing facilities. The Army and U.S. Department of Agriculture
(USDA) Rural Business-Cooperative Service (RBS) established a memorandum of understanding for the RBS to administer
the ARMS Initiative loan guarantee program.

Loan Guarantees

In an effort to preclude additional Army General Fund loan liability, the Assistant Secretary of the Army (Acquisition,
Logistics andTechnology) instituted an ARMS loan guarantee moratorium in 2004. The Army General Fund continues to
operate under the moratorium, and does not anticipate initiating new loan guarantees.


Summary of Direct Loans and Loan Guarantees
 As of September 30                                                                      2008                   2007
 (Amounts in thousands)

 Loans Receivable
 Direct Loans
   1. Foreign Military Loan Liquidating Account                                     $               0       $             0
   2. Military Housing Privatization Initiative                                                     0                     0
   3. Foreign Military Financing Account                                                            0                     0
   4. Military Debt Reduction Financing Account                                                     0                     0
   5. Total Direct Loans                                                            $               0       $             0
 Defaulted Loan Guarantees
   6. A. Foreign Military Financing Account                                         $               0       $             0
      B. Military Housing Privatization Initiative                                                  0                     0
      C. Armament Retooling & Manufacturing Support Initiative                                      0                   67
   7. Total Default Loan Guarantees                                                 $               0       $           67




                                                                                                                              Fiscal Year 2008 United States Army Annual Financial Statement
   8. Total Loans Receivable                                                        $               0       $           67
 Loan Guarantee Liability
   1. Foreign Military Liquidating Account                                          $               0       $             0
   2. Military Housing Privatization Initiative                                                     0                     0
   3. Armament Retooling & Manufacturing Support Initiative                                     2,337                  290
   4. Total Loan Guarantee Liability                                                $           2,337       $          290

The Loan Guarantee Liability represents the present value of the estimated cash inflows less cash outflows of non-acquired
loan guarantees. The $2.3 million in loan guarantee liability represents the estimated long-term cost of the currently
performing loans to the U.S. Government for the ARMS Initiative Loan Guarantee Program.


Direct Loans Obligated
The Army General Fund does not operate direct loan programs; therefore, this schedule is not applicable.




                                                        47
Total Amount of Direct Loans Disbursed
The Army General Fund does not operate direct loan programs; therefore, this schedule is not applicable.


Subsidy Expense for Direct Loan by Program
Not applicable.


Subsidy Rate for Direct Loans by Program
The Army General Fund does not operate direct loan programs; therefore, this schedule is not applicable.


Schedule for Reconciling Subsidy Cost Allowance Balances for Post FY1991 Direct Loans
The Army General Fund does not operate direct loan programs; therefore, this schedule is not applicable.


Defaulted Guaranteed Loans
 As of September 30                                                                         2008               2007
 (Amounts in thousands)

 Defaulted Guaranteed Loans from Pre-FY 1992 Guarantees
 (Allowance for Loss Method):
 1. Foreign Military Loan Liquidating Account
    A. Defaulted Guaranteed Loans Receivable, Gross                                     $            0     $          0
    B. Interest Receivable                                                                           0                0
    C. Foreclosed Property                                                                           0                0
    D. Allowance for Loan Losses                                                                     0                0
    E. Value of Assets Related to Defaulted Guaranteed Loans Receivable, Net            $            0     $           0
 Defaulted Guaranteed Loans from Post-FY 1991 Guarantees
 (Present Value Method):
 2. Military Housing Privatization Initiative
    A. Defaulted Guaranteed Loans Receivable, Gross                                     $            0     $          0
    B. Interest Receivable                                                                           0                0
    C. Foreclosed Property                                                                           0                0
    D. Allowance for Subsidy Cost (Present Value)                                                    0                0
    E. Value of Assets Related to Defaulted Guaranteed Loans Receivable, Net            $            0     $           0
 3. Armament Retooling & Manufacturing Support Initiative
    A. Defaulted Guaranteed Loans Receivable, Gross                                     $      15,142      $     14,407
    B. Interest Receivable                                                                           0                0
    C. Foreclosed Property                                                                           0                0
    D. Allowance for Subsidy Cost (Present Value)                                             (15,142)          (14,340)
    E. Value of Assets Related to Defaulted Guaranteed Loans Receivable, Net            $            0     $          67
 4. Total Value of Assets Related to Defaulted Guaranteed Loans Receivable              $            0     $          67




General Fund
Principal Financial Statements, Notes and Supplementary Information   48
Guaranteed Loans Outstanding
 As of September 30                                                 Outstanding Principal of          Amount of Outstanding
 (Amounts in thousands)                                           Guaranteed Loans, Face Value         Principal Guaranteed

 Guaranteed Loans Outstanding
 1. Military Housing Privatization Initiative                     $                         0 $                               0
 2. Armament Retooling & Manufacturing Support Initiative                              3,079                            2,617
 3. Foreign Military Liquidating Account                                                    0                                 0
 4. Total                                                         $                    3,079 $                          2,617
                               2008
 New Guaranteed Loans Disbursed
 1. Military Housing Privatization Initiative                     $                         0 $                               0
 2. Armament Retooling & Manufacturing Support Initiative                                   0                                 0
 4. Total                                                         $                         0 $                               0
                               2007
 New Guaranteed Loans Disbursed
 1. Military Housing Privatization Initiative                     $                         0 $                               0
 2. Armament Retooling & Manufacturing Support Initiative                                   0                                 0
 4. Total                                                         $                         0 $                               0

Outstanding Principal of Guaranteed Loans, FaceValue is the principal amount of loans disbursed by third parties and
guaranteed by the Army General Fund. The face value does not include any interest that is due to be paid on the debt
instruments.

Amount of Outstanding Principal Guaranteed is the principal amount of loans disbursed by third parties and guaranteed
by the Army General Fund less borrower collateral. The net amount represents the loan amount guaranteed by the Army
General Fund. One performing loan remains.


Liabilities for Loan Guarantees




                                                                                                                                  Fiscal Year 2008 United States Army Annual Financial Statement
 As of September 30                                                                  2008                       2007
 (Amounts in thousands)

 Liabilities for Losses on Loan Guarantee from Pre 1992
 (Allowance for Loss):
 1. Foreign Military Liquidating Account                                     $                    0      $                    0
 2. Total Loan Guarantee Liability (Pre-FY 1992)                             $                    0      $                    0
 Liabilities for Loan Guarantee from Post 1991 (Present Value):
 3. Military Housing Privatization Initiative                                $                    0      $                    0
 4. Armament Retooling & Manufacturing Support Initiative                                    2,337                        290
 5. Total Loan Guarantee Liability (Post-FY 1991)                            $               2,337       $                290
 6. Total Loan Guarantee Liability                                           $               2,337       $                290

Liabilities for Loan Guarantee Programs Post-FY 1991 represent the present value of the estimated cash inflows less cash
outflows of non-acquired loan guarantees. The $2.3 million in loan guarantee liability represents the estimated long-term
cost of the currently performing loan to the U. S. Government for the ARMS Initiative Loan Guarantee Program.




                                                        49
Subsidy Expense for Loan Guarantees by Program
 As of September 30
 (Amounts in thousands)
                                                              Interest
                        2008                                 Differential           Defaults           Fees               Other              Total

 1. New Loan Guarantees Disbursed:
    Military Housing Privatization Initiative            $                  0   $              0   $             0 $                 0   $           0
    Armament Retooling & Manufacturing
    Support Initiative                                                      0                  0                 0                   0               0
    Total                                                $                  0   $              0   $             0 $                 0   $           0
                                                              Interest
                        2007                                 Differential           Defaults           Fees               Other              Total

 2. New Loan Guarantees Disbursed:
    Military Housing Privatization Initiative            $                  0   $              0   $             0 $                 0   $           0
    Armament Retooling & Manufacturing
    Support Initiative                                                      0                  0                 0                   0               0
    Total                                                $                  0   $              0   $             0 $                 0   $           0
                                                                                Interest Rate       Technical             Total
                        2008                              Modifications         Reestimates        Reestimates         Reestimates           Total

 3. Modifications and Reestimates:
    Military Housing Privatization Initiative            $                  0   $              0   $             0 $                 0   $           0
    Armament Retooling & Manufacturing
    Support Initiative                                                      0               409           1,651              2,060             2,060
    Total                                                $                  0   $           409    $      1,651 $            2,060       $     2,060
                                                                                Interest Rate       Technical             Total
                        2007                              Modifications         Reestimates        Reestimates         Reestimates           Total

 4. Modifications and Reestimates:
    Military Housing Privatization Initiative            $                  0   $              0   $             0 $                 0   $           0
    Armament Retooling & Manufacturing
    Support Initiative                                                      0            2,202           (1,088)             1,114             1,114
    Total                                                $                  0   $        2,202     $     (1,088) $           1,114       $     1,114


                                                               2008                  2007
 5. Total Loan Guarantee:
    Military Housing Privatization Initiative            $                  0   $              0
    Armament Retooling & Manufacturing
    Support Initiative                                                2,060              1,114
    Total                                                $            2,060     $        1,114

In an effort to preclude additional Army General Fund loan liability, the Assistant Secretary of the Army (Acquisition,
Logistics andTechnology) instituted an ARMS loan guarantee moratorium in 2004. The Army General Fund continues to
operate under the moratorium, and does not anticipate initiating new loan guarantees.


Subsidy Rates for Loan Guarantees by Program
The Subsidy Rates for Loan Guarantees table displays subsidy rates applied to new guaranteed loans. Since no new loan
guarantees for the ARMS Initiative Program originated in FY 2008 or FY 2007, the table properly presents zero percent
subsidy rates.



General Fund
Principal Financial Statements, Notes and Supplementary Information             50
Schedule for Reconciling Loan Guarantee Liability Balances for Post-FY 1991 Loan
      Guarantees
 As of September 30                                                                      2008                    2007
 (Amounts in thousands)

 Beginning Balance, Changes, and Ending Balance:
 1. Beginning Balance of the Loan Guarantee Liability                              $              290    $              12,853
 2. Add: Subsidy Expense for Guaranteed Loans Disbursed during

    the Reporting Years by Component

   A. Interest Supplement Costs                                                    $                 0   $                   0
   B. Default Costs (Net of Recoveries)                                                              0                       0
   C. Fees and Other Collections                                                                     0                       0
   D. Other Subsidy Costs                                                                            0                       0
   E. Total of the above Subsidy Expense Components                                $                 0   $                   0
 3. Adjustments
   A. Loan Guarantee Modifications                                                 $                 0   $                   0
   B. Fees Received                                                                                  0                       0
   C. Interest Supplements Paid                                                                      0                       0
   D. Foreclosed Property and Loans Acquired                                                      746                    2,290
   E. Claim Payments to Lenders                                                                  (767)               (15,310)
   F. Interest Accumulation on the Liability Balance                                                 8                   (657)
   G. Other                                                                                          0                       0
   H. Total of the above Adjustments                                               $              (13)   $           (13,677)
 4. Ending Balance of the Loan Guarantee Liability before
    Reestimates                                                                    $              277    $               ( 824)
 5. Add or Subtract Subsidy Reestimates by Component
   A. Interest Rate Reestimate                                                                    409                    2,202
   B. Technical/default Reestimate                                                              1,651                   (1,088)
   C. Total of the above Reestimate Components                                     $            2,060    $               1,114




                                                                                                                                  Fiscal Year 2008 United States Army Annual Financial Statement
 6. Ending Balance of the Loan Guarantee Liability                                 $            2,337    $                 290

The loan guarantee reconciliation displays the calculation for the ending balance of the loan guarantee liability. Foreclosed
Property and Loans Acquired of $746,100 relates to the net present value of the loan acquired this year. The interest
accumulation on the liability balance represents the amount of interest income attributable to the one remaining
performing loan. This process will occur for the first three quarters of the fiscal year until the fourth quarter at which time
actual values will be recorded.


Administrative Expenses
Administrative expense of $16,000 is an annual amount for salary and expense which normally occurs during the last
quarter of the fiscal year.




                                                          51
Note 9.          Inventory and Related Property

 As of September 30                                                                                 2008                            2007
 (Amounts in thousands)

 1. Inventory, Net                                                                      $                          0    $                            0
 2. Operating Materiels & Supplies, Net                                                                 40,134,982                      33,938,649
 3. Stockpile Materiel, Net                                                                                        0                                 0
 4. Total                                                                               $               40,134,982                    $ 33,938,649


Inventory, Net
Not applicable.


Operating Materiels and Supplies, Net
                                                                        2008                                           2007
 As of September 30                           OM&S                    Revaluation
 (Amounts in thousands)                     Gross Value               Allowance                 OM&S, Net          OM&S, Net        Valuation Method

 1. OM&S Categories
 A. Held for Use                        $      40,134,982        $                  0       $    40,134,982 $        33,938,649       SP, LAC, MAC

 B. Held for Repair                                         0                       0                       0                   0     SP, LAC, MAC

 C. Excess, Obsolete, and                                                                                                                    NRV
   Unserviceable                                   737,202              (737,202)                           0                   0
 D. Total                               $      40,872,184        $      (737,202)           $    40,134,982 $        33,938,649


 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                                  NRV = Net Realizable Value
 SP = Standard Price                                                                                            O = Other
 AC = Actual Cost                                                                                               MAC = Moving Average Cost


Operating Materiels and Supplies (OM&S) includes ammunition, tactical missiles, and related spare and repair parts. The
category, Held for Use, includes all materiel able to be issued. Economically repairable materiel is categorized as held for
repair.

Managers determine which items are more costly to repair than to replace. Items retained for management purposes are
coded condemned. The net value of these items is zero, and is shown as Excess, Obsolete, and Unserviceable.

The Army General Fund establishes an allowance for excess, obsolete, and unserviceable OM&S and inventory at 100 percent
of the carrying amount in accordance with DoD policy.

The value of the Army’s Government Furnished Materiel and Contractor Acquired Materiel in the hands of contractors is
normally not included in the OM&S values reported above. The DoD is presently reviewing its process for reporting these
amounts in an effort to determine the appropriate accounting treatment and the best method to annually collect and report
required information without duplicating information in other existing logistics systems.


Stockpile Materiel, Net
Not applicable




General Fund
Principal Financial Statements, Notes and Supplementary Information            52
Note 10. General PP&E, Net

                                                                     2008                                                       2007
                              Depreciation/                                        (Accumulated
 As of September 30           Amortization     Service                             Depreciation/                             Prior FY Net
 (Amounts in thousands)         Method          Life       Acquisition Value       Amortization)       Net Book Value        Book Value

 1. Major Asset Classes
     A. Land                       N/A           N/A       $       522,002                    N/A      $      522,002    $        523,766
     B. Buildings,
        Structures, and
        Facilities                 S/L         20 Or 40          51,373,867    $     (32,075,265)           19,298,602         18,181,710
     C. Leasehold
        Improvements               S/L        lease term            15,035               (12,029)                3,006             12,510
     D. Software                   S/L        2-5 Or 10            501,718              (193,255)             308,463             356,789
     E. General Equipment          S/L         5 or 10            4,008,979           (1,766,039)            2,242,940          2,114,575
     F. Military Equipment         S/L         Various          121,904,581          (42,280,951)           79,623,630         62,707,236
     G. Assets Under
       Capital Lease               S/L        lease term           166,617              (157,777)                8,840             12,393
     H. Construction-in­
        Progress                   N/A           N/A              9,881,429                   N/A            9,881,429          7,033,929
     I. Other                                                       20,083                         0           20,083              25,111
     J. Total General PP&E                                 $    188,394,311    $     (76,485,316)      $   111,908,995   $     90,968,019


 Note 15 for additional information on Capital Leases
 1


 Legend for Valuation Methods:
 S/L = Straight Line          N/A = Not Applicable


Information Related to Heritage Assets and Stewardship Land

The mission of the Department of Defense, including the Army, is to provide the military forces needed to deter war and
protect the security of the United States by organizing, training, supplying, equipping, and mobilizing forces for assignment
in support of that mission. Executing this mission requires efficient and effective use of resources in a manner that ensures




                                                                                                                                            Fiscal Year 2008 United States Army Annual Financial Statement
operational and environmental sustainability, while respecting the history and heritage that reflect and support the military
mission. The Army has stewardship responsibilities for heritage assets that date not only from the military history of the
land, but from prior historic occupations. The Army relies upon heritage assets, such as historic buildings and stewardship
land for daily use in administration, housing, and training soldiers. Those heritage assets not currently employed as “multi-
use,” such as archeological collections or museum collections, are items that embody the multi-faceted history of the land,
the military, the local communities, and the nation, that is the heritage that the Department of Defense defends.

The Army’s policies for managing cultural resources and heritage assets is published in Army Regulations 200-4 and 870-20.
These policies provide in-depth procedures for managing the Army’s cultural resources and museum collections. The Army
Regulations take into account the Army’s responsibilities under various legal compliance requirements such as the National
Historic Preservation Act, the Native American Graves Protection and Repatriation Act, the National Environmental Policy
Act, and the Archeological Resources Protection Act, among others. The regulations provide guidance to all active Army,
Army Reserves, and National Guard units and installations as to the appropriate policies, responsibilities, procedures, and
requirements affecting heritage assets. These policies are designed to ensure that Army installations and commanders make
informed decisions regarding the cultural resources under their stewardship in compliance with public laws, in support of
the military mission, and consistent with sound principles of cultural resource management.




                                                           53
Heritage assets are items that are distinguished by one or more of the following characteristics:

      1. Historical or natural significance;

      2. Cultural, educational, or artistic importance; or

      3. Significant architectural characteristics.

Heritage assets are expected to be preserved. The DoD policy requires that heritage assets be reported within the following
categories:

Buildings and Structures: Includes buildings and structures that are listed on, or eligible for listing on, the National Register
of Historic Places, including Multi-use Heritage Assets. Includes National Historic Landmarks; buildings or structures that
are contributing elements to districts listed on or eligible for the National Register of Historic Places or a National Historic
Landmark District; and buildings and structures designated eligible in the National Register of Historic Places for purposes
of Program Alternatives.

Museums: Buildings that house collection type items including artwork, archeological artifacts, archival materials, and
other historical artifacts. The primary use of such buildings shall be the preservation, maintenance, and display of the
collection type Heritage Assets.

Archeological Sites: Sites that have been identified, evaluated, and determined to be eligible for or are listed on the
National Register of Historic Places.


Assets Under Capital Lease
 As of September 30                                                                 2008                        2007
 (Amounts in thousands)

 1. Entity as Lessee, Assets Under Capital Lease
    A. Land and Buildings                                                  $                166,071    $               166,071
    B. Equipment                                                                                546                         546
    C. Accumulated Amortization                                                            (157,777)                 (154,223)
    D. Total Capital Leases                                                $                  8,840    $                  12,394




General Fund
Principal Financial Statements, Notes and Supplementary Information   54
Note 11. Liabilities Not Covered by Budgetary Resources

 As of September 30                                                                     2008                    2007
 (Amounts in thousands)

 1. Intragovernmental Liabilities
   A. Accounts Payable                                                          $                     0   $                  0
   B. Debt                                                                                            0                      0
   C. Other                                                                                 2,804,367                  459,482
   D. Total Intragovernmental Liabilities                                       $           2,804,367     $            459,482
 2. Nonfederal Liabilities
   A. Accounts Payable                                                          $              192,963    $            196,499
   B. Military Retirement and Other Federal Employment Benefits                             1,472,383              1,483,177
   C. Environmental Liabilities                                                            39,702,096             43,302,064
   D. Other Liabilities                                                                     5,819,091              4,911,900
   E. Total Nonfederal Liabilities                                              $          47,186,533     $       49,893,640
 3. Total Liabilities Not Covered by Budgetary Resources                        $          49,990,900     $       50,353,121
 4. Total Liabilities Covered by Budgetary Resources                                       23,368,873             21,153,389
 5. Total Liabilities                                                           $          73,359,773     $       71,506,511

Intragovernmental Liabilities, Other primarily consists of disbursing officers custodial liability.

Nonfederal Other Liabilities, Other consists of Unfunded Annual Leave and Conventional Munitions Disposals.

Military Retirement and Other Federal Employment Benefits not covered by budgetary resources is comprised of various
employee actuarial liabilities. These liabilities are primarily comprised of Federal Employee Compensation Act benefits
liability of $1.5 billion. Refer to Note 17, Military Retirement and Other Federal Employment Benefits, for additional
details and disclosures.

Liabilities not covered by budgetary resources are liabilities for which congressional action is needed before budgetary
resources can be provided.




                                                                                                                                 Fiscal Year 2008 United States Army Annual Financial Statement
Liabilities such as Environmental Liabilities, Military Retirement and Other Federal Employment Benefits,Accounts
Payable, and Debt are not covered by budgetary resources due to being classified as noncurrent. Congressional action will
not be taken to cover these liabilities until classified as current.

Other Intragovernmental Liabilities include liabilities for non-entity assets, such as disbursing officers cash, that are held
in the Army General Fund to be transferred to other entities and therefore not covered by budgetary resources. Unfunded
Annual Leave is leave an employee is entitled to upon separation and funded with future years’ appropriations and thus not
covered by budgetary resources in the current fiscal year.




                                                           55
Note 12. Accounts Payable

                                                                                          2008                                              2007
                                                                                     Interest, Penalties,
 As of September 30                                                                  and Administrative
 (Amounts in thousands)                                  Accounts Payable                   Fees                        Total                Total

 1. Intragovernmental Payables                          $        1,563,994       $                     N/A      $       1,563,994      $     1,729,905
 2. Nonfederal Payables (to the Public)                         11,956,805                                  0        11,956,805              9,108,551
 3. Total                                               $      13,520,799        $                          0   $    13,520,799        $    10,838,456

Other Information Related to Accounts Payable

The Army General Fund systems do not track intragovernmental transactions by customer at the transaction level.
Therefore, internal DoD buyer-side balances are adjusted to agree with internal seller-side balances for revenue, accounts
receivable, and unearned revenue. Accounts payable were adjusted by reclassifying between federal and nonfederal
accounts payable.

In FY 2007, the Department recognized accounts payable balances of the Mechanization of Contract Administration
Services (MOCAS) system at gross value without reductions for partial payments, progress payments, and non-accounts
payable records overstating accounts payable and expenses. The overstated balances for FY 2007 were undeterminable due
to system limitations; therefore, no corrections have been made. Balances at FY 2008 are properly reported net of non-
accounts payable records, partial and progress payments of $339.4 million.


Note 13. Debt

                                                                                2008                                                 2007
 As of September 30                                         Beginning                                Ending
 (Amounts in thousands)                                      Balance        Net Borrowing            Balance        Net Borrowing      Ending Balance

 1. Agency Debt (Intragovernmental)
    A. Debt to the Treasury                              $     26,706       $    (25,873)        $          833     $       15,302    $         26,706
    B. Debt to the Federal Financing Bank                               0                  0                    0               0                       0
    C. Total Agency Debt                                 $     26,706       $    (25,873)        $          833     $       15,302    $         26,706
 2. Total Debt                                           $     26,706       $    (25,873)        $          833     $       15,302    $         26,706

The Army General Fund, by means of Armament Retooling and Manufacturing Support (ARMS) Initiative legislation,
established a loan guarantee program to facilitate commercial firms’ use of specified ammunition manufacturing facilities.
When a borrower defaults on a guaranteed loan, the Army General Fund executes borrowing authority with the U.S.
Treasury to pay the lender the guaranteed outstanding principal resulting in a debt with the U.S.Treasury. The total debt
of $832,800 consists of interest and principal payments due to the U.S.Treasury for two ARMS loan defaults. During
3rd Quarter, FY 2008, the Army General Fund made a $26.6 million payment to the U.S.Treasury for two defaulted loans
related to the ARMS Initiative legislation.




General Fund
Principal Financial Statements, Notes and Supplementary Information             56
Note 14. Environmental Liabilities and Disposal Liabilities

                                                                                             2008                                2007
As of September 30                                                     Current             Noncurrent
(Amounts in thousands)                                                 Liability            Liability            Total            Total

1. Environmental Liabilities--Nonfederal
A. Accrued Environmental Restoration Liabilities
  1. Active Installations—Installation Restoration Program	        $      381,303      $      2,286,566     $    2,667,869   $    2,876,537
     (IRP) and Building Demolition and Debris Removal
     (BD/DR)
  2. Active Installations—Military Munitions Response
                     45,323             2,697,323          2,742,646        3,227,899
     Program (MMRP)

  3. Formerly Used Defense Sites—IRP and BD/DR                            168,975             3,064,204          3,233,179        3,813,999
  4. Formerly Used Defense Sites--MMRP                                    100,898           14,758,142          14,859,040       14,696,788
B. Other Accrued Environmental Liabilities—Non-BRAC
  1. Environmental Corrective Action                                       43,844              356,897             400,741         568,623
  2. Environmental Closure Requirements                                      2,759              94,088              96,847         192,477
  3. Environmental Response at Operational Ranges                          19,275              144,469             163,744         183,068
  4. Asbestos                                                                      0                    0                0                0
  5. Non-Military Equipment                                                        0                    0                0                0
  6. Other                                                                         0            33,874              33,874           46,557
C. Base Realignment and Closure Installations
  1. Installation Restoration Program                                     197,231              572,006             769,237          794,255
  2. Military Munitions Response Program                                   52,927              888,232             941,159          876,410
  3. Environmental Corrective Action / Closure Requirements                  8,930             287,274             296,204          113,094
  4. Asbestos                                                                      0                    0                0                0
  5. Non-Military Equipment                                                        0                    0                0                0
  6. Other                                                                         0                    0                0                0
D. Environmental Disposal for Military Equipment / Weapons
  Programs




                                                                                                                                              Fiscal Year 2008 United States Army Annual Financial Statement
  1. Nuclear Powered Military Equipment / Spent Nuclear
                           0                    0                0                0
     Fuel 

  2. Non-Nuclear Powered Military Equipment                                        0                    0                0                0
  3. Other National Defense Weapons Systems                                        0                    0                0                0
  4. Other                                                                         0                    0                0                0
E. Chemical Weapons Disposal Program
  1. Chemical Agents and Munitions Destruction (CAMD)                   1,242,560             9,394,093         10,636,653       18,308,644
  2. CAMD Assembled Chemical Weapons Assessment

     (ACWA) 
                                                             509,344             5,124,929          5,634,273                0
  3. Other                                                                         0                    0                0                0
2. Total Environmental Liabilities	                                $    2,773,369      $    39,702,097      $   42,475,466   $   45,698,351




                                                              57
Environmental Disclosures
Applicable Laws and Regulations

The Army General Fund is required to clean up contamination resulting from past waste disposal practices, leaks, spills, and
other past activity prior to 1986 from hazardous substances and wastes that created a public health or environmental risk
and prior to FY 2003 from unexploded ordnance (UXO), discarded military munitions, and munitions constituents at other
than operational ranges under the Defense Environmental Restoration Program (DERP), established by Section 211 of the
Superfund Amendments and Reauthorization Act of 1986 codified inTitle 10 of the United States Code 2701. The Army
General Fund is also required to clean up contamination resulting from waste disposal practices, leaks, spills, and other
activity after 1986 from hazardous substances and wastes and after FY 2003 from UXO, discarded military munitions, and
munitions constituents migrating from an operational range under the Army Compliance Cleanup Program.

The Army is required to destroy the chemical stockpile and nonstockpile as part of the Chemical Demilitarization Program.
The 1986 Defense Authorization Act (Public Law (PL) 99-145, as amended by subsequent acts) directed the DoD to
destroy the unitary chemical stockpile while providing for maximum protection of the environment, public, and personnel
involved in the destruction effort. The 1993 Defense Authorization Act (PL 102-484) required the establishment of the
NonStockpile Chemical Material Project to safely dispose of all nonstockpile chemical material. The destruction operations
being carried out using the facilities and equipment developed and fielded as part of the program are also subject to
numerous federal and state environmental regulations.

Applicable laws are as follows for the DERP, NonDERP, Low Level Radioactive Waste, and the BRAC programs:

      n Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA)
      n Superfund Amendments and Reauthorization Act (SARA)
      n Clean Water Act
      n Safe Drinking Water Act
      n Clean Air Act
      n Resource Conversation and Recovery Act (RCRA)
      n Toxic Substances Control Act (TSCA)
      n Medical Waste Tracking Act
      n Atomic Energy Act
      n Nuclear Waste Policy Act
      n Low Level Radioactive Waste Policy Amendments Act
      n National Defense Authorization Acts


Types of Environmental Liabilities and Disposal Liabilities Identified

The Army General Fund has environmental cleanup requirements for the DERP sites at active installations, Base
Realignment and Closure (BRAC) installations, Formerly Used Defense Sites (FUDS), NonDERP sites at active
installations, weapon systems programs, and chemical weapons disposal programs. The DERP and NonDERP sites are
required to clean up contamination in coordination with regulatory agencies, other responsible parties, and current
property owners. Environmental disposal for weapons systems programs consists of chemical weapons disposal, including
the destruction of the entire U.S. stockpile of chemical agents and munitions and disposal of nonstockpile chemical
material. This includes binary chemical weapons, old chemical weapons recovered as part of remediation and recovery



General Fund
Principal Financial Statements, Notes and Supplementary Information   58
operations, and miscellaneous materiel associated with chemical weapon production, storage, testing, maintenance, and
disposal. The weapons systems program also consists of nuclear-powered aircraft carriers, nuclear powered submarines,
and other nuclear ships. All clean-up is done in coordination with regulatory agencies, other responsible parties, and
current property owners.

Methods for Assigning Estimated Total Cleanup Costs to Current Operating Periods

The Army General Fund uses engineering estimates and independently validated models to estimate environmental
liabilities. The models are contained within the Remedial Action Cost Engineering Requirements and the Normalization
of Data System. The Department validates the models in accordance with DoD Instruction 5000.61 and primarily uses the
models to estimate the liabilities based on data received during a preliminary assessment and initial site investigation. The
Army General Fund primarily uses engineering estimates after obtaining extensive data during the remedial investigation/
feasibility phase of the environmental project.

Once the environmental cost estimates are complete,Army General Fund complies with accounting standards to assign
costs to current operating periods. Army General Fund has already expensed the costs for cleanup associated with General
PP&E placed into service prior to October 1, 1997, unless the costs are intended to be recovered through user charges. If
the costs are recovered through user charges, then Army General Fund expensed that portion of the asset that has passed
since General PP&E was placed into service and is systematically recognizing the remaining cost over the life of the assets.

For General PP&E placed into service after September 30, 1997, the Army General Fund expenses the associated
environmental costs systematically over the life of the asset. Army General Fund expenses the full cost to clean up
contamination for Stewardship PP&E at the time the asset is placed into service.

Army General Fund uses two methods for systematic recognition: physical capacity for operating landfills, and life
expectancy in years for all other assets.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to Inflation,
Deflation,Technology, or Applicable Laws and Regulations

The Army General Fund had changes in estimates resulting from overlooked or previously unknown contaminants, better
site characterization with sampling, reestimation based on different assumptions, and lessons learned. Environmental




                                                                                                                                 Fiscal Year 2008 United States Army Annual Financial Statement
liabilities can also change in the future due to changes in laws and regulations, changes in agreements with regulatory
agencies, and advances in technology.

Uncertainty Regarding the Accounting Estimates used to Calculate the Reported Environmental
Liabilities

The environmental liabilities for the Army General Fund are based on accounting estimates, which require certain
judgments and assumptions that are believed to be reasonable based upon information available to us at the time of
calculating the estimates. The actual results may materially vary from the accounting estimates if agreements with
regulatory agencies require remediation to a different degree than anticipated when calculating the estimates. The liabilities
can be further impacted if further investigation of the environmental sites discloses contamination different than known at
the time of the estimates.

For the environmental liability associated with the destruction of chemical weapons, the schedules and cost estimates in
the approved baseline are based on the best information available and have been through the formal Acquisition Program
Baseline approval process at the time of report submission. It should be noted that they are subject to fact of life changes




                                                          59
and impacts from program risks and uncertainties inherent to the task of chemical demilitarization and the political
sensitivity of the program. These risks may include processing changes required to meet the operational schedules due to
the deteriorating condition of the stockpile and additional schedule time and/or cost to address changes in environmental
laws or congressional requirements.

The Army has a liability to take environmental restoration/corrective action for buried chemical munitions and agents,
which it is unable to estimate at this time because the extent of the buried chemical munitions and agents is unknown. The
Department is also unable to provide a complete estimate for Formerly Utilized Sites Remedial Action Plan (FUSRAP).
The Department has ongoing studies and will update its estimate as additional liabilities are identified. In addition, not
all components of the Department recognize environmental liabilities associated with General PP&E due to process and
system limitations.

In addition to the liabilities reported above, the Army General Fund is uncertain regarding the extent of the liabilities at
installations that are realigning or closing as a result of the FY 2005 BRAC round. The Army General Fund is in the process
of determining the extent of environmental liabilities at bases due to realign or close; in particular those liabilities associated
with unexploded ordnance on training ranges that are due to realign or close.

The Army General Fund is also uncertain regarding the extent of NonDERP closure environmental liabilities at Active
installations. The Army General Fund is in the process of determining the extent of environmental liabilities associated with
NonDERP closure requirements.

In addition, the Army General Fund reports the costs for restoration initiatives in conjunction with returning overseas
Defense facilities to host nations. The Army General Fund is currently unable to provide a reasonable estimate because the
extent of restoration required is not known.

Other Accrued Environmental Costs, Other consists of Low Level Radioactive Waste

The Army General Fund reports zero balances in the Environmental Disclosure table. The Army General Fund is unable
to systematically report and gather information for items presented above. These reporting deficiencies result from
system and internal control weaknesses. The Army General Fund will continue coordination with the Office of the Under
Secretary of Defense (Comptroller) to address these deficiencies and additionally outline specific tasks and milestones in the
Army Chief Financial Officers Strategic Plan by 4th Quarter, FY 2010.




General Fund
Principal Financial Statements, Notes and Supplementary Information   60
Note 15. Other Liabilities

                                                                                  2008                              2007
 As of September 30                                                              Noncurrent
 (Amounts in thousands)                              Current Liability            Liability           Total          Total

 1. Intragovernmental
   A. Advances from Others                          $          67,973        $                0   $      67,973 $      134,514
   B. Deposit Funds and Suspense Account

      Liabilities
                                           673,433                          0        673,433         243,120
   C. Disbursing Officer Cash                              2,419,223                          0       2,419,223      2,183,051
   D. Judgment Fund Liabilities                                          0                    0               0              90
   E. FECA Reimbursement to the Department
      of Labor                                                 97,292                180,621           277,913         279,701
   F. Custodial Liabilities                                     7,066                         0           7,066         71,960
   G. Employer Contribution and Payroll Taxes
     Payable                                                 100,481                          0        100,481          64,182
   H. Other Liabilities                                      101,014                          0        101,014         108,835
   I. Total Intragovernmental Other Liabilities     $      3,466,482         $       180,621      $   3,647,103 $    3,085,453
 2. Nonfederal
   A. Accrued Funded Payroll and Benefits           $      2,619,264         $                0   $   2,619,264 $    2,539,715
   B. Advances from Others                                 1,740,233                          0       1,740,233      1,405,272
   C. Deferred Credits                                                   0                    0               0               0
   D. Deposit Funds and Suspense Accounts                    279,248                          0        279,248               (2)
   E. Temporary Early Retirement Authority                               0                    0               0               0
   F. Nonenvironmental Disposal Liabilities
      (1) Military Equipment (Nonnuclear)                                0                    0               0               0
      (2) Excess/Obsolete Structures                                     0                    0               0               0
      (3) Conventional Munitions Disposal                                0         2,042,986          2,042,986      1,284,052
   G. Accrued Unfunded Annual Leave                        3,342,808                          0       3,342,808      3,277,006




                                                                                                                                   Fiscal Year 2008 United States Army Annual Financial Statement
   H. Capital Lease Liability                                   3,793                  11,062            14,855         20,668
   I. Contract Holdbacks                                     201,343                          0        201,343         329,983
   J. Employer Contribution and Payroll Taxes
      Payable                                              1,036,996                          0       1,036,996        583,791
   K. Contingent Liabilities                                 112,415                 848,660           961,075         895,761
   L. Other Liabilities                                         2,044                         0           2,044         37,832
   M. Total Nonfederal Other Liabilities            $      9,338,144         $     2,902,708      $ 12,240,852 $    10,374,078
 3. Total Other Liabilities                         $    12,804,626          $     3,083,329      $ 15,887,955 $    13,459,531

Intragovernmental – Other Liabilities

Intragovernmental Other Liabilities, Other consists of accrued unfunded annual leave, education benefits trust liability, and
unemployment compensation liability.




                                                          61
Nonfederal – Other Liabilities

Nonfederal Other Liabilities, Other consists of miscellaneous liabilities submitted by the U.S.Army Corps of Engineers.

Estimated Future Contract Financing Payments

Contingent Liabilities includes $421.1 million in estimated future contract financing payments that will be paid to
the contractors upon delivery and Government acceptance. In accordance with contract terms, specific rights to the
contractor’s work vests with the Government when a specific type of contract financing payment is made. This action
protects taxpayer funds in the event of contract nonperformance. These rights should not be misconstrued as the rights
of ownership. Army General Fund is under no obligation to pay the contractor for amounts greater than the amounts
authorized in the contract until delivery and Government acceptance. Because it is probable that the contractor will
complete its efforts and deliver a satisfactory product to Army General Fund and the amount of potential future payments
is estimable; the Army General Fund has recognized a contingent liability for estimated future payments, which are
conditional pending delivery and Government acceptance.


Capital Lease Liability
                                                                                              2008                                          2007
 As of September 30                                                                     Asset Category
                                                                 Land and
 (Amounts in thousands)                                          Buildings            Equipment           Other           Total             Total

 1. Future Payments Due
    A. 2008                                                  $               0    $               0   $           0   $             0   $      8,685
    B. 2009                                                            5,376                  93                  0          5,469             5,469
    C. 2010                                                            5,376                      0               0          5,376             5,376
    D. 2011                                                            4,510                      0               0          4,510             4,510
    E. 2012                                                            2,413                      0               0          2,413             2,413
    F. 2013                                                            1,612                      0               0          1,612                  0
    G. After 5 Years                                                    148                       0               0               148          1,759
    H. Total Future Lease Payments Due                       $        19,435      $           93      $           0   $    19,528       $    28,212
    I. Less: Imputed Interest Executory Costs                          4,652                  20                  0          4,672             7,543
    J. Net Capital Lease Liability                           $        14,783      $           73      $           0   $    14,856       $    20,669
 2. Capital Lease Liabilities Covered by
    Budgetary Resources                                                                                               $    11,146       $    14,976
 3. Capital Lease Liabilities Not Covered
    by Budgetary Resources                                                                                            $      3,708      $      5,692


Note 16. Commitments and Contingencies
The Army General Fund is a party in various administrative proceedings and legal actions, with claims including
environmental damage claims, equal opportunity matters, and contractual bid protests.

The Army General Fund has accrued contingent liabilities for legal actions where our Office of General Counsel (OGC)
considers an adverse decision probable and the amount of loss is measurable. In the event of an adverse judgment against
the Government, some of the liabilities may be payable from the Judgment Fund. The Army General Fund records
Judgment Fund liabilities in Note 12,Accounts Payable, and Note 15, Other Liabilities.



General Fund
Principal Financial Statements, Notes and Supplementary Information              62
Nature of Contingency

The FY 2008 Army Legal Representation Letter outlines claims against the Army General Fund totaling $2.3 trillion for
which the Army Office of General Counsel is unable to express an opinion. The historical payout percentage for these cases
is less than 1 percent. To determine the historical payout, the Army Office of General Counsel divides the total amount
reported as a payout in the fiscal year by the total amount claimed in the Army Legal Representation Letter.

The Army General Fund has other contingent liabilities for which the possibility of loss is considered reasonable. These
liabilities are not accrued in the Army General Fund’s financial statements nor reported in the FY 2008 Army Legal
Representation Letter. As of September 30, 2008, the Army General Fund had $571.5 million in claims considered
reasonably possible. These contingent liabilities and estimates are presented in the following table. Estimates for litigations,
claims and assessments are required to be fully supported. Additionally, the Army General Fund has coordinated with Army
Office of General Counsel to ensure that estimates agree with the legal representation letters and management summary
schedule.

                         (Amounts in thousands)

                         Title of Contingent Liabilities                                    Estimate
                         Army Environmental Law Division                                    $293,171
                         Army Contract Appeals                                               108,172
                         U.S. Army Claims Service                                              86,123
                         Litigation Division                                                   84,036
                         Total                                                              $571,502

Other Information Pertaining to Commitments

The Army General Fund has entered into contractual commitments that require future use of financial resources. It has
significant amounts of long-term lease obligations, undelivered orders, and cancelled accounts payable. The amount of
contractual commitments for 2nd Quarter, FY 2008 is presented in the following schedule.

                          (Amounts in thousands)

                          Title of Contractual Commitments




                                                                                                                                   Fiscal Year 2008 United States Army Annual Financial Statement
                          Long-term lease obligations                                        $14,854
                          Undelivered orders                                           $133,049,497
                          Cancelled accounts payable                                        $192,963

The Army General Fund is a party in numerous individual contracts that contain clauses, such as price escalation, award
fee payments, or dispute resolution, that may or may not result in a future outflow of expenditures. Currently, the Army
General Fund does not have an automated system by which it captures or assesses these potential contingent liabilities;
therefore, the amounts reported may not fairly present the Army General Fund’s contingent liabilities.

Contingencies that are considered both measurable and probable have been recognized as liabilities. Refer to Note 15,
Other Liabilities, for further details.




                                                           63
Note 17. Military Retirement and Other Federal Employment Benefits

                                                                                               2008                                        2007
                                                                                   Assumed      (Less: Assets
 As of September 30                                                                 Interest   Available to Pay     Unfunded
 (Amounts in thousands)                                         Liabilities        Rate (%)       Benefits)         Liabilities          Liabilities

 1. Pension and Health Actuarial Benefits
    A. Military Retirement Pensions                         $                 0                $              0 $                 0 $                  0
    B. Military Retirement Health Benefits                                    0                               0                   0                    0
    C. Military Medicare-Eligible Retiree
       Benefits                                                               0                               0                   0                    0
    D. Total Pension and Health Actuarial
       Benefits                                             $                 0                $              0 $                 0 $                  0
 2. Other Actuarial Benefits
    A. FECA                                                 $    1,472,383             4.368   $              0 $ 1,472,383 $             1,483,177
    B. Voluntary Separation Incentive
       Programs                                                               0                               0                   0                    0
    C. DoD Education Benefits Fund                                            0                               0                   0                    0
    D. Total Other Actuarial Benefits                       $    1,472,383                     $   1,472,383 $ 1,483,177 $                1,483,177
 3. Other Federal Employment Benefits                                         0                               0                   0                    0
 4. Total Military Retirement and Other
    Federal Employment Benefits:                            $    1,472,383                     $              0 $ 1,472,383 $             1,483,177


Federal Employees Compensation Act (FECA)

Actuarial Cost Method Used: The Army’s actuarial liability for Workers’ Compensation benefits is developed by the
Department of Labor and provided to the Army General Fund each fiscal year end. The liability includes the expected
liability for death, disability, medical, and miscellaneous costs for approved compensation cases. The liability is determined
using a method that utilizes historical benefit payment patterns to predict the ultimate payments.

Assumptions: The projected annual benefit payments are discounted to the present value using the Office of Management
and Budget’s economic assumptions for 10-year U.S.Treasury notes and bonds. Cost of living adjustments and medical
inflation factors provided by the Department of Labor are also applied to the calculation of projected future benefits. The
estimated actuarial liability is updated only at the end of each fiscal year.

Note 18.               General Disclosures Related to the Statement of Net Cost
 Intragovernmental Costs and Exchange Revenue
 As of September 30                                                                            2008                               2007
 (Amounts in thousands)

 1. Intragovernmental Costs                                                            $              51,475,585    $                   46,435,946
 2. Public Costs                                                                                   148,952,769                        132,310,910
 3. Total Costs                                                                        $           200,428,354      $                 178,746,856
 4. Intragovernmental Earned Revenue                                                   $              (8,204,813)   $                   (8,139,817)
 5. Public Earned Revenue                                                                             (1,722,612)                       (1,683,378)
 6. Total Earned Revenue                                                               $              (9,927,425)   $                   (9,823,195)
 7. Net Cost of Operations                                                             $           190,500,929      $                 168,923,661




General Fund
Principal Financial Statements, Notes and Supplementary Information               64
Definitions

Intragovernmental costs and revenue are related to transactions made between two reporting entities within the Federal
government.

Public costs and revenue are exchange transactions made between the reporting entity and a nonfederal entity.

Other Information Regarding Costs

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal Government
supported by appropriations or other means. The intent of the SNC is to provide gross and net cost information related to
the amount of output or outcome for a given program or organization administered by a responsible reporting entity. The
Department’s current process and systems do not capture and report accumulated costs for major programs based upon
the performance measures as required by the Government Performance and Results Act. The Department is in the process
of reviewing available data and developing a cost reporting methodology as required by the Statement of Federal Financial
Accounting Standards (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government”.

The amounts presented in the Consolidated Statement of Net Cost are based on funding, obligation, accrual, and disbursing
transactions, which are not always recorded using accrual accounting. The Army General Fund’s systems do not always
record the transactions on an accrual basis as is required by the generally accepted accounting principles. The information
presented also includes data from nonfinancial feeder systems to capture all cost and financing sources for the Army General
Fund.

Additional Disclosures

The Army General Fund systems do not track intragovernmental transactions by customer at the transaction level.
Therefore, internal DoD buyer-side balances are adjusted to agree with internal seller-side balances for revenue. Expenses
were adjusted by reclassifying amounts between federal and nonfederal expenses.

The Army General Fund accounting system does not capture information relative to Heritage Assets separately and
distinctly from normal operations. The Army General Fund is not able to separately identify the costs of acquiring,
constructing, improving, reconstructing or renovating heritage assets. The Army Chief Financial Officers Strategic Plan




                                                                                                                               Fiscal Year 2008 United States Army Annual Financial Statement
outlines tasks to separately identify and report costs associated with Heritage Assets by 1st Quarter, FY 2010.


Note 19. Disclosures Related to the Statement of Changes in Net Position
Restatements

During 3rd Quarter, FY 2008, an accounting error impacting the prior year was discovered. As a result, prior year changes
have been made retrospectively in accordance with generally accepted accounting principles (GAAP).

Correction of an Accounting Error

On September 30, 2007, the military payroll due for disbursement on October 1st was processed one day early resulting
in the funds being decremented at the U.S.Treasury one day early. The payroll was not actually paid to the soldiers until
October 1st. Since the processing of the payroll and the actual outlays for the payroll crossed over two fiscal years, the
outlays in both fiscals years were incorrectly stated (overstated in FY 2007 and understated in FY 2008) and required
correction. The restated amount of $1.3 billion impacted the Balance Sheet and Statement of Budgetary Resources.




                                                         65
Per OMB Circular A-136 Section II.4.5.4, errors in financial statements result from mathematical mistakes, mistakes in
the application of accounting principles, or oversight or misuse of facts that existed at the time the financial statements
were prepared. Prior period financial statements should be restated for corrections of errors that would have caused any
statements presented to be materially misstated, consistent with Statement of Federal Financial Accounting Standards No.
21, “Reporting Corrections of Errors and Changes in Accounting Principles.”

Other

Other Financing Sources (Other) primarily consists of gains and losses that resulted from adjustments necessary to balance
the Army General Fund’s feeder systems with DoD’s financial reporting system. Also represented are adjustments to bring
the proprietary accounts into agreement with the budgetary accounts. These adjustments are necessary to correct inherent
limitations of the current financial systems.

Appropriations Received

Appropriations Received on the Statement of Changes in Net Position (SCNP) does not agree with the Appropriations
Received on the Statement of Budgetary Resources. The total difference is $18.1 million and is due to additional resources
included in the Appropriation Received on the Statement of Budgetary Resources. Refer to Note 20, Disclosures Related
to the Statement of Budgetary Resources, for additional details.

Eliminations

In the SCNP, all offsetting balances (i.e. transfers-in and transfers-out, revenues, and expenses) for intraDoD activity
between earmarked and other (nonearmarked) funds are reported on the same lines. This results in an eliminations
column, which appears to contain no balances. In reality, the column contains all appropriate elimination entries, but all
net to zero within each respective line, except for intraentity imputed financing costs.

Earmarked

Earmarked Cumulative Results of Operations ending balance on the SCNP does not agree with the Earmarked Cumulative
Results reported on the Balance Sheet because the cumulative results on the Balance Sheet are presented net of
eliminations.


Note 20. Disclosures Related to the Statement of Budgetary Resources

 As of September 30                                                                        2008                 2007
 (Amounts in thousands)

 1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at
    the End of the Period                                                            $    133,049,497     $    108,380,690
 2. Available Borrowing and Contract Authority at the End of the Period                               0                      0

Undelivered Orders

Undelivered Orders presented in the Statement of Budgetary Resources includes Undelivered Orders-Unpaid for both
direct and reimbursable funds.




General Fund
Principal Financial Statements, Notes and Supplementary Information   66
Reporting of Appropriations Received

Appropriations received on the Statement of Budgetary Resources do not agree with appropriations received on the
Statements of Changes in Net Position because of differences between proprietary and budgetary accounting concepts
and reporting requirements. The differences are made up of the recording of receipts for trust and special funds and the
appropriations anticipated indefinite accounts.

Presentation of Statement of Budgetary Resources

The Statement of Budgetary Resources includes intraentity transactions because the statements are presented as combined.

Breakdown of Apportionment Categories

Office of Management and Budget Circular A-136 specifically requires disclosure of the amount of direct and reimbursable
obligations incurred against amounts apportioned under Category A (apportioned by fiscal quarter), Category B
(apportioned by project or activity), and Exempt from Apportionment.

                         Budgetary                            Direct             Reimbursable
                         Category A                       $244.2 billion          $20.6 billion
                         Category B                        $5.7 billion            $7.1 billion
                         Total                            $249.9 billion          $27.7 billion
                         Non-Budgetary
                         Category A                        $1.5 million

This disclosure agrees with the aggregate of the related information as reported on the Budgetary Execution Report and
Obligations Incurred on the Statement of Budgetary Resources.

Terms of Borrowing Authority

Borrowing authority is used for guaranteed loan defaults relating to the Armament Retooling and Manufacturing Support
(ARMS) Initiative. This initiative is designed to encourage commercial use of inactive Army General Fund ammunition




                                                                                                                           Fiscal Year 2008 United States Army Annual Financial Statement
plants through many incentives for businesses willing to locate to a government ammunition production facility. The Army
General Fund, by means of ARMS Initiative legislation, established a loan guarantee program to facilitate commercial
firms’ use of specified ammunition manufacturing facilities. The Army General Fund and Department of Agriculture Rural
Business-Cooperative Service (RBS) established a Memorandum of Understanding for the RBS to administer the ARMS
Initiative Loan Guarantee Program.

Available Borrowing Authority as of September 30, 2008, is $590,000.




                                                         67
Note 21. Reconciliation of Net Cost of Operations to Budget

 As of September 30                                                                   2008              2007
 (Amounts in thousands)

 Resources Used to Finance Activities:
 Budgetary Resources Obligated:
 1. Obligations incurred                                                         $   277,635,629    $   242,763,749
 2. Less: Spending authority from offsetting collections and recoveries (-)          (42,168,271)       (42,151,175)
 3. Obligations net of offsetting collections and recoveries                     $   235,467,358    $   200,612,574
 4. Less: Offsetting receipts (-)                                                       (674,720)           807,967
 5. Net obligations                                                              $   234,792,638    $   201,420,541
 Other Resources:
 6. Donations and forfeitures of property                                                      0                  0
 7. Transfers in/out without reimbursement (+/-)                                       2,578,457          1,689,316
 8. Imputed financing from costs absorbed by others                                      948,408            954,983
 9. Other (+/-)                                                                        2,691,061        (12,496,622)
 10. Net other resources used to finance activities                              $     6,217,926    $    (9,852,323)
 11. Total resources used to finance activities                                  $   241,010,564    $   191,568,218
 Resources Used to Finance Items not Part of the Net Cost of Operations:
 12. Change in budgetary resources obligated for goods, services and
     benefits ordered but not yet provided:
       12a. Undelivered Orders (-)                                               $   (24,668,808)   $   (24,007,538)
       12b. Unfilled Customer Orders                                                   3,083,054          2,630,346
 13. Resources that fund expenses recognized in prior Periods (-)                     (3,492,658)           (61,901)
 14. Budgetary offsetting collections and receipts that do not affect Net Cost           701,976           (807,682)
     of Operations
 15. Resources that finance the acquisition of assets (-)                            (30,240,386)       (15,269,738)
 16. Other resources or adjustments to net obligated resources that do not
     affect Net Cost of Operations:
       16a. Less: Trust or Special Fund Receipts Related to exchange in the
            Entity’s Budget (-)                                                                0                  0
       16b. Other (+/-)                                                               (5,269,518)        10,807,307
 17. Total resources used to finance items not part of the Net Cost of
     Operations                                                                  $   (59,886,340)   $   (26,709,206)
 18. Total resources used to finance the Net Cost of Operations                  $   181,124,224    $   164,859,012




General Fund
Principal Financial Statements, Notes and Supplementary Information   68
 As of September 30                                                                       2008                 2007
 (Amounts in thousands)

 Components of the Net Cost of Operations that will not Require or Generate Resources in the Current Period:
 Components Requiring or Generating Resources in Future Period:
 19. Increase in annual leave liability                                              $        319,243    $                 0
 20. Increase in environmental and disposal liability                                                0           723,114
 21. Upward/Downward reestimates of credit subsidy expense (+/-)                                     0                     0
 22. Increase in exchange revenue receivable from the public (-)                                     0                     0
 23. Other (+/-)                                                                              874,211            590,195
 24. Total components of Net Cost of Operations that will Require or Generate        $      1,193,454    $     1,313,309
     Resources in future periods
 Components not Requiring or Generating Resources:
 25. Depreciation and amortization                                                   $     10,787,640    $     3,970,548
 26. Revaluation of assets or liabilities (+/-)                                                     30             49,629
 27. Other (+/-)
      27a. Trust Fund Exchange Revenue                                                               0                     0
      27b. Cost of Goods Sold                                                                        0                     0
      27c. Operating Material and Supplies Used                                                      0                     0
      27d. Other                                                                           (2,604,419)        (1,268,837)
 28. Total Components of Net Cost of Operations that will not Require or             $      8,183,251    $     2,751,340
     Generate Resources


 29. Total components of Net Cost of Operations that 	will not Require or            $      9,376,705    $     4,064,649
     Generate Resources in the current period
 30. Net Cost of Operations	                                                         $    190,500,929    $ 168,923,661

The Reconciliation of Net Cost of Operations to Budget is intended to explain and define the relationship between




                                                                                                                               Fiscal Year 2008 United States Army Annual Financial Statement
net obligations from budgetary accounting and net cost of operations from proprietary accounting. The following
Reconciliation of Net Cost of Operations to Budget lines are presented as combined instead of consolidated due to intra-
agency budgetary transactions not being eliminated:

     n Obligations Incurred
     n Less: Spending Authority from Offsetting Collections and Recoveries
     n Obligations Net of Offsetting Collections and Recoveries
     n Less: Offsetting Receipts
     n Net Obligations
     n Undelivered Orders
     n Unfilled Customer Orders

Due to Army General Fund’s financial system limitations, budgetary data is not in agreement with proprietary expenses and
assets capitalized. The difference between budgetary and proprietary data is a previously identified deficiency.




                                                        69
Other Resources – Other, and Other resources or adjustments to net obligated resources that do not affect net cost of
operations – Other include Other Gains and Losses, which represents adjustments to bring the proprietary accounts into
agreement with the budgetary accounts. Due to system deficiencies, there are unreconciled differences between the
budgetary and proprietary trial balances. In addition, Other resources or adjustments to net obligated resources that do not
affect net cost of operations – Other includes transfers in and out without reimbursement.

Other Components Requiring or Generating Resources in Future Period represents increases in future funded expense for
Future Funded Expenses for Conventional Disposal costs and Contingent liabilities for contract appeals and tort claims.

Other Components not Requiring or Generating Resources is comprised of Other Expenses not Requiring Budgetary
Resources for the Iraqi Relief and Reconstruction Fund. The Iraqi Relief and Reconstruction Fund is a transfer fund where
the Army General Fund executes the funding on behalf of the Executive Office of the President. The U.S.Treasury requires
that the execution for this type of transfer is presented on the Army General Fund financial statements.


Note 22. Disclosures Related to Incidental Custodial Collections
Not applicable.




General Fund
Principal Financial Statements, Notes and Supplementary Information   70
Note 23. Earmarked Funds

                                                                                        2008
BALANCE SHEET                                                       Medicare
As of September 30                                  Military     Eligible Retiree     Other
                                                   Retirement     Health Care       Earmarked
(Amounts in thousands)                               Fund              Fund           Funds         Eliminations       Total

ASSETS
Fund balance with Treasury                         $         0   $              0   $    48,123     $          0   $    48,123
Investments                                                  0                  0         2,597                0          2,597
Accounts and Interest Receivable                             0                  0         2,886         (2,886)                 0
Other Assets                                                 0                  0           935                0               935
Total Assets                                       $         0   $              0   $    54,541     $   (2,886)    $    51,655
LIABILITIES and NET POSITION
Military Retirement Benefits and Other Federal
Employment Benefits                                $         0   $              0   $           0   $          0   $             0
Other Liabilities                                            0                  0         1,595                0          1,595
Total Liabilities                                  $         0   $              0   $     1,595     $          0   $      1,595
Unexpended Appropriations                                    0                  0               0              0                 0
Cumulative Results of Operations                             0                  0        52,946                0        52,946
Total Liabilities and Net Position                 $         0   $              0   $    54,541     $          0   $    54,541
STATEMENT OF NET COST
For the period ended September 30
Program Costs                                      $         0   $              0   $    17,405     $          0   $    17,405
Less Earned Revenue                                          0                  0        (1,216)               0        (1,216)
Net Program Costs                                  $         0   $              0   $    16,189     $          0   $    16,189
Less Earned Revenues Not Attributable to
Programs                                                     0                  0               0              0                 0
Net Cost of Operations                             $         0   $              0   $    16,189     $          0   $    16,189
STATEMENT OF CHANGES IN NET
POSITION




                                                                                                                                     Fiscal Year 2008 United States Army Annual Financial Statement
For the period ended September 30
Net Position Beginning of the Period               $         0   $              0   $    24,621     $          0   $    24,621
Net Cost of Operations                                       0                  0        16,189                0        16,189
Budgetary Financing Sources                                  0                  0        18,168                0        18,168
Other Financing Sources                                      0                  0        26,346                0        26,346
Change in Net Position                             $         0   $              0   $    28,325     $          0   $    28,325
Net Position End of Period                         $         0   $              0   $    52,946     $          0   $    52,946

Earmarked Funds

Earmarked Funds represent funds received from outside sources for specific purposes. The Army General Fund receives
earmarked funds for the following appropriations:

    n	 Sale of Hunting and Fishing Permits. Fees are received from individuals for the issuance of special hunting and
       fishing permits. The funds for this account are used for wildlife, fish, and game conservation and rehabilitation
       on military reservations. Title 10, United States Code (USC) 670b gives the authority to collect funds for this
       purpose and distribute the funds for the intended purposes.



                                                        71
      n	 Restoration of Rocky Mountain Arsenal. Funds are received from private industry for the cleanup of
         contamination areas of Rocky Mountain Arsenal. Public Law (PL) 99 661, Section 1367 provides the authority for
         this explicit use.

      n	 Royalties for Use of DoD-Military Insignia and Trademarks. Funds are received from the sale of commemorative
         memorabilia, trademarks, and licensing activities. The funds are used to replenish inventory stock for such items
         and other related Commemorative Program expenses. The authority to create expenditures originates from PL
         102 484, Section 378.

      n	 Forest andWildlife Conservation, Military Reservations. These funds are produced from the sale of forest
         products that are in excess of operation and maintenance expenses at fiscal year-end for the payment of
         entitlements to states. The authority and directive for this fund originates from Title 10, USC 2665.

      n	 National Science Center. Funds received from the collection of fees for the use of the National Science Center and
         use for the operation and maintenance of the National Science Center as authorized under PL 99-145, Defense
         Authorization Act, 1986, Section 1459.

      n	 Department of the Army General Gift Fund. Funds are received from private parties and estates and used for
         various purposes. Title 10, USC 2601 establishes the authority governing the use of this fund.


The Total Earmarked Funds column is shown as consolidated and relates only to Earmarked Funds. The elimination column
on this note includes only eliminations associated with Earmarked Funds and excludes the offsetting eliminations from All
Other Funds. This exclusion causes assets to not equal liabilities and net position in the note. However, the amounts in the
total column equal the amounts reported for Earmarked Funds on the Balance Sheet.




General Fund
Principal Financial Statements, Notes and Supplementary Information   72
                                                                                   2007
BALANCE SHEET                                                   Medicare
As of September 30                                Military       Eligible        Other
                                                 Retirement   Retiree Health   Earmarked
(Amounts in thousands)                             Fund        Care Fund         Funds         Eliminations         Total

ASSETS
Fund balance with Treasury                       $        0   $           0    $    48,282     $              0 $    48,282
Investments                                               0               0          2,545                    0        2,545
Accounts and Interest Receivable                          0               0         26,695         (26,628)                  67
Other Assets                                              0               0            903                    0             903
Total Assets                                     $        0   $           0    $    78,425     $   (26,628) $        51,797
LIABILITIES and NET POSITION
Military Retirement Benefits and Other Federal
Employment Benefits                              $        0   $           0    $           0   $              0 $             0
Other Liabilities                                         0               0         53,804         (26,628)          27,176
Total Liabilities                                $        0   $           0    $    53,804     $   (26,628) $        27,176
Unexpended Appropriations                                 0               0                0                  0               0
Cumulative Results of Operations                          0               0         24,621                    0      24,621
Total Liabilities and Net Position               $        0   $           0    $    78,425     $   (26,628) $        51,797
STATEMENT OF NET COST
For the period ended September 30
Program Costs                                    $        0   $           0    $    19,657     $              0 $    19,657
Less Earned Revenue                                       0               0         (2,326)                   0      (2,326)
Net Program Costs                                $        0   $           0    $    17,331     $              0 $    17,331
Less Earned Revenues Not Attributable to
Programs                                                  0               0                0                  0               0
Net Cost of Operations                           $        0   $           0    $    17,331     $              0 $    17,331
STATEMENT OF CHANGES IN NET
POSITION
For the period ended September 30




                                                                                                                                  Fiscal Year 2008 United States Army Annual Financial Statement
Net Position Beginning of the Period             $        0   $           0    $    42,792     $              0 $    42,792
Net Cost of Operations                                    0               0         17,330                    0      17,330
Budgetary Financing Sources                               0               0           (995)                   0        ( 995)
Other Financing Sources                                   0               0            155                    0             155
Change in Net Position                           $        0   $           0    $   (18,170)    $              0 $   (18,170)
Net Position End of Period                       $        0   $           0    $    24,622     $              0 $    24,622




                                                     73
Note 24. Other Disclosures

 As of September 30                                                                   2008 Asset Category
 (Amounts in thousands)                               Land and Buildings             Equipment          Other                  Total

 1. ENTITY AS LESSEE-Operating Leases
    Future Payments Due
    Fiscal Year
       2009                                       $                    3,794     $               0      $             0    $      3,794
       2010                                                            2,118                     0                    0           2,118
       2011                                                              67                      0                    0                67
       2012                                                              67                      0                    0                67
       2013                                                              67                      0                    0                67
       After 5 Years                                                  15,350                     0                    0          15,350
 Total Future Lease Payments Due                  $                   21,463     $               0      $             0    $     21,463


Note 25. Restatements
During 3rd Quarter, FY 2008, an accounting error was discovered. As a result, prior year changes have been made
retrospectively in accordance with generally accepted accounting principles (GAAP).

Correction of an Accounting Error

On September 30, 2007, the military payroll due for disbursement on October 1st was processed one day early, resulting
in the funds being decremented at the U.S.Treasury one day early. The payroll was not actually paid to the soldiers until
October 1st. Since the processing of the payroll and the actual outlays for the payroll crossed over two fiscal years, the
outlays in both fiscals years were incorrectly stated (overstated in FY 2007 and understated in FY 2008) and required
correction. The restated amount of $1.3 billion impacted the Balance Sheet and Statement of Budgetary Resources.

Per OMB Circular A-136 Section II.4.5.4, errors in financial statements result from mathematical mistakes, mistakes in
the application of accounting principles, or oversight or misuse of facts that existed at the time the financial statements
were prepared. Prior period financial statements should be restated for corrections of errors that would have caused any
statements presented to be materially misstated, consistent with Statement of Federal Financial Accounting Standards No.
21, “Reporting Corrections of Errors and Changes in Accounting Principles.”

                     Balance Sheet (Amounts in thousands)                      Beginning Balance Change for FY 2008
                     Fund Balance with Treasury                                                              $1,281,537
                     Payroll Liability                                                                      ($1,281,537)
                     Statement of Budgetary Resources
                     Unpaid Obligations, brought forward                                                     $1,281,537

The adjustment to correct the beginning balance of Total Actual Resources increases Unpaid Obligations, brought forward.
Since the supplemental Treasury 224 entry allowed Treasury to correct the beginning balance and repost the disbursements
in FY 2008, the proprietary balances are in agreement with Treasury. A comparative account adjustment has been prepared
in 4th Quarter, FY 2008 to correct the FY 2007 Fund Balance with Treasury and Payroll Liability accounts.




General Fund
Principal Financial Statements, Notes and Supplementary Information            74
FY 2008 Required Supplementary Stewardship Information (RSSI)
The following summarizes Nonfederal Physical Property. Investments in Non-federal Physical Property refers to those
expenses incurred by the Army for the purchase, construction, or major renovation of physical property owned by State
and Local Governments, including major additions, alterations and replacements; the purchase of major equipment; and the
purchase of improvement of other physical assets. A schedule of estimated investments value of state-owned properties that
are used by the Federal Government is shown below.
                                              Non-federal Physical Property

                                   Yearly Investment in State and Local Governments

                                       For Fiscal Years FY 2004 through FY 2008

                                                   (Amounts in millions)


                       (a)                           (b)                    (c)                (d)               (e)               (f)
                  Categories                      FY 2008              FY 2007               FY 2006           FY 2005           FY 2004
 Transferred Assets:
 1. National Defense Mission Related                   $34.2                  $23.0              $66.5             $70.7             $54.7
 Funded Assets:
 2. National Defense Mission Related                            0                  0                   0                     0             0
 Total                                                 $34.2                  $23.0              $66.5             $70.7             $54.7

The Army General Fund incurs investments in Nonfederal Physical Property for the purchase, construction, or major
renovation of physical property owned by state and local governments, including major additions, alterations, and
replacements, the purchases of major equipment, and the purchases or improvement of other nonfederal assets. In
addition, Nonfederal Physical Property Investments include federally-owned physical property transferred to state and local
governments.

Investment values included in this report are based on Nonfederal Physical Property outlays (expenditures). Outlays are
used because current Department accounting systems are unable to capture and summarize costs in accordance with federal
accounting standards.

The following summarizes Basic Research,Applied Research, and Development Investments and provides examples of each.
                                       Investments in Research and Development




                                                                                                                                               Fiscal Year 2008 United States Army Annual Financial Statement
                                     Yearly Investment in Research and Development
                                        For Fiscal Years FY 2004 through FY 2008
                                                    (Amounts in millions)


                             (a)                                      (b)              (c)             (d)             (e)          (f)
                        Categories                                  FY 2008       FY 2007            FY 2006      FY 2005        FY 2004
 Basic Research                                                       $345.9           $348.9          $355.4          $360.0       $291.6
 Applied Research                                                    1,147.4        1,115.2           1,006.8           995.1        886.8
 Development
   Advanced Technology Development                                   1,336.5        1,576.2           1,369.3      1,185.8         1,010.4
   Advanced Component Development and Prototypes                       719.8            585.3           659.7           830.3        767.7
   Systems Development and Demonstration                             4,981.4        5,026.1           4,963.5      4,309.4         3,288.3
   Research, Development, Test and Evaluation                        1,317.1        1,336.7           1,287.5      1,157.3         1,069.8
   Management Support
   Operational Systems Development                                  $1,459.2       $1,380.5          $1,218.7     $1,156.7          $929.8
 Total                                                          $11,307.3         $11,368.9      $10,860.9        $9,994.6        $8,244.4




                                                           75
Narrative Statement:

Investment values included in this report are based on Research and Development outlays (expenditures). Outlays are
used because current Department accounting systems are unable to capture and summarize costs in accordance with
federal accounting standards. Research and Development (R&D) programs are classified in the following categories: Basic
Research,Applied Research and Development. The definition for each type of Research and Development Category and
subcategories are explained below:

Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of phenomena and
of observable facts without specific applications, processes, or products in mind. Basic Research involves the gathering of a
fuller knowledge or understanding of the subject under study. Major outputs are scientific studies and research papers.

The following are two representative program examples for each of the major categories:

Defense Research Sciences (PE 0601102A): This program fosters fundamental scientific knowledge and contributes
to the sustainment of U.S.Army scientific and technological superiority in land warfighting capability, provides new
concepts and technologies for the Army’s Future Force, and provides the means to exploit scientific breakthroughs and
avoid technological surprises. It fosters innovation in Army niche areas (such as lightweight armor, energetic materials,
night vision) and where the commercial incentive to invest is lacking due to limited markets (e.g., vaccines for tropical
diseases). It also focuses university single investigators on research areas of Army interest, such as high-density compact
power and novel sensor phenomenologies. The in-house portion of the program capitalizes on the Army’s scientific talent
and specialized facilities to expeditiously transition knowledge and technology into the appropriate developmental activities.
The extramural program leverages the research efforts of other government agencies, academia, and industry. This
translates to a coherent, well-integrated program which is executed by four primary contributors: 1) the Army Research,
Development, and Engineering Command (RDECOM); 2) the U.S.Army Engineer Research and Development Center
(ERDC); 3) the Army Medical Research and Materiel Command (MRMC) laboratories; and 4) the Army Research Institute
for Behavioral and Social Sciences (ARI). The basic research program is coordinated with the other Services via Defense
Science and Technology Reliance (Defense Basic Research Advisory Group), and other inter-service working groups. This
program responds to the scientific and technological requirements of the Department of Defense Basic Research Plan by
enabling technologies that can significantly improve joint war fighting capabilities. The projects in this program involve
basic research efforts directed toward providing fundamental knowledge that will contribute to the solution of military
problems related to long-term national security needs.

University and Industry Research Centers (PE 0601104A): A significant portion of the work performed within this
program directly supports Future Force requirements by providing research that supports enabling technologies for Future
Force capabilities. Broadly, the work in this project falls into three categories: Collaborative Technology Alliances (CTAs),
University Centers of Excellence (COE), and paradigm-shifting centers - University-Affiliated Research Centers (UARCs).
The Army has formed CTAs to leverage large investments by the commercial sector in basic research areas that are of
great interest to the Army. CTAs involve partnerships between industry, academia, and the Army Research Laboratory to
incorporate the practicality of industry, the expansion of the boundaries of knowledge from universities, and Army scientist
to shape, mature and transition technology. CTAs have been competitively established in the areas of Advanced Sensors,
Advanced Decision Architecture, Communications and Networks, Power and Energy, and Robotics. This program element
(PE) includes the Army’s COE, which focus on expanding the frontiers of knowledge in research areas where the Army has
enduring needs, such as rotorcraft, automotive, microelectronics, materials, and information sciences. COEs couple state-
of-the-art research programs at academic institutions with broad-based graduate education programs to increase the supply
of scientists and engineers in information sciences, materials science, electronics, automotive, and rotary wing technology.
Also included is eCYBERMISSION, the Army’s national web-based competition to stimulate interest in science, math,
and technology among middle and high school students. This program also includes the four Army UARCs, which have




General Fund
Principal Financial Statements, Notes and Supplementary Information     76
been created to exploit opportunities to advance new capabilities through a sustained long-term multidisciplinary effort.
The Institute of AdvancedTechnology funds basic research in electromagnetics and hypervelocity physics. The Institute
for Soldier Nanotechnologies focuses on Soldier protection by emphasizing revolutionary materials research for advanced
Soldier protection and survivability. The Institute for Collaborative Biotechnologies, focusing on enabling network centric-
technologies, will broaden the Army’s use of biotechnology for the development of bio-inspired materials, sensors, and
information processing.The Institute for Creative Technologies is a partnership with academia and the entertainment and
gaming industries to leverage innovative research and concepts for training and simulation.

Applied Research is the systematic study to gain knowledge or understanding necessary for determining the means by
which a recognized and specific need may be met. It is the practical application of such knowledge or understanding for the
purpose of meeting a recognized need. This research points toward specific military needs with a view toward developing
and evaluating the feasibility and practicability of proposed solutions and determining their parameters. Major outputs are
scientific studies, investigations, and research papers, hardware components, software codes, and limited construction of, or
part of, a weapon system to include nonsystem specific development efforts.

The following are two representative program examples for this category:

Materials Technology (PE 0602105A): This program funds research and evaluation of materials technologies for armor
and armaments that will significantly enhance the survivability and lethality of Future Force systems and where feasible, can
be exploited to enhance the Current Force. This program builds on materials research transitioned from Defense Research
Sciences Materials and Mechanics project and applies it to specific Army platforms and the individual Soldier. This program
is directed toward developing materials technology that contributes to making heavy forces lighter and more deployable and
light forces more lethal and survivable. The program provides the technology base required for solving materials-related
problems in individual Soldier support equipment, armor, armaments, aircraft, ground and combat vehicles, and combat
support. This program also funds collaborative research efforts in nanomaterials technology between the Army Research
Laboratory (ARL) and the Institute for Soldier Nanotechnologies (ISN) at the Massachusetts Institute of Technology and the
ISN industry partners. The effort is focused specifically on the improvement in individual Soldier protection.

Combat Vehicle and Automotive Technology (PE 0602601A): This program researches, investigates, and
applies combat vehicle and automotive component technologies that enhance survivability, mobility, sustainability, and
maintainability of Army ground combat and tactical vehicles. As combat vehicle systems become smaller and lighter,
and tactical vehicles are more often exposed to combat conditions, one of the greatest technological and operational




                                                                                                                                Fiscal Year 2008 United States Army Annual Financial Statement
challenges is providing adequate crew protection without reliance on heavy passive armor. This challenge will be met
using a layered approach, including long-range situational awareness, advanced lightweight opaque and transparent armors,
Active Protection Systems (APS), and multi-spectral signature reduction. This program focuses on designing, fabricating,
and evaluating performance of integrated and add-on lightweight armor packages needed to provide lightweight combat
vehicles protection against Chemical Energy (CE) and Kinetic Energy (KE) threats with less than one fourth the weight of
conventional heavy armor. This program also designs, fabricates, and evaluates structural and add-on armors for tactical
vehicles. This program funds the National Automotive Center (NAC). The goal of the NAC is to leverage large commercial
investments in automotive technology, research, and development by pursuing automotive-oriented technology programs
that have potential benefit to military ground vehicles. This program researches and investigates a variety of enabling
technologies in the areas of hybrid electric propulsion, mobility, thermal management, intelligent systems, vehicle
diagnostics, fuels/lubricants, and water purification. Future Force vehicles and new tactical vehicles are being designed
with hybrid electric architectures, advanced high power density engines, and auxiliary power units that provide power for
propulsion, control systems, communications, life support systems, electromagnetic (EM) armor, Soldier battery charging,
and export to other systems.

Development takes what has been discovered or learned from basic and applied research and uses it to establish




                                                                77
technological feasibility, assessment of operability, and production capability. Development is comprised of five stages
defined below:

      1.	 Advanced Technology Development is the systematic use of the knowledge or understanding gained from
          research directed toward proof of technological feasibility and assessment of operational and productibility rather
          than the development of hardware for service use. Employs demonstration activities intended to prove or test a
          technology or method.

      2.	 Advanced Component Development and Prototypes (ACD&P) evaluates integrated technologies in as
          realistic an operating environment as possible to assess the performance or cost reduction potential of advanced
          technology. Programs in this phase are generally system specific. Major outputs of Advanced Component
          Development and Prototypes are hardware and software components, or complete weapon systems, ready for
          operational and developmental testing and field use.

      3.	 System Development and Demonstration concludes the program or project and prepares it for production.
          It consists primarily of preproduction efforts, such as logistics and repair studies. Major outputs are weapons
          systems finalized for complete operational and developmental testing.

      4.	 Research, Development,Test & Evaluation Management Support is support for installations and
          operations for general research and development use. This category includes costs associated with test ranges,
          military construction maintenance support for laboratories, operation and maintenance of test aircraft and ships,
          and studies and analyses in support of the R&D program.

      5.	 Operational Systems Development is concerned with development projects in support of programs or
          upgrades still in engineering and manufacturing development, which have received approval for production, for
          which production funds have been budgeted in subsequent fiscal years.


The following are five representative program examples of development:

Electronic Warfare Advanced Technology (PE 0603008A): The goal of this program is to provide enabling
technologies for a secure, mobile, wireless network that will operate reliably in diverse and complex terrain, in all
environments for the Army’s Future Force and, where feasible, exploit opportunities to enhance Current Force capabilities.
Technologies will be matured and demonstrated to address this challenge with distributed, mobile, secure, self-organizing
communications networks. A key objective is to demonstrate seamlessly integrated communications technologies across
all network tiers, ranging from unattended networks and sensors through maneuver elements and airborne/space assets.
To accomplish the goal this program will investigate and leverage external communication technologies and combine
technology options in a series of Command, Control, Communications, and Computers Intelligence, Surveillance, and
Reconnaissance (C4ISR) On-The-Move (OTM) experiments to measure the battlefield effectiveness for the Future Force.
This program also provides: protection technologies for tactical wireless networks against modern network attacks; smart
communication technologies to network and control unmanned systems anywhere on the battlefield enabling timely sensor-
decider-engagement linkage to defeat critical targets; advanced antenna technologies for greater communications mobility,
range and throughput; and automated network management aids.

Aviation - Advanced Development (PE 0603801A): This program provides advanced development aviation
support of tactical programs associated with air mobility, advanced maintenance concepts and equipment, and Aircrew
Integrated Systems. This program demonstrates the feasibility and maturity of new technology and gains understanding in
order to evaluate utility of this technology to expedite delivery of new capabilities for Army Aviation rotary wing assets.
Additionally, the Aviation Ground Support Equipment assets enhance the functionality of current and future aircraft by
improving the effectiveness of maintenance and servicing operations through validating new maintenance concepts to



General Fund
Principal Financial Statements, Notes and Supplementary Information      78
improve man and machine interfaces, improve aircraft maintenance processes, reduce Operation and Support costs and
insert diagnostics technologies to replace obsolete and unsupportable equipment.

Patriot/MEADS Combined Aggregate Program (CAP) (PE 0604869A): The Medium Extended Air Defense
System (MEADS) program is a tri-national co-development program between the United States, Germany, and Italy to
replace the U.S. Patriot air defense systems, Patriot and Hawk systems in Germany, and NIKE Hercules systems in Italy.
The NATO MEADS Management Agency (NAMEADSMA) is the NATO contracting authority providing management of
the MEADS program on behalf of the participating nations and is responsible for managing the system acquisition. Within
the Patriot/MEADS CAP there are two synergistic efforts: an international MEADS development effort managed by
NAMEADSMA, and a U.S. effort to inject U.S.-specific capability requirements into the MEADS Major End Items.

MEADS will provide joint and coalition forces, critical asset and defended area protection against multiple and simultaneous
attacks by short to medium range ballistic missiles, cruise missiles, unmanned aerial vehicles and tactical air-to-surface
missiles. The Missile Segment Enhancement missile has been accepted as the baseline missile for MEADS. It is being
developed by the U.S. for Patriot to meet U.S. operational requirements. MSE will provide a more agile and lethal
interceptor that increases the engagement envelope/defended area of Patriot and the MEADS systems. The PAC-3 MSE
improves upon the current PAC-3 missile capability with a higher performance solid rocket motor, modified lethality
enhancer, more responsive control surfaces, upgraded guidance software, and insensitive munitions improvements.

Army Test Ranges and Facilities (0605601A): This program funds the indirect test costs associated with rapidly
testing field systems and equipment needed in support of the Global War on Terrorism such as individual soldier protection
equipment and Counter Measures for Improvised Explosive Devices and up-armoring the Army’s wheeled vehicle fleet.
This project sustains the developmentalTest and Evaluation capability required to support Army as well as joint Service or
other Service systems, hardware, and technologies. Unclassified systems scheduled for developmental testing encompass
the entire spectrum of weapons systems such as: up-armoring vehicle ballistic protection on the Buffalo, Cougar, Family of
Medium Tactical Vehicles Long Term Armor Strategy, and Joint Light Tactical Vehicle; Stryker upgrades; armor gun shields
for tactical vehicles; reactive and active armor on the Stryker; Personnel Screening Systems; the Mine Resistant Ambush
Protected Vehicles; Intelligence Surveillance and Reconnaissance; Electronic Countermeasure Devices; body armor;
High Mobility Multipurpose Wheeled Vehicle;Aviation Transformation; aviation protection systems; missile defense; and
Unmanned Systems. Capabilities are also required to support System-of-Systems and network centric systems to include
Future Combat System (FCS) testing.




                                                                                                                               Fiscal Year 2008 United States Army Annual Financial Statement
This project provides the institutional funding required to operate the developmental test activities required by Department
of Defense (DoD) Program Executive Officers, Program and Product Managers, and Research, Development, and
Engineering Centers. This project provides resources to operate four DoD Major Range andTest Facility Bases: White
Sands Missile Range, NM;AberdeenTest Center, MD; Electronic Proving Ground,AZ; andYuma Proving Ground,AZ (to
include management of Army natural environmental testing at Cold Regions Test Center, Fort Greely and Fort Wainwright,
AK, andTropic RegionsTest Center at various locations). This project also funds the Army’s developmental test capability
at Aviation Technical Test Center,AL; and Redstone Technical Test Center,AL. Test planning and safety verification at
Headquarters, U.S.Army Developmental Test Command (DTC), MD is also supported by this program.

Information Systems Security Program (0303140A): The Communications Security Equipment Program
develops Information Systems Security (ISS) equipment and techniques required to combat threat Signal Intelligence
capabilities and to insure the integrity of data networks. The Army’s RDTE ISS program objective is to implement
National Security Agency (NSA) developed security technology in Army information systems. Communications Security
Equipment(COMSEC)technology ensures total signal and data security for all Army information systems to include any
operational enhancement and specialized Army configurations.




                                                         79
FY 2008 Required Supplementary Information (RSI)
National Defense Property, Plant, and Equipment
The Federal Accounting Standards Advisory Board (FASAB) revised the Statement of Federal Financial Accounting
Standards No. 6 to require the capitalization and depreciation of military equipment (formerly National Defense Property,
Plant and Equipment/ND PP&E) for fiscal years (FY) 2003 and beyond, and encouraged early implementation.

                                                             Heritage Assets

                                                For Fiscal Year Ended September 30, 2008



                    (a)                            (b)                     (c)           (d)          (e)                (f)
                                            Measurement /
                                              Quantity                As of 10/1/07   Additions   Deletions        As of 9/30/08
 Buildings & Structures                           Each                   9,508         1,051         598               9,961
 Museums                                          Each                     59            0             0                 59
 Archeological Sites                              Sites                  7,648          465         1,140              6,973

Narrative Statement:

In most cases, the additions/deletions are the result of sites/installations: (a) identifying cemeteries and historical facilities;
(b) disposing of BRAC Closure property or excess installations; and (c) privatization/RCI program. BRAC Mission Closure
installations/sites are included in this report.

Heritage Assets are items of historical, natural, cultural, educational, or artistic significance (e.g., aesthetic) or items with
significant architectural characteristics. Heritage Assets are expected to be preserved indefinitely.

The fiscal year 2008 categories are defined as follows:

Notes:

      1.	 Historical Buildings and Structures: Buildings and structures designated as historical includes museums,
          monuments, and memorials were reported separately in FY 2007. The number of Buildings and Structures
          increased as a result of the following initiatives:

           n	 Installations conducting real property surveys and making adjustments according to their findings;

           n	 Active installations now reporting previously omitted National Guard Bureau buildings and structures
              designated as heritage assets; and

           n	 Both National Guard and Reserve are now reporting new buildings and structures designated as heritage
              assets.

      2.	 Museums: The Army Museum System consists of 59 museums and museum activities in the active Army and Army
          Reserve. There are a relatively small number of federally owned artifacts in National Guard Museum activities,
          which are primarily state entities. In addition, there is historical property displayed in numerous regimental
          rooms, trophy rooms, officer’s clubs, visitor’s centers, chapels, and headquarters building elements that are not
          individually recognized by the Department of the Army as museums or museum activities. Solely for reporting
          purposes, we have consolidated all of these separate and smaller collections during this reporting period.




General Fund
Principal Financial Statements, Notes and Supplementary Information              80
    3.	 Archeological Sites: The Army reports Archeological Sites in per the amended DOD 7000.14-R,Volume 6B,
        Chapter 12. Only those archeological sites that have been determined eligible for the National Register of
        Historic Places (NR) or are listed on the NR are reported in the Heritage Assets table. These archeological sites
        which have been through a formal evaluation process and are either eligible for, or listed on, the National Register
        of Historic Places.

         This is the first year that the Army is reporting only those archeological sites on the National Register of Historic
         Places and those which are eligible for listing based on the new FMR above. The actual number of recorded
         archeological sites that can be found on Army installations is 74,728, a net increase of 4,731 from last year’s
         report. The Army does not generally acquire or remove new archeological sites annually but instead identifies
         new sites on existing Army land or evaluates existing sites during the course of the financial year. Installations
         reported 465 additions and 1,140 deletions; however the installations are still adjusting their numbers to remove
         duplicate entries, old entries that have already been deleted, etc. Additions of archeological sites reflect the
         Army’s policy to identify and evaluate historic properties in accordance with Sections 106 and 110 of the National
         Historic Preservation Act. As more land is surveyed, more archeological sites are identified. Some deletions
         reflect changes to the status of a recorded archeological site that may have been determined ineligible for listing or
         may be evidence of an accounting correction due to installations’ continued improvement of data quality. In some
         cases, an archeological site may appear as a deletion if it was mitigated or destroyed or if multiple sites previously
         counted as individual sites were found to have only one official trinomial number. However, the majority of
         deletions in both categories is not due to any physical changes to these sites, but instead reflects improvements in
         accountability of actual sites recorded.

         The conditions of archeological sites across the Army remain varied from poor to excellent based on a number
         of factors including the environmental setting, the type of the site, and impacts from Army activities. If an Army
         activity has the potential to adversely impact an archeological site eligible for the National Register of Historic
         Places, the installation’s Installation Cultural Resource Management Plan (ICRMP) contains provisions for how the
         installation would proceed to mitigate those impacts. ICRMPs are the plan that installations use to manage their
         cultural resources including archeological sites in compliance with federal requirements. These plans provide for
         site protection, site conditions monitoring, and mitigation procedures for adverse impacts to sites. Overall, the
         conditions of sites on Army installations are fair based on the Army’s cultural resource management procedures.


The following summarizes Stewardship Land. Additions/deletions are the result of: (a) acquiring additional land through




                                                                                                                                  Fiscal Year 2008 United States Army Annual Financial Statement
donation or withdrawal from public domain; (b) identification of missing land records; and (c) disposal of Base Realignment
and Closure (BRAC) sites or transfer of land to another DOD agency. BRAC Mission Closure installations and sites are
included in this report.




                                                          81
                                                Army General Fund - Consolidated Report

                                                             Stewardship Land

                                                For Fiscal Year Ended September 30, 2008

                                                            (Acres in thousands)


                                                                                  As of                                       As of
     Facility Code                           Facility Title                      10/01/07     Additions       Deletions     9/30/2008
           9110              Government-Owned Land                                   5,192            14              4          5,202
           9111              State-Owned Land                                         N/A            N/A            N/A           N/A
           9120              Withdrawn Public Land                                   6,506                0           0          6,506
           9130              Licensed and Permitted Land                             1,862            0.3           0.1          1,863
           9140              Public Land                                                11                0           0            11
           9210              Land Easement                                            219             0.1           0.1           219
           9220              In-leased Land                                           290                 1           1           290
           9230              Foreign Land                                             169                 2           4           167
                                                                                                      GRAND TOTAL              14,257
                                                                                                   TOTAL – All Lands             7,740
                                                                                       TOTAL – Stewardship Lands                 6,517

                                                        Department of the Army
                                                General Property, Plant, and Equipment
                                              Real Property Deferred Maintenance Amounts
                                                       As of September 30, 2008
                                                         (Amounts in thousands)


                                                                            Current Fiscal Year (CFY)
                                            1. Plant Replacement               2. Required Work
 Property Type                                       Value                  (deferred maintenance)               3. Percentage
 Category 1                                                $151,286,805                     $20,323,573               13%
 Category 2                                                  $26,984,522                     $7,266,358               27%
 Category 3                                                      $224,074                           $0                0%

Narrative Statement:

The deferred maintenance estimates are based on the facility Q-ratings found in the Army’s real property inventory. For
FY 2008, the Q-rating values range from 0 to 100. Deferred maintenance is calculated as follows:

           Deferred Maintenance = (100 – Q-rating) x 0.01 x plant replacement value (PRV).


Q-ratings are determined by the Installation Status Report (ISR) for the majority of facilities, and by business rule for the
remaining facilities. During ISR data collection, facility occupants evaluate the condition of each facility against published
standards. The inspection generates a quality improvement cost estimate for each facility based on the condition rating
of each component of the facility, and the component improvement cost factor. Improvement cost factors are developed
using industry standards for each facility component within each facility type. The business rule assignment of Q-ratings is
as follows: 95 if the facility is no more than 5 years old; 70 if the facility is permanent construction and more than 5 years
old; 40 if the facility is temporary construction and more than 5 years old; 95 if the asset is a lease. Acceptable operating
condition represents facilities with no deferred maintenance.



General Fund
Principal Financial Statements, Notes and Supplementary Information         82
Facility Categories are as follows:

     n	 Category 1: Buildings, Structures, and Utilities that are enduring and required to support an ongoing mission
        including multi-use Heritage Assets

     n	 Category 2: Buildings, Structures, and Utilities that are excess to requirements or planned for replacement or
        disposal including multi-use Heritage Assets

     n	 Category 3: Buildings, Structures, and Utilities that are Heritage Assets

                                       Military Equipment Deferred Maintenance

                                       For Fiscal Year Ended September 30, 2008

                                                  (Amounts in thousands)


                       Major Categories
                       1. Aircraft                                                        $427,909
                       2. Automotive Equipment                                                   $0
                       3. Combat Vehicles                                                 $252,505
                       4. Construction Equipment                                           $17,312
                       5. Electronics and Communications Systems                          $383,660
                       6. Missiles                                                        $149,020
                       7. Ships                                                             $5,460
                       8. Ordnance Weapons and Munitions                                   $31,051
                       9. General Purpose Equipment                                        $48,288
                       10. All Other Items                                                 $39,840
                       Total	                                                           $1,355,045

The Op-30 from the FY2008 President Budget was used to compile the deferred depot level maintenance. Depot
Maintenance Operations and Planning System (DMOPS). DMOPS is the automated system for capturing depot-level
deferred maintenance data.




                                                                                                                         Fiscal Year 2008 United States Army Annual Financial Statement




                                                         83
General Fund
Principal Financial Statements, Notes and Supplementary Information   84
                                                         INSPECTOR GENERAL

                                                      DEPARTMENT OF DEFENSE

                                                         200 ARMY NAVY DRIVE

                                                    ARLINGTON, VIRGINIA 22202-4704




                                                                                                                            November 8, 2008

MEMORANDUM FOR ASSISTANT SECRETARY OFTHE ARMY (FINANCIAL MANAGEMENT AND
COMPTROLLER)

SUBJECT: Independent Auditor’s Report on the Army General Fund FY 2008 and FY 2007 Basic Financial Statements
         (Report No. D-2009-018)

The Chief Financial Officers Act of 1990, as amended, requires the Department of Defense Inspector General to audit the
accompanying Army General Fund Consolidated Balance Sheets as of September 30, 2008 and 2007, and the Consolidated
Statement of Net Cost, the Consolidated Statement of Changes in Net Position, the Combined Statement of Budgetary
Resources, the Statement of Custodial Activity, and related notes for the fiscal years then ended. The financial statements
are the responsibility of Army management. The Army is also responsible for implementing effective internal control and
for complying with laws and regulations.

We are unable to express an opinion on the Army General Fund FY 2008 and FY 2007 Basic Financial Statements because
of limitations on the scope of our work. Thus, the financial statements may be unreliable. In addition to our disclaimer of
opinion on the financial statements, we are including the required Report on Internal Control and Compliance with Laws
and Regulations. The Report on Internal Control and Compliance with Laws and Regulations is an integral part of our
disclaimer of opinion on the financial statements and should be considered in assessing the results of our work.

Disclaimer of Opinion on the Financial Statements

The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us that the Army General




                                                                                                                                                Fiscal Year 2008 United States Army Annual Financial Statement
Fund FY 2008 and FY 2007 Financial Statements would not substantially conform to accounting principles generally
accepted in the United States of America (GAAP), and that Army financial management and feeder systems were unable
to adequately support material amounts on the financial statements as of September 30, 2008. Section 1008(d) of the FY
2002 National Defense Authorization Act limits the Department of Defense Inspector General to performing only those
audit procedures required by generally accepted government auditing standards that are consistent with the representations
made by management. Accordingly, we did not perform auditing procedures required by U.S. Government auditing
standards and Office of Management and Budget (OMB) Bulletin 07-04, “Audit Requirements for Federal Financial
Statements,” as amended,1 to determine whether material amounts on the financial statements were fairly presented.
Prior audits have identified, and the Army has also acknowledged, the long-standing material internal control weaknesses
identified in the Summary of Internal Control. These pervasive material weaknesses affect the reliability of certain
information contained in the annual financial statements—much of which is taken from the same data sources as the


1
    OMB Memorandum M-08-24, Technical Amendments to OMB Bulletin No. 07-04, “Audit Requirements for Federal Financial Statements,” August 25,
    2008.




                                                                    85
basic financial statements.2 Therefore, we are unable to express, and we do not express, an opinion on the basic financial
statements. Additionally, the purpose of the audit was not to express an opinion on Management’s Discussion and Analysis,
Required Supplementary Stewardship Information, Required Supplementary Information, and Other Accompanying
Information presented with the basic financial statements. Accordingly, we express no opinion on that information.

OMB Circular A-136, “Financial Reporting Requirements,” states that prior-period financial statements should be restated
for corrections of errors that would have caused any statements presented to be materially misstated. On September 30,
2007, the military payroll scheduled for disbursement on October 1, 2007, was misreported to the Department of the
Treasury as a September disbursement. The actual payroll was not paid to the soldiers until October 1, 2007. As a result
of this error, the Army General Fund had a prior-period adjustment to increase Fund BalanceWithTreasury by $1.3 billion
and to decrease Payroll Liability by the same amount. This is discussed in detail in Notes 19 and 25.

Summary of Internal Control

In planning our work, we considered Army internal controls over financial reporting and compliance with applicable laws
and regulations. We did this to determine our procedures for auditing the financial statements and to comply with OMB
guidance, but our purpose was not to express an opinion on internal control. Accordingly, we do not express an opinion
on internal control over financial reporting and compliance with applicable laws and regulations. However, previously
identified significant deficiencies, all of which are material, continued to exist in the following areas:

        n Financial Management Systems

        n Fund Balance With Treasury

        n Accounts Receivable

        n Inventory

        n General Property, Plant, and Equipment

        n Accounts Payable

        n Environmental Liabilities

        n Statement of Net Cost
        n Statement of Budgetary Resources

        n Intragovernmental Eliminations

        n Accounting Adjustments

        n Abnormal Account Balances

        n Reconciliation of Net Cost of Operations to Budget




2
    The annual financial statements include the basic financial statements, Management’s Discussion and Analysis, Required Supplementary Stewardship
    Information, Required Supplementary Information, and Other Accompanying Information.




General Fund
Principal Financial Statements, Notes and Supplementary Information             86
We identified the following additional material weakness in FY 2008:

        n	 Contingency Payment Audit Trails

A material weakness is a significant deficiency, or a combination of significant deficiencies, resulting in more than a remote
likelihood that a material misstatement of the financial statements will not be prevented or detected.3

A control deficiency exists when the design or operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to prevent or detect misstatements on a timely basis. A significant
deficiency is a control deficiency, or a combination of control deficiencies, adversely affecting the entity’s ability to initiate,
authorize, record, process, or report financial data reliably in accordance with GAAP. Significant deficiencies result in more
than a remote likelihood that a misstatement of an entity’s financial statements that is more than inconsequential will not be
prevented or detected. The following is the significant deficiency identified:

        n	 Legal Representation Process
Internal control work that we conducted as part of our prior audits would not necessarily disclose all significant
deficiencies. The Attachment offers additional details on significant deficiencies, most of which we consider to be material
internal control weaknesses.

The Army reported the above weaknesses in its 2008 Statement of Assurance on Internal Controls.

Summary of Compliance with Laws and Regulations

We limited our work to determine compliance with selected provisions of applicable laws and regulations related to
financial reporting because management acknowledged that instances of noncompliance identified in prior audits continued
to exist. The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us that Army
financial management systems do not substantially comply with Federal financial management system requirements, GAAP,
and the U.S. Government Standard General Ledger at the transaction level. Therefore, we did not determine whether the
Army complied with all applicable laws and regulations related to financial reporting. Providing an opinion on compliance
with certain provisions of laws and regulations was not an objective of our audit and, accordingly, we do not express such an
opinion. See the Attachment for additional details on compliance with laws and regulations.




                                                                                                                                                                   Fiscal Year 2008 United States Army Annual Financial Statement
Management’s Responsibilities

Management is responsible for:

        n	 preparing the financial statements in conformity with GAAP;

        n	 establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad control
           objectives of the Federal Managers’ Financial Integrity Act are met; and

        n	 complying with applicable laws and regulations.




3
    The term “remote” is defined as when the chance of a future event or events occurring is slight. Therefore, the likelihood of an event is “more than remote”
    when it is at least reasonably possible.




                                                                           87
We provided a draft of this report to the Office of the Deputy Secretary of the Army (Financial Operations), who provided
technical comments, which have been incorporated as appropriate. Army officials expressed their continuing commitment
to address the problems this report outlines.




                                                                       Patricia A. Marsh, CPA
                                                                       Assistant Inspector General
                                                                       Defense Business Operations




Attachment:
As stated




General Fund
Principal Financial Statements, Notes and Supplementary Information   88
                                          Report on Internal Control and 

                                       Compliance with Laws and Regulations


Internal Control

Management is responsible for implementing and maintaining effective internal control and for providing reasonable
assurance that accounting data are accumulated, recorded, and reported properly; that the requirements of applicable laws
and regulations are met; and that assets are safeguarded against misappropriation and abuse. Our purpose was not to, and
we do not, express an opinion on internal control over financial reporting. However, we have identified the following
material weaknesses that could adversely affect the Army General Fund financial management operations.

Previously Identified Material Weaknesses. Management acknowledged that previously identified significant
deficiencies, all of which are material, continued to exist in the following areas.

         Financial Management Systems. Army accounting systems lacked a single, standard, transaction-driven
         general ledger. The Army also needed to upgrade or replace many of its nonfinancial feeder systems so that
         financial statement reporting requirements could be met. The lack of a single, standard, transaction-driven
         general ledger will continue to prevent the Army from preparing auditable financial statements.

         The Army has acknowledged that its financial management systems were unable to provide adequate evidence
         supporting various material amounts on the financial statements and did not comply with Federal financial
         management system requirements, GAAP, and the U.S. Government Standard General Ledger at the transaction
         level. Until the Army’s systems and processes are updated to comply with GAAP, the Army’s financial data will
         be based on budgetary transactions, nonfinancial feeder systems transactions, and adjustments for known accruals
         of major items. The Army derives its reported values and information for major asset and liability accounts from
         nonfinancial feeder systems, such as inventory and logistics systems. (Major assets include General Property,
         Plant, and Equipment and Inventory and Related Property.) In addition, budgetary transactions were recorded in
         line items such as Fund BalanceWithTreasury,Accounts Receivable,Accounts Payable, Gross Costs, and Earned
         Revenue.

         Fund Balance With Treasury. DoD and its Components, including the Army, have had long-standing problems
         with reconciling transaction activity in their Fund BalanceWithTreasury accounts. Appropriation balances
         recorded in the accounting records do not agree with balances held at the Department of the Treasury. Therefore,




                                                                                                                               Fiscal Year 2008 United States Army Annual Financial Statement
         the Defense Finance and Accounting Service, Indianapolis Operations (DFAS Indianapolis) made unsupported
         adjustments that had a net effect of $18 billion on the three Fund Balance With Treasury line items.

         Accounts Receivable. The Army has acknowledged weaknesses in its accounts receivable management. The
         weaknesses are considered to be DoD-wide and apply to both public and intragovernmental receivables at the
         Army General Fund level. Weaknesses include:

         n noncompliance with policies and procedures regarding referrals to the Debt Management Office and the
           Department of the Treasury and for write-offs of 2-year-old debt;

         n a lack of controls to ensure that all entitlement system receivables (vendor pay, civilian pay, and interest) are
           recorded in the accounting systems; and

         n a lack of controls to ensure that accounts receivable balances are supportable at the transaction level.



                                                                                                                  Attachment



                                                         89
           As a result, DFAS Indianapolis made $2.2 billion in unsupported adjustments for FY 2008.

           Inventory. Inventories are valued and reported at approximate historical cost, using latest-acquisition-cost
           adjusted for holding gains and losses. The systems do not maintain historical cost data necessary to comply with
           Statement of Financial Accounting Standards No. 3, “Accounting for Inventory and Related Property.” The systems
           are also unable to produce financial transactions using the U.S. Government Standard General Ledger. Statement
           of Federal Financial Accounting Standards No. 3 states that Operating Materials and Supplies must be expensed
           when the items are consumed. However, the Army has acknowledged that significant amounts of Operating
           Materials and Supplies were expensed when they were purchased, instead of when they were consumed.

           General Property, Plant, and Equipment. Statement of Federal Financial Accounting Standards No. 6,
           “Accounting for Property, Plant, and Equipment,” requires that all General Property, Plant, and Equipment be
           recorded at cost, and that depreciation expense be recognized on all General Property, Plant, and Equipment. The
           Army has acknowledged that real property and military equipment were not recorded at acquisition or historical
           cost and did not include all costs needed to bring these assets to a form and location suitable for their intended
           use. Also, the Army could not support the reported cost of military equipment in accordance with Statement of
           Federal Financial Accounting Standards No. 6. The Army also lacks financial accountability systems that comply
           with the Federal Financial Management Improvement Act of 1996 for its Military Table of Equipment unit
           property books.

           Accounts Payable. The Army is unable to properly account for and report Accounts Payable. DFAS
           Indianapolis made $2.2 billion in unsupported adjustments for FY 2008. In addition, the Army accounting
           systems do not capture trading partner data at the transaction level in a manner that facilitates trading partner
           aggregations for intra-agency sales. Therefore, the Army has acknowledged that it was unable to reconcile
           intragovernmental accounts payable to the related intragovernmental accounts receivable that generated the
           payables.

           Environmental Liabilities. The Army has not properly estimated and reported its environmental liabilities.
           For example, the processes used to report environmental liabilities for the Defense Environmental Restoration
           Program, Base Realignment and Closure, and the Non-Defense Environmental Restoration Program on the
           financial statements were not adequate to establish or maintain sufficient documentation and audit trails. Although
           estimators were properly qualified to perform estimates, the Army did not document supervisory reviews of
           estimates and did not have adequate quality control programs in place to ensure the reliability of data.

           Statement of Net Cost. The financial information contained in the Statement of Net Cost is not presented
           by program, in alignment with major goals and outputs described in the DoD strategic and performance plans
           required by the Government Performance and Results Act. Because financial processes and systems do not
           correlate costs with performance measures, revenues and expenses are reported by appropriation category.
           Because Army systems do not always record the transactions on an accrual basis, as required by GAAP, the
           amounts presented in the Statement of Net Cost are based on funding, obligation, and disbursing transactions.
           To capture all cost and financing sources for the Army, the information presented also includes data from
           nonfinancial feeder systems. In addition,Army General Fund budgetary and proprietary data do not correlate. As
           a result, DFAS Indianapolis made $1.2 billion in unsupported adjustments to force costs to agree with obligation
           information.

           Statement of Budgetary Resources. Army accounting systems do not provide or capture data needed for
           obligations incurred or prior-year obligations recovered, as required by OMB Circular No.A-11, “Preparation,



Attachment


General Fund
Principal Financial Statements, Notes and Supplementary Information   90
Submission, and Execution of the Budget Requirements.” Although the Army developed an alternative
methodology to calculate these items, the amount of distortion cannot be reliably determined. The Statement
of Budgetary Resources does not include eliminating entries and, therefore, a Disaggregated Statement of
Budgetary Resources is included in the Required Supplementary Information section of the financial statements.
The Army uses budget execution data, which is composed of transaction report codes, to prepare the monthly
Standard Form 133, “Report on Budget Execution and Budgetary Resources,” and the quarterly Federal Agencies
Centralized Trial Balance System II budgetary general ledger accounts. DFAS Indianapolis personnel then use
the Federal Agencies Centralized Trial Balance System II data to prepare the Statement of Budgetary Resources.
Because both the Standard Form 133 and the Statement of Budgetary Resources are prepared using budget
execution data, there is no true reconciliation between the two reports. According to OMB Circular No.A-136,
“Financial Reporting Requirements,” the Statement of Budgetary Resources should be predominantly derived
from an entity’s budgetary general ledger, instead of being based on budget execution data. In FY 2008, DFAS
Indianapolis prepared $4 billion in unsupported adjustments that affected general ledger accounts used in the
Statement of Budgetary Resources.

DFAS Indianapolis reported budget execution data to the Department of theTreasury that did not agree with the
data reported on the Army financial statements. The differences between the amounts reported on the Standard
Form 133 provided to OMB and the Army General Fund Statement of Budgetary Resources (and its related
footnote) totaled $190.8 billion for fourth quarter FY 2008. This occurred because DFAS Indianapolis did not
perform an effective reconciliation among Federal Agencies CentralizedTrial Balance System II data, the Army
General Fund Statement of Budgetary Resources, and the Standard Form 133 prepared for the Army. As a result,
DFAS Indianapolis used one set of budget execution data to mange Army funds, but provided the Department
of theTreasury a different set of budget execution data for the OMB’s use. Also, DFAS Indianapolis reported
inaccurate and misleading budget execution data on the Army Standard Form 133, on the Army Statement of
Budgetary Resources (and the related footnote), and to the Department of the Treasury for the OMB Standard
Form 133. In addition, DFAS Indianapolis will perpetuate these material differences in the newly fielded
accounting system if the differences are not corrected.

Intragovernmental Eliminations. DoD is unable to collect, exchange, and reconcile buyer and seller
intragovernmental transactions, resulting in adjustments that cannot be verified. This is primarily because of
systems limitations, as the majority of the systems currently used within DoD do not allow the capture of buyer-
side information for use in reconciliations and eliminations. DoD and Army accounting systems were unable to
capture trading partner data at the transaction level to facilitate required trading partner eliminations, and DoD




                                                                                                                     Fiscal Year 2008 United States Army Annual Financial Statement
guidance did not require adequate support for eliminations. In addition, DoD procedures required that buyer-side
transaction data be forced to agree with seller-side transaction data without performing proper reconciliations.
Therefore, DFAS Indianapolis made $38.6 billion in unsupported adjustments to intragovernmental accounts to
force the accounts to agree with the records of Army’s trading partners.

Accounting Adjustments. Because of inadequate financial management systems and processes, DFAS
Indianapolis used journal voucher adjustments and data calls to prepare the Army General Fund financial
statements. DFAS Indianapolis did not adequately support $595.8 billion in journal voucher adjustments used to
prepare the Army General Fund financial statements. Specifically, DFAS Indianapolis made:

n	 $151.5 billion in unsupported adjustments to force amounts to agree with other sources of information and
   records or financial statement lines,

n	 $38.6 billion in unsupported adjustments to intragovernmental accounts to force the accounts to agree with



                                                                                                      Attachment



                                               91
                 the records of the Army’s trading partners,

           n	 $292.7 billion in unsupported adjustments to correct errors and reclassify amounts to other accounts, and

           n	 $113 billion in unsupported adjustments to force the general ledger account to agree with status of
              appropriations data (or ending balance adjustments) without reconciling the differences or determining which
              data source was correct.

           Abnormal Account Balances. DFAS Indianapolis did not detect, report, or take action to eliminate abnormal
           balances included in the Army General Fund accounting records. The FY 2008 trial balance data for the Army
           General Fund included 143 general ledger accounts, with $36 billion in unresolved abnormal balances for
           proprietary accounts used by DFAS Indianapolis as part of the compilation of the Army General Fund financial
           statements. The FY 2008 trial balance data for the Army General Fund included an additional $261.3 billion in
           abnormal balances in 53 budgetary general ledger accounts that were not used in compiling the Army General
           Fund financial statements. DFAS Indianapolis considers this budgetary data so unreliable that the trial balance for
           budgetary accounts must be constructed from other budgetary reports.

           In response to DoD Office of the Inspector General Report No. D-2004-118, “Army General Fund Controls Over
           Abnormal Balance for Field Accounting Services,” September 28, 2004, DFAS Indianapolis stated that the Defense
           Departmental Reporting System-Budgetary Module (Budgetary Module) would significantly reduce abnormal
           balances in accounting records. However, the implementation of the Budgetary Module has been delayed until FY
           2009. The DoD Financial Management Regulation has not been revised to require the disclosure of unresolved
           abnormal balances for all financial statement lines affected in the notes to the financial statements. Although the
           Army reported abnormal balances as an area of concern in its FY 2006 Annual Statement of Assurance, it did not
           disclose abnormal balances in the financial statement footnotes. Abnormal balances not only distort the Army
           General Fund financial statements, but also indicate internal control and operational deficiencies and may conceal
           instances of fraud.

           Reconciliation of Net Cost of Operations to Budget. The Statement of Federal Financial Accounting
           Standards No. 7, “Accounting for Revenue and Other Financing Sources,” requires a reconciliation of proprietary
           and budgetary information to assist users in understanding the relationship of the data. During FY 2007,
           OMB rescinded the requirement to report this reconciliation as a Statement of Financing and now requires the
           disclosure of the information as a note to the financial statements. The Army General Fund is unable to represent
           the relationship between budgetary obligations incurred and its Statement of Net Costs without preparing $1.2
           billion in unsupported adjustments to the general ledger accounts to force costs to match obligation information.

Material Weakness Identified During FY 2008. As a result of our financial-related work during FY 2008, we
identified a significant deficiency that is material.

           Contingency Payment Audit Trails. During FY 2007, we reported inadequate controls over out-of-
           country payments as a significant deficiency. The Army identified contingency audit trails as a material weakness
           in the FY 2008 Army Statement of Assurance Over Internal Controls, acknowledging that the maintenance of
           substantiating documents by certifying and entitlement activities creates significant challenges in tracing audit
           trails for support of financial statements. DoD Office of the Inspector General Report No. D-2008-098, “Internal
           Controls Over Payments Made in Iraq, Kuwait, and Egypt,” May 22, 2008, determined that the Army made $1.4
           billion in commercial payments that lacked the minimum supporting documentation and information for a valid
           payment. (Minimum support would include documents such as certified vouchers, proper receiving reports, and



Attachment


General Fund
Principal Financial Statements, Notes and Supplementary Information   92
         invoices.) In addition, we estimated that $6.3 billion of commercial payments contained the minimum supporting
         documentation but did not comply with other statutory and regulatory requirements. Payments that are not
         properly supported do not provide the necessary assurance that funds were used as intended.

Other Significant Deficiencies. During prior years, as part of our financial-related audits, we noted a deficiency
related to contingent legal liabilities.

         Legal Representation Process. The Army legal representation process did not provide meaningful assessments
         of potential liabilities and was not linked to the Army process for reporting and disclosing contingent legal
         liabilities on the financial statements. The legal representation letter from the Army Office of General Counsel
         and its attached management schedule did not corroborate either the $540 million reported on the Balance Sheet
         as part of Non-Federal Other Liabilities or the $571.5 million disclosed as contingent legal liabilities on Note 16
         in the FY 2008 Army General Fund Financial Statements.

These financial management deficiencies may cause inaccurate management information. As a result,Army management
decisions based in whole or in part on this information may be adversely affected. Financial information reported by DoD
may also contain misstatements resulting from these deficiencies.

Compliance with Laws and Regulations

Management is responsible for compliance with existing laws and regulations related to financial reporting. We limited
our work to determine compliance with selected provisions of the applicable laws and regulations because management
acknowledged instances of noncompliance, and previously reported instances of noncompliance continue to exist.
Therefore, we did not determine whether the Army was in compliance with selected provisions of all applicable laws
and regulations related to financial reporting. Our objective was not to, and we do not, express an opinion on overall
compliance with applicable laws and regulations.

Federal Financial Management Improvement Act of 1996. The Federal Financial Management Improvement
Act of 1996 requires the Army to establish and maintain financial management systems that comply substantially with
Federal financial management systems requirements, applicable Federal accounting standards, and the U.S. Government
Standard General Ledger at the transaction level. For FY 2008, the Army did not fully comply with the Federal Financial
Management Improvement Act of 1996. The Army acknowledged that many of its critical financial management and




                                                                                                                               Fiscal Year 2008 United States Army Annual Financial Statement
feeder systems did not substantially comply with Federal financial management systems requirements, Federal accounting
standards, and the U.S. Government Standard General Ledger at the transaction level as of September 30, 2008.

Government Performance and Results Act. Congress enacted the Government Performance and Results Act of
1993 (GPRA) to establish strategic planning and performance measurement in the Federal Government. Strategic plans,
annual performance plans, and annual program performance reports comprise the main elements of GPRA. Although
the Army has established a strategic plan as a blueprint for achieving auditable financial statements, it is not supported
by evidence of actions taken, completed, or needed to meet the milestones. Further, there are no uniform methods or
procedures to report percent-completion and start/finish dates of tasks, and not all system implementation dates were
aligned with milestones in the plan. Additionally, the Army did not comply with GPRA because it did not have cost
accounting systems in place to collect, process, and report operating costs. This resulted in the Army General Fund
Statement of Net Cost being unable to provide cost-of-operations data that were consistent with the GPRA goals and
measures.




                                                                                                                Attachment



                                                         93
Antideficiency Act. Section 1341, title 31, United States Code (31 U.S.C. 1341) limits the Army and its agents
to making or authorizing only expenditures or obligations that do not exceed the available appropriations or funds.
Additionally, the Army or its agents may not contract or obligate for the payment of money before an appropriation is made
available for that contract or obligation unless otherwise authorized by law. According to 31 U.S.C. 1351, if an officer or
employee of an executive agency violates the Antideficiency Act, the head of the agency must report immediately to the
President and Congress all relevant facts and a statement of actions taken. During FY 2008, the Army reported nine cases
of violation of the Antideficiency Act. Therefore, the Army did not comply with 31 U.S.C. 1341.

Audit Disclosures

The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us on March 17, 2008, that
the Army financial management and feeder systems cannot provide adequate evidence supporting various material amounts
on the financial statements, and previously identified material weaknesses continue to exist. Therefore, we did not perform
detailed testing related to previously identified material weaknesses. In addition, we did not perform audit work related to
the following selected provisions of laws and regulations: Federal Credit Reform Act of 1990; Pay and Allowance System
for Civilian Employees; Prompt Payment Act; Provisions Governing Claims of the United States Government (including
provisions of the Debt Collection Improvement Act of 1996).

This report does not include recommendations to correct the material internal control weaknesses and instances of
noncompliance with laws and regulations because previous audit reports contained recommendations for corrective actions
or because audit projects currently in progress will include appropriate recommendations.




Attachment


General Fund
Principal Financial Statements, Notes and Supplementary Information   94
     Limitations
     Limitations of the Financial Statements
     The financial statements have been prepared to report
     the financial position and results of operations for the
     entity, pursuant to the requirements of Title 31, United
     States Code, section 3515(b).

     While the statements have been prepared from the
     books and records of the entity, in accordance with
     the formats prescribed by the Office of Management
     and Budget, the statements are in addition to the
     financial reports used to monitor and control budgetary
     resources which are prepared from the same books and
     records.

     The statements should be read with the realization
     that they are for a component of the United States
     Government, a sovereign entity.




                                                                Fiscal Year 2008 United States Army Annual Financial Statement




95
 Department of Defense - Army Working Capital Fund

 CONSOLIDATED BALANCE SHEET
 As of September 30, 2008 and 2007 (Amounts in thousands)                          2008 Consolidated   2007 Consolidated
 ASSETS (Note 2)
 Intragovernmental:
       Fund Balance with Treasury (Note 3)                                         $       2,571,441   $       2,279,084
       Accounts Receivable (Note 5)                                                          297,458             325,168
       Other Assets (Note 6)                                                                   1,879               3,002
       Total Intragovernmental Assets                                              $       2,870,778   $       2,607,254


 Accounts Receivable, Net (Note 5)                                                 $          16,972   $          16,466
 Inventory and Related Property, Net (Note 9)                                             20,279,681          19,728,687
 General Property, Plant and Equipment, Net (Note 10)                                      1,097,692             996,885
 Other Assets (Note 6)                                                                       559,932             367,391
 TOTAL ASSETS                                                                      $      24,825,055   $      23,716,683


 LIABILITIES (Note 11)
 Intragovernmental:
       Accounts Payable (Note 12)                                                  $          85,510   $          96,452
       Other Liabilities (Note 15 & 16)                                                       60,493              55,229
       Total Intragovernmental Liabilities                                         $         146,003   $         151,681


 Accounts Payable (Note 12)                                                        $         946,005   $       1,023,839
 Military Retirement and Other Federal Employment Benefits (Note 17)                         254,518             243,112
 Other Liabilities (Note 15 and Note 16)                                                     382,465             404,317
 TOTAL LIABILITIES                                                                 $       1,728,991   $       1,822,949


 NET POSITION
 Unexpended Appropriations - Other Funds                                           $         719,900   $              0
 Cumulative Results of Operations - Other Funds                                           22,376,164          21,893,734
 TOTAL NET POSITION                                                                $      23,096,064   $      21,893,734


 TOTAL LIABILITIES AND NET POSITION                                                $      24,825,055   $      23,716,683


 The accompanying notes are an integral part of these financial statements.




Army Working Capital Fund
Principal Financial Statements, Notes and Supplementary Information           96
Department of Defense - Army Working Capital Fund

CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2008 and 2007 (Amounts in thousands)                         2008 Consolidated            2007 Consolidated
Program Costs
Gross Costs                                                                  $              19,466,040    $              16,159,985
(Less: Earned Revenue)                                                                     (20,370,296)                 (18,682,923)
Net Program Costs                                                            $                (904,256)   $              (2,522,938)
Net Cost of Operations                                                       $                (904,256)   $              (2,522,938)


The accompanying notes are an integral part of these financial statements.




                                                                                                                                       Fiscal Year 2008 United States Army Annual Financial Statement




                                                                    97
 Department of Defense - Army Working Capital Fund

 CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                                        2008 Earmarked       2008 All Other         2008              2008
 As of September 30, 2008 and 2007 (Amounts in thousands)                    Funds              Funds           Eliminations       Consolidated

 CUMULATIVE RESULTS OF OPERATIONS
 Beginning Balances                                                    $             0   $       21,893,734     $          0   $      21,893,734
 Beginning balances, as adjusted                                       $             0   $       21,893,734     $          0   $      21,893,734
 Budgetary Financing Sources:
       Appropriations used                                                           0              604,496                0             604,496
       Transfers-in/out without reimbursement                                        0           (1,450,000)               0          (1,450,000)
 Other Financing Sources:
       Transfers-in/out without reimbursement (+/-)                                  0             (272,573)               0            (272,573)
       Imputed financing from costs absorbed by others                               0              155,381                0             155,381
       Other (+/-)                                                                   0              540,870                0             540,870
 Total Financing Sources                                               $             0   $         (421,826)    $          0   $        (421,826)
 Net Cost of Operations (+/-)                                                        0             (904,256)               0            (904,256)
 Net Change                                                            $             0   $          482,430     $          0   $         482,430
 Cumulative Results of Operations                                      $             0   $       22,376,164     $          0   $      22,376,164


 UNEXPENDED APPROPRIATIONS
 Budgetary Financing Sources:
       Appropriations received                                         $             0   $        1,375,471     $          0   $       1,375,471
       Other adjustments (rescissions, etc)                                          0               (51,075)              0             (51,075)
       Appropriations used                                                           0             (604,496)               0            (604,496)
 Total Budgetary Financing Sources                                     $             0   $          719,900     $          0   $         719,900
 Unexpended Appropriations                                                           0              719,900                0             719,900
 Net Position                                                          $             0   $       23,096,064     $          0   $      23,096,064


 The accompanying notes are an integral part of these financial statements.




Army Working Capital Fund
Principal Financial Statements, Notes and Supplementary Information           98
Department of Defense - Army Working Capital Fund

CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                                     2007 Earmarked       2007 All Other           2007              2007
As of September 30, 2008 and 2007 (Amounts in thousands)                  Funds              Funds             Eliminations       Consolidated

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                   $            0   $       19,316,705       $          0   $      19,316,705
Beginning balances, as adjusted                                      $            0   $       19,316,705       $          0   $      19,316,705
Budgetary Financing Sources:
     Appropriations used                                                          0              627,790                  0             627,790
     Transfers-in/out without reimbursement                                       0             (145,700)                 0            (145,700)
Other Financing Sources:
     Transfers-in/out without reimbursement (+/-)                                 0             (345,832)                 0            (345,832)
     Imputed financing from costs absorbed by others                              0              163,133                  0             163,133
     Other (+/-)                                                                  0             (245,301)                 0            (245,300)
Total Financing Sources                                              $            0   $            54,090      $          0   $          54,091
Net Cost of Operations (+/-)                                                      0           (2,522,938)                 0          (2,522,938)
Net Change                                                           $            0   $        2,577,028       $          0   $       2,577,029
Cumulative Results of Operations                                     $            0   $       21,893,733       $          0   $      21,893,734


UNEXPENDED APPROPRIATIONS
Budgetary Financing Sources:
     Appropriations received                                         $            0   $          627,854       $          0   $         627,854
     Other adjustments (rescissions, etc)                                         0                   (64)                0                 (64)
     Appropriations used                                                          0             (627,790)                 0            (627,790)
Total Budgetary Financing Sources                                    $            0   $                    0   $          0   $                  0
Unexpended Appropriations                                                         0                        0              0                      0
Net Position                                                         $            0   $       21,893,733       $          0   $      21,893,734


The accompanying notes are an integral part of these financial statements.




                                                                                                                                                     Fiscal Year 2008 United States Army Annual Financial Statement




                                                                    99
 Department of Defense - Army Working Capital Fund
 COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                                       Budgetary Financing Accounts            Non-Budgetary Financing Accounts
 As of September 30, 2008 and 2007 (Amounts in thousands)             2008 Combined       2007 Combined        2008 Combined         2007 Combined
 BUDGETARY RESOURCES
 Unobligated balance, brought forward, October 1       $                      2,516,314 $      1,791,465 $                     0 $                   0
 Recoveries of prior year unpaid obligations                                    800,094        1,130,769                       0                     0
 Budget authority
      Appropriation                                                        1,375,471             627,854                       0                     0
      Contract authority                                                  12,348,540          10,715,333                       0                     0
      Spending authority from offsetting collections
          Earned
            Collected                                                     16,375,333          15,227,289                       0                     0
            Change in receivables from Federal sources                         8,923             103,333                       0                     0
          Change in unfilled customer orders
            Advance received                                                   (22,477)           29,395                       0                     0
            Without advance from Federal sources                              390,797          1,336,140                       0                     0
      Subtotal                                         $                  30,476,587 $        28,039,344 $                     0 $                   0
 Nonexpenditure transfers, net, anticipated and actual                     (1,450,000)          (145,700)                      0                     0
 Permanently not available                                               (10,164,456)        (11,534,744)                      0                     0
 Total Budgetary Resources                             $                  22,178,539 $        19,281,134 $                     0 $                   0

 Status of Budgetary Resources:
 Obligations incurred:
       Reimbursable                                                $      18,818,961 $        16,764,820 $                     0 $                   0
       Subtotal                                                    $      18,818,961 $        16,764,820 $                     0 $                   0
 Unobligated balance:
       Apportioned                                                         3,359,578           2,516,314                       0                     0
       Subtotal                                                    $       3,359,578 $         2,516,314 $                     0 $                   0
 Total status of budgetary resources                               $      22,178,539 $        19,281,134 $                     0 $                   0
 Change in Obligated Balance:
 Obligated balance, net
       Unpaid obligations, brought forward, October 1              $      10,854,914 $         9,555,896 $                     0 $                   0
       Less: Uncollected customer payments
       from Federal sources, brought forward, October 1                    (5,537,453)         (4,097,980)                     0                     0
      Total unpaid obligated balance                               $        5,317,461 $         5,457,916 $                    0 $                   0
 Obligations incurred, net (+/-)                                   $      18,818,961 $        16,764,820 $                     0 $                   0
 Less: Gross outlays                                                     (15,934,896)        (14,335,033)                      0                     0
 Less: Recoveries of prior year unpaid obligations, actual         $         (800,094) $       (1,130,769) $                   0 $                   0
 Change in uncollected customer
 payments from Federal sources (+/-)                                          (399,720)       (1,439,473)                      0                     0
 Obligated balance, net, end of period
      Unpaid obligations                                                  12,938,885          10,854,914                       0                     0
      Less: Uncollected customer payments (+/-)                           (5,937,173)         (5,537,453)                      0                     0
      from Federal sources (-)
 Total, unpaid obligated balance, net, end of period               $          7,001,712 $      5,317,461 $                     0 $                   0
 Net Outlays
 Net Outlays:
 Gross outlays                                                     $      15,934,896 $        14,335,033 $                     0 $                   0
 Less: Offsetting collections                                            (16,352,856)        (15,256,685)                      0                     0
 Net Outlays                                                       $        (417,960) $         (921,652) $                    0 $                   0

 The accompanying notes are an integral part of these financial statements.




Army Working Capital Fund
Principal Financial Statements, Notes and Supplementary Information             100
Note 1.       Significant Accounting Policies

1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the Army Working
Capital Fund (AWCF), as required by the Chief Financial Officers Act of 1990, expanded by the Government Management
Reform Act of 1994, and other appropriate legislation. The financial statements have been prepared from the books and
records of the AWCF in accordance with the Department of Defense (DoD) Financial Management Regulation (FMR), the
Office of Management and Budget (OMB) Circular A-136, Financial Reporting Requirements, and to the extent possible,
generally accepted accounting principles (GAAP). The accompanying financial statements account for all resources for
which the AWCF is responsible unless otherwise noted.

The AWCF is unable to fully implement all elements of GAAP and OMB Circular A-136 due to limitations of its financial
and nonfinancial management processes and systems that feed into the financial statements. The AWCF derives its
reported values and information for major asset and liability categories largely from nonfinancial feeder systems, such as
inventory and logistics systems. These systems were designed to support reporting requirements focusing on maintaining
accountability over assets and reporting the status of federal appropriations rather than preparing financial statements
in accordance with GAAP. The AWCF continues to implement processes and system improvements addressing these
limitations.

The AWCF currently has nine auditor identified financial statement material weaknesses: (1) Financial Management
Systems; (2) Inventory; (3) General Property, Plant, and Equipment; (4) Accounts Payable; (5) Statement of Net Cost;
(6) Intragovernmental Eliminations; (7) Other Accounting Entries; (8) Reconciliation of Net Cost of Operations to Budget;
and (9) Abnormal Account Balances.


1.B. Mission of the Reporting Entity
The AWCF is part of the DefenseWorking Capital Fund, and is divided into two separate business areas: Supply
Management and Industrial Operations. These business areas ensure delivery of critical items, such as petroleum products,
repair parts, consumable supplies, depot maintenance services, munitions, and weapons to support the deployment and
projection of lethal force as and when required by the nation.




                                                                                                                                 Fiscal Year 2008 United States Army Annual Financial Statement
1.C. Appropriations and Funds
Working capital funds (revolving funds) receive funding to establish an initial corpus through an appropriation or a transfer
of resources from existing appropriations or funds. The corpus finances operations and transactions that flow through the
fund. Financial resources to replenish the corpus, and to permit continuing operations, are generated by the acceptance
of customer orders and additional appropriations. The AWCF operates with financial principles that provide improved
cost visibility and accountability to enhance business management and improve the decision-making process. The activities
provide goods and services on a reimbursable basis. Receipts derived from operations generally are available in their
entirety for use without further congressional action. At various times, Congress provides additional appropriations to
supplement the WCF as an infusion of cash when revenues are inadequate to cover costs within the corpus.


1.D. Basis of Accounting
The AWCF generally records transactions on an accrual accounting basis as is required by GAAP. For FY 2008,AWCF
financial management systems are unable to meet all of the requirements for full accrual accounting. Many AWCF financial
and nonfinancial feeder systems and processes were designed and implemented prior to the issuance of GAAP for federal
agencies and, therefore, were not designed to collect and record financial information on the full accrual accounting basis as
required by GAAP.




                                                         101
The DoD has undertaken efforts to determine the actions required to bring all of its financial and nonfinancial feeder
systems and processes into compliance with GAAP. One such action is the current revision of its accounting systems to
record transactions based on the U.S. Standard General Ledger (USSGL). At this time, not all AWCF accounting systems
are USSGL compliant. However, the Army has implemented the Logistics Modernization Program (LMP) at Tobyhanna
Army Depot, Communications Electronics Life Cycle Management Center Command, and other Army Materiel Command
activities. The LMP is substantially compliant with the Federal Financial Management Integrity Act (FFMIA) as determined
by the Army Audit Agency (AAA). Until LMP is fully implemented and all of the processes are updated to collect and
report financial information as required by GAAP, some of the AWCF financial data will be derived from budgetary
(obligations, disbursements and collections) transactions from nonfinancial feeder systems, and accruals made of major
items such as payroll expenses and accounts payable.


1.E.     Revenues and Other Financing Sources
The AWCF Industrial Operations activities recognize revenue according to the percentage-of-completion method. Supply
Management activities recognize revenue when an inventory item is sold. Prices set for products and services offered
through the AWCF are intended to recover the full costs (cost plus administrative fees) incurred by these activities.
Unearned revenue is recorded as deferred revenue until earned.


1.F.     Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred.
However, because AWCF financial and nonfinancial feeder systems were not designed to collect and record financial
information on the full accrual accounting basis, accruals are made for major items such as payroll expenses, accounts
payable and unbilled revenue.


1.G. Accounting for Intragovernmental Activities
Preparation of reliable financial statements requires the elimination of transactions occurring among entities within DoD
or between two or more federal agencies. However, the AWCF cannot accurately eliminate intragovernmental transactions
by customer because the AWCF systems do not track at the transaction level. Generally, seller entities within the DoD
provide summary seller-side balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal
DoD accounting offices. In most cases, where the amounts do not match, buyer-side records are adjusted to agree with
DoD seller-side balances. The volume of intragovernmental transactions is so large that after-the-fact reconciliations cannot
be accomplished effectively with existing or foreseeable resources. The DoD is developing long-term system improvements
that will ensure intragovernmental information is accurate and will include sufficient edits and controls to eliminate the
need for after-the-fact reconciliations.

The U.S.Treasury Financial Management Service (FMS) is responsible for eliminating transactions between the DoD and
other federal agencies. The U.S.Treasury Financial Manual, Part 2 – chapter 4700, “Agency Reporting Requirements for
the Financial Report of the United States Government” and the U.S.Treasury’s “Federal IntragovernmentalTransactions
Accounting Policy Guide,” provide guidance for reporting and reconciling intragovernmental balances. While the AWCF
is unable to fully reconcile intragovernmental transactions with all federal partners, the AWCF is able to reconcile balances
pertaining to Federal Employees’ Compensation Act transactions with the Department of Labor (DOL) and benefit
program transactions with the Office of Personnel Management (OPM).

The DoD proportionate share of public debt and related expenses of the Federal Government is not included. Debt issued
by the Federal Government and the related costs are not apportioned to Federal agencies. The DoD financial statements,
therefore, do not report any portion of the public debt or interest, nor do the financial statements report the source of
public financing whether from issuance of debt or tax revenues.




Army Working Capital Fund
Principal Financial Statements, Notes and Supplementary Information   102
Financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing ultimately
may have been obtained through the issuance of public debt, interest costs have not been capitalized since the U.S.Treasury
does not allocate such interest costs to the benefiting agencies.


1.H. Transactions with Foreign Governments and International Organizations
Each year, the AWCF sells defense items and services to foreign governments and international organizations under the
provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, DoD has the authority to sell
defense articles and services to foreign countries and international organizations generally at no profit or loss to the U.S.
government. Payments in U.S. dollars are required in advance and are booked as liabilities until such time as the goods are
delivered.


1.I.      Funds with the U.S. Treasury
The U.S.Treasury maintains AWCF monetary financial resources. The DFAS, Military Services, U.S.Army Corps of
Engineers (USACE) disbursing stations, as well as the Department of State financial service centers process the majority
of cash collections, disbursements, and adjustments for the AWCF. Each disbursing station prepares monthly reports that
provide information to the U.S.Treasury on check issues, electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S.Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S.Treasury then records this information to the applicable
Fund Balance withTreasury (FBWT) account maintained in the U.S.Treasury’s system. Differences between the AWCF
and the U.S.Treasury’s records sometime result and are subsequently reconciled.


1.J.     Foreign Currency
Not applicable.


1.K. Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes three categories: accounts receivable, claims, and refunds
from other federal agencies and the public. Federal accounts receivable arise generally from the provision of goods
and services to other federal agencies and, with the exception of occasional billing disputes, are considered to be fully
collectible. Receivables from the public generally arise from the provision of goods and services to state, local, and foreign




                                                                                                                                 Fiscal Year 2008 United States Army Annual Financial Statement
governments. Refunds receivable are overpayments by the Federal Government in the process of being collected.

An allowance for estimated uncollectibles is established for reporting purposes based on past experience in the collection
of accounts receivable and analysis of outstanding balances by fund type. The AWCF bases the estimate of uncollectible
accounts receivable from the public on a percentage of aged receivables by category. The allowance is calculated by using
50 percent of aged receivables in the 180-day to 2-year category and 100 percent of aged receivables in the greater than
2-year category. This excludes foreign debt and debt as reported in the Defense Debt Management System. The allowance
is updated annually based on the aged accounts receivable at the end of the 2nd Quarter. The DoD does not recognize
an allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal agencies are
resolved between the agencies in accordance with dispute resolution procedures in the Intragovernmental Business Rules
published in the Treasury Financial Manual.


1.L.     Direct Loans and Loan Guarantees
Not applicable.




                                                         103
1.M. Inventories and Related Property
The AWCF values approximately 17 percent of resale inventory using the moving average cost method. The AWCF reports
the remaining 83 percent of resale inventories at an approximation of historical cost using latest acquisition cost adjusted
for holding gains and losses. The latest acquisition cost method is used because legacy inventory systems were designed for
materiel management rather than accounting. Although these systems provide visibility and accountability over inventory
items, they do not maintain historical cost data necessary to comply with SFFAS No. 3, “Accounting for Inventory and
Related Property.” Additionally, these systems cannot produce financial transactions using the USSGL, as required by the
Federal Management Improvement Act of 1996 (P.L. 104-208). By utilizing new systems development processes, the
AWCF is continuing to transition the balance of the inventories to the moving average cost method. However, since the
on-hand balances which were transitioned were not, for the most part, baselined to auditable historical cost, the reported
values remain noncompliant with SFFAS No. 3 and GAAP.

The AWCF manages only military or government-specific materiel under normal conditions. “Materiel” is a unique term
that relates to military force management, and includes all items (such as tanks, self-propelled weapons, aircraft, etc.,
and related spares, repair parts, and support equipment, but excluding real property, installations, and utilities) necessary
to equip, operate, maintain, and support military activities without distinction as to its application for administrative or
combat purposes. Items commonly used in and available from the commercial sector are generally not managed in the
AWCF materiel management activities. Operational cycles are irregular and the military risks associated with stock-out
positions have no commercial parallel. The AWCF holds materiel based on military need and support for contingencies.

There are new DoD accounting and reporting requirements for inventory held in reserve for future sale and for inventory
held for repair. Items in excess of the Approved Acquisition Objective (AAO), plus items suspended from current sale
(such as items suspended due to litigation), should be accounted for as inventory held in reserve for future sale. The AWCF
will begin making the required disclosures for future sale balances in 1st Quarter, FY 2009, in accordance with available
information in the inventory feeder systems. Additionally, new accounting policy now defines inventory held for repair and
future resale as “inventory held for remanufacture.” Inventory held for remanufacture capitalizes repair and rebuild costs,
values unrepaired carcasses at cost, and provides for exchange pricing concepts for customer returns. AWCF is unable
to comply with the accounting requirements for remanufacturing until such time as LMP is fully implemented and all
inventory related tasks in the Army Financial Improvement Plan have been addressed, to include logistics interfaces.

The AWCF accounts for condemned materiel as excess, obsolete, and unserviceable. The net value of this type of
condemned materiel is zero, because the costs of disposal are greater than the potential scrap value.

Inventory available and purchased for resale includes consumable spare and repair parts and repairable items owned and
managed by the AWCF. This inventory is retained to support military or national contingencies. Inventory held for repair is
damaged inventory that requires repair to make suitable for sale. It may be more economical to repair than to procure these
inventory items. The DoD often relies on weapon systems and machinery no longer in production. As a result, the AWCF
supports a process that encourages the repair and rebuilding of certain items. This repair cycle is essential to maintaining
a ready, mobile, and armed military force. Work in process balances include costs related to the production or servicing
of items, including direct material, direct labor, applied overhead and other direct costs. Work in process also includes
the value of finished products or completed services pending the submission of bills to the customer. The work in process
designation may also be used to accumulate the amount paid to a contractor under cost reimbursable contracts, including
amounts withheld from payment to ensure performance, and amounts paid to other government plants for accrued costs of
end items of materiel ordered but not delivered. Work in process includes munitions in production and depot maintenance
work with its associated labor, applied overhead, and supplies used in the delivery of maintenance services.




Army Working Capital Fund
Principal Financial Statements, Notes and Supplementary Information   104
1.N. Investments in U.S. Treasury Securities
Not applicable.


1.O. General Property, Plant and Equipment
The AWCF’s General Property, Plant and Equipment (GPP&E) capitalization threshold is $100,000, except for real
property, which is $20,000. The AWCF has not implemented this threshold for real property. The AWCF is currently using
the capitalization threshold of $100,000 for all GPP&E. The Army is executing the Real Property Audit Readiness Plan.
The target completion date for audit readiness, which includes substantiation of real property values, is FY 2009.

The AWCF capitalizes all General PP&E used in the performance of their mission. These capitalized assets are categorized
as General PP&E, whether or not they meet the definition of any other General PP&E categories.

When it is in the best interest of the government, the AWCF provides government property to contractors to complete
contract work. The AWCF either owns or leases such property, or it is purchased directly by the contractor for the
government based on contract terms. When the value of contractor-procured GPP&E exceeds the DoD capitalization
threshold, Federal accounting standards require that it be reported on the AWCF Balance Sheet.

The DoD is developing new policies and a contractor reporting process that will provide appropriate GPP&E information
for future financial statement reporting purposes. Accordingly, the AWCF reports only government property in the
possession of contractors that is maintained in AWCF property systems. The DoD has issued new property accountability
and reporting requirements that require the AWCF to maintain, in their property systems, information on all property
furnished to contractors. This action and other DoD proposed actions are structured to capture and report the information
necessary for compliance with federal accounting standards.


1.P.       Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, the DoD’s policy is to record advances
and prepayments in accordance with GAAP. Payments made in advance of the receipt of goods and services are reported
as an asset on the Balance Sheet. The DoD policy is to expense and/or properly classify assets when the related goods and
services are received. The AWCF has implemented this policy for advances identified in contract feeder systems, but has
not fully implemented the policy for all business events primarily due to system limitations.




                                                                                                                                Fiscal Year 2008 United States Army Annual Financial Statement
1.Q. Leases
Not applicable.


1.R. Other Assets
Other assets includes those assets, such as military and civil service employee pay advances, travel advances, and certain
contract financing payments, that are not reported elsewhere on the AWCF Balance Sheet.

The AWCF conducts business with commercial contractors under two primary types of contracts: fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, the AWCF
may provide financing payments. Contract financing payments are defined in the Federal Acquisition Regulations, Part
32, as authorized disbursements of monies to a contractor prior to acceptance of supplies or services by the Government.
Contract financing payments clauses are incorporated in the contract terms and conditions and may include advance
payments, performance-based payments, commercial advance and interim payments, progress payments based on cost, and
interim payments under certain cost-reimbursement contracts.




                                                         105
Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments,
or progress payments based on a percentage or stage of completion, which the Defense Federal Acquisition Regulation
Supplement (DFARS) authorizes only for construction of real property, shipbuilding, and ship conversion, alteration, or
repair. Progress payments for real property are reported as Construction in Progress in Note 10. It is DoD policy to
record certain contract financing payments as Other Assets.


1.S.      Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12, “Recognition
of Contingent Liabilities Arising from Litigation,” defines a contingency as an existing condition, situation, or set of
circumstances that involves an uncertainty as to possible gain or loss to the AWCF. The uncertainty will be resolved when
one or more future events occur or fail to occur. The AWCF recognizes contingent liabilities when past events or exchange
transactions occur, a future loss is probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to only disclosure when conditions for liability recognition do not exist but there
is at least a reasonable possibility of incurring a loss or additional losses. Loss contingencies include the collectibility of
receivables, pending or threatened litigation, and possible claims and assessments. The AWCF risk of loss and resultant
contingent liabilities arise from pending or threatened litigation or claims and assessments due to events such as aircraft and
vehicle accidents; property or environmental damages; and contract disputes.


1.T.     Accrued Leave
The AWCF reports as liabilities earned civilian annual leave, except sick leave, that has been accrued and not used as of the
Balance Sheet date. Sick leave is expensed as taken. The liability reported at the end of the accounting period reflects the
current pay rates.


1.U. Net Position
Net position consists of unexpended appropriations and cumulative results of operations. Cumulative results of operations
represent the net difference, since inception of an activity, between expenses and losses and financing sources (including
appropriations, revenue, and gains). Beginning with FY 1998, the cumulative results also include donations and transfers
in and out of assets without reimbursement. Unexpended appropriations represent the amounts of authority that are
unobligated and have not been rescinded or withdrawn.


1.V.     Treaties for Use of Foreign Bases
Not applicable.


1.W. Comparative Data
The AWCF financial statements and notes are presented on a comparative basis.


1.X.      Unexpended Obligations
The AWCF obligates funds to provide goods and services for outstanding orders not yet delivered. Unless title has passed,
the financial statements do not reflect a liability for payment for goods and services not yet delivered. Unexpended
obligations include both obligations for which goods and services have been delivered and a liability recognized and
obligations for which no delivery has occurred and no liability recognized. The balance of unexpended obligations appears
immediately before net outlays in the Statement of Budgetary Resources and is referred to as “Total, unpaid obligated
balances, net, end of period.”




Army Working Capital Fund
Principal Financial Statements, Notes and Supplementary Information   106
1.Y.      Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at
the transaction level to a specific obligation, payable, or receivable in the activity field records as opposed to those reported
by the U.S.Treasury. These amounts should agree with the undistributed amounts reported on the monthly accounting
reports. In-transit payments are those payments that have been made, but have not been recorded in the fund holder’s
accounting records. These payments are applied to the entities’ outstanding accounts payable balance. In-transit collections
are those collections from other agencies or entities that have not been recorded in the accounting records. These
collections are also applied to the entities’ accounts receivable balance.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal
categories based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable. The
AWCF does not follow this procedure for collections since all AWCF undistributed collections are derived from interfund
transactions which processes automatic collections from federal sources only. Undistributed disbursements are allocated
between federal and nonfederal based on disbursement history accumulated fiscal year to date. The AWCF records
unsupported undistributed disbursements in accounts payable and unsupported undistributed collections in other liabilities.


1.Z.     Significant Events
In the FY 2008 Bridge Supplemental, the AWCF received $719.9 million in appropriated funds for war reserves and
spares augmentation. These funds were appropriated with a three year designation, which differs from the normal no-year
designation of funds for a revolving fund. These funds are available for obligation from FY 2008 to FY 2010.


Note 2.        Nonentity Assets

 As of September 30                                                             2008                           2007
 (Amounts in thousands)

 1. Intragovernmental Assets
   A. Fund Balance with Treasury                                      $                         0    $                         0
   B. Accounts Receivable                                                                       0                              0
   C. Total Intragovernmental Assets                                  $                         0    $                         0
 2. Nonfederal Assets




                                                                                                                                    Fiscal Year 2008 United States Army Annual Financial Statement
   A. Cash and Other Monetary Assets                                  $                         0    $                         0
   B. Accounts Receivable                                                                       0                              0
   C. Other Assets                                                                              0                              0
   D. Total Nonfederal Assets                                         $                         0    $                         0
 3. Total Nonentity Assets                                            $                         0    $                         0
 4. Total Entity Assets                                               $              24,825,055      $              23,716,683
 5. Total Assets                                                      $              24,825,055      $              23,716,683

Nonentity assets are assets for which the reporting entity maintains stewardship accountability and responsibility to report,
but are not available for the reporting entity’s operations.




                                                          107
Note 3.          Fund Balance with Treasury

 As of September 30                                                             2008                          2007
 (Amounts in thousands)

 1. Fund Balances
    A. Appropriated Funds                                               $                719,900 $                           0
    B. Revolving Funds                                                                 1,851,541                     2,279,084
    C. Trust Funds                                                                              0                            0
    D. Special Funds                                                                            0                            0
    E. Other Fund Types                                                                         0                            0
    F. Total Fund Balances                                              $              2,571,441 $                   2,279,084
 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                                        $              2,571,441 $                   2,279,084
    B. Fund Balance per                                                                2,571,441                     2,279,084
 3. Reconciling Amount                                                  $                       0 $                          0


Status of Fund Balance with Treasury
 As of September 30                                                             2008                          2007
 (Amounts in thousands)

 1. Unobligated Balance
    A. Available                                                        $              3,359,578    $                2,516,314
    B. Unavailable                                                                             0                             0
 2. Obligated Balance not yet Disbursed                                             12,938,885                     10,854,914
 3. Nonbudgetary FBWT                                                                          0                             0
 4. Non-FBWT Budgetary Accounts                                                    (13,727,022)                  (11,092,144)
 5. Total                                                               $              2,571,441    $                2,279,084

The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support the FBWT.

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to cover
outstanding obligations. Unobligated Balance is classified as available or unavailable and is associated with contract authority
and customer orders. There are no restrictions on the Unobligated Balance.

Obligated Balance not yet disbursed represents funds that have been obligated for goods that have not been received,
services that have not been performed, and goods and services that have been delivered/received but not yet paid.

Nonbudgetary FBWT includes entity and nonentity FBWT accounts which represent adjustments that do not have
budgetary authority, such as unavailable receipt accounts or clearing accounts.

Non-FBWT Budgetary Accounts represent adjustments to budgetary accounts that do not affect FBWT. For the AWCF,
this consists of unfilled orders, reimbursements earned and contract authority.


Note 4.          Investments and Related Interest
Not applicable.



Army Working Capital Fund
Principal Financial Statements, Notes and Supplementary Information   108
Note 5.        Accounts Receivable

                                                                               2008                                  2007
                                                                             Allowance
 As of September 30                                      Gross Amount       For Estimated        Accounts          Accounts
 (Amounts in thousands)                                      Due            Uncollectibles     Receivable, Net   Receivable, Net

 1. Intragovernmental Receivables                    $        297,458                  N/A     $       297,458   $      325,168
 2. Nonfederal Receivables (From the Public)                    21,346 $            (4,374)             16,972            16,466
 3. Total Accounts Receivable                       $         318,804 $             (4,374)    $       314,430   $      341,634


Note 6.        Other Assets

 As of September 30                                                                2008                          2007
 (Amounts in thousands)

 1. Intragovernmental Other Assets
   A. Advances and Prepayments                                          $                     1,879 $                       3,002
   B. Other Assets                                                                                 0                               0
   C. Total Intragovernmental Other Assets                              $                     1,879 $                       3,002
 2. Nonfederal Other Assets
   A. Outstanding Contract Financing Payments                           $                    555,275 $                  367,020
   B. Advances and Prepayments                                                                  719                          368
   C. Other Assets (With the Public)                                                          3,938                                3
   D. Total Nonfederal Other Assets                                     $                    559,932 $                  367,391
 3. Total Other Assets                                                  $                    561,811 $                  370,393

Other Assets (With the Public) consists of travel advances and prepaid expenses.

Contract terms and conditions for certain types of contract financing payments convey certain rights to AWCF that protect
the contract work from state or local taxation, liens or attachment by the contractor’s creditors, transfer of property, or
disposition in bankruptcy. However, these rights should not be misconstrued to mean that ownership of the contractor’s




                                                                                                                                       Fiscal Year 2008 United States Army Annual Financial Statement
work has transferred to the Government. The Government does not have the right to take the work, except as provided in
contract clauses related to termination or acceptance, and the AWCF is not obligated to make payment to the contractor
until delivery and acceptance of a satisfactory product.

The Contract Financing Payment balance of $555.3 million is comprised of $508.1 million in contract financing payments
and an additional $47.2 million in estimated future payments that will be paid to the contractor upon future delivery and
Government acceptance of a satisfactory product. (See additional discussion in Note 15, Other Liabilities).


Note 7.        Cash and Other Monetary Assets
Not applicable.


Note 8.        Direct Loan and Loan Guarantees
Not applicable.




                                                          109
Note 9.          Inventory and Related Property

 As of September 30                                                                             2008                                    2007
 (Amounts in thousands)

 1. Inventory, Net                                                                $                  20,279,681          $                  19,728,687
 2. Operating Materiel & Supplies, Net                                                                             0                                       0
 3. Stockpile Materiel, Net                                                                                        0                                       0
 4. Total                                                                         $                  20,279,681          $                  19,728,687


Inventory, Net
                                                                         2008                                                2007
 As of September 30                          Inventory, Gross         Revaluation                                                              Valuation
 (Amounts in thousands)                           Value               Allowance               Inventory, Net           Inventory, Net           Method

 1. Inventory Categories
    A. Available and Purchased               $   24,260,857 $            (7,796,050)      $     16,464,807 $             15,894,145            LAC, MAC
       for Resale
    B. Held for Repair                             5,569,787             (2,025,250)              3,544,537                  3,735,314         LAC, MAC

    C. Excess, Obsolete, and
       Unserviceable                                 546,527               (546,527)                           0                        0        NRV

    D. Raw Materiel                                  103,529                          0             103,529                    99,228       MAC, SP, LAC

    E. Work in Process                               166,808                          0             166,808                             0         AC

    F. Total                                 $   30,647,508 $          (10,367,827)       $     20,279,681 $             19,728,687


 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                                     NRV = Net Realizable Value
 SP = Standard Price                                                                                               O = Other
 AC = Actual Cost                                                                                                  MAC = Moving Average Cost


Restrictions of Inventory Use, Sale, or Disposition:

There are restrictions on the use, sale, and disposition of inventory classified as war reserve materiel of $1.8 billion which
includes petroleum products, subsistence items, spare parts, and medical materiel.

Other Information:

The categories listed below comprise Inventory, Net. The AWCF assigns Inventory items to a category based upon the
type and condition of the asset. Inventory Available and Purchased for Resale includes spare and repair parts, clothing
and textiles, and petroleum products. Inventory Held for Repair consists of damaged materiel held as inventory that is
more economical to repair than to dispose. Excess, Obsolete, and Unserviceable Inventory consists of scrap materiel or
items that cannot be economically repaired and are awaiting disposal. Raw Materiels consists of items consumed in the
production of goods for sale or in the provision of services for a fee.

Work in process includes costs related to the production or servicing of items, including direct material, direct labor,
applied overhead and other direct costs. Work in process also includes the value of finished products or completed services
pending the submission of bills to the customer. The work in process designation may also be used to accumulate the
amount paid to a contractor under cost reimbursable contracts, including amounts withheld from payment to ensure


Army Working Capital Fund
Principal Financial Statements, Notes and Supplementary Information         110
performance, and amounts paid to other government plants for accrued costs of end items of materiel ordered but not
delivered. Work in process includes munitions in production and depot maintenance work with its associated labor, applied
overhead, and supplies used in the delivery of maintenance services.


Operating Materiels and Supplies, Net
Not applicable.


Stockpile Materiel, Net
Not applicable.


Note 10. General PP&E, Net

                                                                            2008                                                 2007

 As of September 30                  Depreciation/                                      (Accumulated
                                     Amortization      Service        Acquisition       Depreciation/                        Prior FY Net
 (Amounts in thousands)                Method           Life            Value           Amortization)       Net Book Value   Book Value

 1. Major Asset Classes
     A. Land                             N/A            N/A       $                 0              N/A      $            0   $          0
     B. Buildings, Structures, and
        Facilities                        S/L         20 Or 40          1,894,335       $   (1,472,075)           422,260        438,707
     C. Leasehold Improvements            S/L        lease term            96,629              (84,084)            12,545         15,000
     D. Software                          S/L        2-5 Or 10            585,063            (290,881)            294,182        216,686
     E. General Equipment                 S/L          5 or 10          1,570,476           (1,249,718)           320,758        282,807
     F. Military Equipment                S/L         Various                       0                   0                0              0
     G. Assets Under Capital Lease        S/L        lease term                     0                   0                0              0
     H. Construction-in-Progress         N/A            N/A                47,947                  N/A             47,947         43,685
     I. Other                                                                       0                   0                0              0
     J. Total General PP&E                                        $     4,194,450       $   (3,096,758)     $   1,097,692    $   996,885




                                                                                                                                            Fiscal Year 2008 United States Army Annual Financial Statement
 Note 15 for additional information on Capital Leases
 1


 Legend for Valuation Methods:
 S/L = Straight Line                 N/A = Not Applicable



Assets Under Capital Lease
Not applicable.




                                                            111
Note 11. Liabilities Not Covered by Budgetary Resources

 As of September 30                                                                                          2008                   2007
 (Amounts in thousands)

 1. Intragovernmental Liabilities
    A. Accounts Payable                                                                             $                       0   $            0
    B. Debt                                                                                                                 0                0
    C. Other                                                                                                    47,102                  45,410
    D. Total Intragovernmental Liabilities                                                          $           47,102          $       45,410
 2. Nonfederal Liabilities
    A. Accounts Payable                                                                             $                       0   $            0
    B. Military Retirement and Other Federal Employment Benefits                                               254,518                243,112
    C. Environmental Liabilities                                                                                            0                0
    D. Other Liabilities                                                                                                    0                0
    E. Total Nonfederal Liabilities                                                                 $          254,518          $     243,112
 3. Total Liabilities Not Covered by Budgetary Resources                                            $          301,620          $     288,522
 4. Total Liabilities Covered by Budgetary Resources                                                          1,427,371              1,534,427
 5. Total Liabilities                                                                               $         1,728,991         $    1,822,949

Liabilities not Covered by Budgetary Resources are liabilities for which congressional action is needed before budgetary
resources can be provided.

Intragovernmental Other Liabilities represents future funded Federal Employees Compensation Act (FECA) liabilities billed
to AWCF by the Department of Labor (DOL) for payments made by DOL to Army’s beneficiaries. The current portion of
this bill, $20.9 million, is due in FY 2009 and the remainder is due in the following fiscal years.

Military Retirement and Other Federal Employment benefits not covered by budgetary resources are comprised of various
FECA actuarial liabilities not due and payable during the current fiscal year. Refer to Note 17, Military Retirement and
Other Federal Employment Benefits, for additional details and disclosures.


Note 12. Accounts Payable

                                                                                          2008                                       2007
 As of September 30                                              Accounts         Interest, Penalties, and
 (Amounts in thousands)                                           Payable           Administrative Fees             Total            Total

 1. Intragovernmental Payables                               $          85,510    $                  N/A $             85,510 $        96,452
 2. Nonfederal Payables (to the Public)                                946,005                          0            946,005         1,023,839
 3. Total                                                    $        1,031,515   $                     0 $     1,031,515 $          1,120,291

The AWCF systems do not track intragovernmental transactions by customer at the transaction level. Therefore, internal
DoD buyer-side balances are adjusted to agree with internal seller-side balances for revenue, accounts receivable, and
unearned revenue. Accounts payable were adjusted by reclassifying amounts between federal and nonfederal accounts
payable.

The department recognized accounts payable balances of the Mechanization of Contract Administration Services (MOCAS)
system at gross value without reductions for partial, progress payments, and non-accounts payable records overstating
accounts payable and expenses. The overstated balances for FY 2007 were undeterminable due to system limitations;


Army Working Capital Fund
Principal Financial Statements, Notes and Supplementary Information         112
therefore, no corrections have been made. Balances at FY 2008 are properly reported net of non-accounts payable records,
partial and progress payments of $165.6 million.

Note 13. Debt
Not applicable.


Note 14. Environmental Liabilities and Disposal Liabilities
Not applicable.


Note 15. Other Liabilities

                                                                                       2008                              2007
 As of September 30                                                                   Noncurrent
 (Amounts in thousands)                                       Current Liability        Liability           Total         Total

 1. Intragovernmental
   A. Advances from Others                                    $              0    $                0   $           0 $           0
   B. Deposit Funds and Suspense Account Liabilities                         0                     0               0             0
   C. Disbursing Officer Cash                                                0                     0               0             0
   D. Judgment Fund Liabilities                                              0                     0               0             0
   E. FECA Reimbursement to the Department of Labor                   20,934              26,167            47,101        45,411
   F. Custodial Liabilities                                                  0                     0               0             0
   G. Employer Contribution and Payroll Taxes Payable                 13,392                       0        13,392         9,818
   H. Other Liabilities                                                      0                     0               0             0
   I. Total Intragovernmental Other Liabilities               $       34,326      $       26,167       $    60,493 $      55,229
 2. Nonfederal
   A. Accrued Funded Payroll and Benefits                     $     104,104       $                0   $   104,104 $      80,675
   B. Advances from Others                                          105,491                        0       105,491       103,101




                                                                                                                                     Fiscal Year 2008 United States Army Annual Financial Statement
   C. Deferred Credits                                                       0                     0               0             0
   D. Deposit Funds and Suspense Accounts                           (41,154)                       0       (41,154)         (895)
   E. Temporary Early Retirement Authority                                   0                     0               0             0
   F. Nonenvironmental Disposal Liabilities
      (1) Military Equipment (Nonnuclear)                                    0                     0               0             0
      (2) Excess/Obsolete Structures                                         0                     0               0             0
      (3) Conventional Munitions Disposal                                    0                     0               0             0
   G. Accrued Unfunded Annual Leave                                   96,446                       0        96,446       100,635
   H. Capital Lease Liability                                                0                     0               0             0
   I. Contract Holdbacks                                              48,274                       0        48,274        34,000
   J. Employer Contribution and Payroll Taxes Payable                 22,139                       0        22,139        55,179
   K. Contingent Liabilities                                               25             47,140            47,165        31,622
   L. Other Liabilities                                                      0                     0               0             0
   M. Total Nonfederal Other Liabilities                      $     335,325       $       47,140       $   382,465 $     404,317
 3. Total Other Liabilities                                   $     369,651       $       73,307       $   442,958 $     459,546




                                                      113
Contingent Liabilities includes $47.2 million in estimated future contract financing payments to be paid upon delivery
and Government acceptance of a satisfactory product. In accordance with contract terms, when a specific type of
contract financing payments are made, specific rights to the contractor’s work vests with the Government. This action
protects taxpayer funds in the event of contract nonperformance. These rights should not be misconstrued as the rights of
ownership. The AWCF is under no obligation to pay the contractor for amounts greater than the amounts authorized in
the contract until delivery and Government acceptance. Because it is probable that the contractor will complete its efforts
and deliver a satisfactory product to the AWCF and the amount of potential future payments is estimable, the AWCF has
recognized a contingent liability for estimated future payments, which are conditional pending delivery and Government
acceptance of a satisfactory product.


Note 16. Commitments and Contingencies
The AWCF is a party in various administrative proceedings and legal actions, with claims, including environmental damage
claims, equal opportunity matters, and contractual bid protests. The AWCF has accrued contingent liabilities for legal
actions where the Army’s Office of the General Counsel considers an adverse decision probable and the amount of loss
is measurable. In the event of an adverse judgment against the Government, some of the liabilities may be payable from
the Judgment Fund. The AWCF records Judgment Fund liabilities in Note 12, “Accounts Payable,” and Note 15, “Other
Liabilities.”

Nature of Contingency

The FY 2008 Legal Representation Letter for the ArmyWorking Capital Fund outlines two claims against AWCF totaling
$498.3 million for which the Army Office of General Counsel is unable to express an opinion.

Other Information Pertaining to Commitments

The AWCF does not have open contracts citing canceled appropriations.

Contingencies that are considered both measurable and probable have been recognized as liabilities. Refer to Note 15,
Other Liabilities, for further details.

The AWCF is a party in numerous individual contracts that contain clauses, such as price escalation, award fee payments,
or dispute resolution, that may or may not result in a future outflow of expenditures. Currently,AWCF does not have a
systematic process by which it captures or assesses these potential contingent liabilities; therefore, no associated liabilities
are recognized or disclosed.




Army Working Capital Fund
Principal Financial Statements, Notes and Supplementary Information   114
Note 17. Military Retirement and Other Federal Employment Benefits

                                                                                          2008                                     2007
                                                                              Assumed      (Less: Assets
 As of September 30                                                            Interest     Available to     Unfunded
 (Amounts in thousands)                                     Liabilities       Rate (%)     Pay Benefits)     Liabilities         Liabilities

 1. Pension and Health Actuarial Benefits
   A. Military Retirement Pensions                      $                 0                $           0 $                 0 $                 0
   B. Military Retirement Health Benefits                                 0                            0                   0                   0
   C. Military Medicare-Eligible Retiree Benefits                         0                            0                   0                   0
   D. Total Pension and Health Actuarial Benefits       $                 0                $           0 $                 0 $                 0
 2. Other Actuarial Benefits
   A. FECA                                              $      254,518          4.368      $           0 $     254,518 $           243,112
   B. Voluntary Separation Incentive Programs                             0                            0                   0                   0
   C. DoD Education Benefits Fund                                         0                            0                   0                   0
   D. Total Other Actuarial Benefits                    $      254,518                     $           0 $     254,518 $           243,112
 3. Other Federal Employment Benefits                                     0                            0                   0                   0
 4. Total Military Retirement and Other Federal
    Employment Benefits:                                $      254,518                     $           0 $     254,518 $           243,112


Federal Employees Compensation Act (FECA)

The AWCF actuarial liability for workers’ compensation benefits is developed by the Department of Labor and provided
to AWCF at the end of each fiscal year. The liability includes the estimated liability for death, disability, medical, and
miscellaneous costs for approved compensation cases, plus a component for incurred but not reported claims. The liability
is determined using a method that utilizes historical benefit payment patterns related to a specific incurred period to
predict the ultimate payments. The projected annual benefit payments are discounted to present value using the Office
of Management and Budget’s (OMB’s) economic assumptions for 10-yearTreasury notes and bonds. Cost of living
adjustments (COLAs) and consumer price index medical (CPIM) factors are applied to the calculation of projected future
benefits.




                                                                                                                                                   Fiscal Year 2008 United States Army Annual Financial Statement
The liability for future workers’ compensation (FWC) benefits includes the expected liability for death, disability, medical,
and miscellaneous costs for approved compensation cases, plus a component for incurred but not reported claims. The
liability is determined using a method that utilizes historical benefit payment patterns related to a specific incurred period
to predict the ultimate payments related to that period. Consistent with past practice, these projected annual benefits
payments have been discounted to present value using the OMB’s economic assumptions for 10-year Treasury notes and
bonds. Interest rate assumptions utilized for discounting were as follows:

                     2008
                     4.368% in Year 1

                     4.770% in Year 2

                     And thereafter


To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits, wage
inflation factors (COLAs) and medical inflation factors (CPIMs) were applied to the calculation of projected future benefits.
The actual rates for these factors for the charge back year (CBY) 2008 are used to adjust the methodology’s historical
payments to current year constant dollars.




                                                            115
The compensation COLAs and CPIMs used in the projections for various charge back years (CBY) were as follows:

                       CBY           COLA          CPIM
                       2008          3.03%         4.71% 

                       2009          3.87%         4.01% 

                       2010          2.73%         3.86% 

                       2011          2.20%         3.87% 

                       2012          2.23%         3.93% 

                       2013+         2.30%         3.93% 


The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was based on
four tests: (1) a sensitivity analysis of the model to economic assumptions; (2) a comparison of the percentage change
in the liability amount by agency to the percentage change in the actual incremental payments; (3) a comparison of the
incremental paid loses per case (a measure of case-severity) in CBY 2008 to the average pattern observed during the most
current three charge back years; and (4) a comparison of the estimated liability per case in the 2008 projection to the
average pattern for the projections of the most recent three years.

Other Disclosures

The AWCF actuarial liabilities increased $11.4 million since the previous calculation at the end of FY 2007.

Actuarial liabilities are computed for employee compensation benefits as mandated by the Federal Employment
Compensation Act (FECA). The Office of Personnel Management provides updated Army actuarial liabilities during the 4th
Quarter of each fiscal year. The AWCF computes its portion of the total Army actuarial liability based on the percentage of
AWCF FECA expense to the total Army FECA expense.


Note 18. General Disclosures Related to the Statement of Net Cost

 Intragovernmental Costs and Exchange Revenue
 As of September 30                                                             2008                       2007
 (Amounts in thousands)

 1. Intragovernmental Costs                                                 $          3,787,660   $              3,231,526
 2. Public Costs                                                                   15,678,380                   12,928,459
 3. Total Costs                                                             $      19,466,040      $            16,159,985
 4. Intragovernmental Earned Revenue                                        $     (13,880,795)     $           (12,590,913)
 5. Public Earned Revenue                                                          (6,489,501)                  (6,092,010)
 6. Total Earned Revenue                                                    $     (20,370,296)     $           (18,682,923)
 7. Net Cost of Operations                                                  $          (904,256)   $            (2,522,938)

Intragovernmental costs and revenue are transactions made between two reporting entities within the Federal Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The AWCF systems do not track intragovernmental transactions by customer at the transaction level. Therefore, internal
DoD buyer-side balances are adjusted to agree with internal seller-side balances for revenue. Expenses were adjusted by
reclassifying amounts between federal and nonfederal expenses.




Army Working Capital Fund
Principal Financial Statements, Notes and Supplementary Information   116
The Statement of Net Cost is unique because its principles are driven by understanding the net cost of programs and/or
organizations that the Federal Government supports through appropriations or other means. This statement provides gross
and net cost information that can be related to the amount of output or outcome for a given program and/or organization
administered by a responsible reporting entity.

While AWCF activities generally record transactions on an accrual basis, as is required by federal generally accepted
accounting principles, the systems do not always capture actual costs. Some of the information presented on the
Consolidated Statement of Net Cost is based on non-financial feeder systems, including property accountability and
logistics systems. The AWCF is in the process of upgrading its financial and logistical feeder systems to the Logistics
Modernization Program to address this issue.


Note 19. Disclosures Related to the Statement of Changes in Net Position
Other Financing Sources, Other on the Statement Changes in Net Position consists of other gains and other losses from
non exchange activity primarily attributable to intragovernmental transfers-in/out for which trading partners could not be
identified and the correction of prior period adjustments that did not meet the materiality thresholds.


Note 20. Disclosures Related to the Statement of Budgetary Resources

 As of September 30                                                                            2008                2007
 (Amounts in thousands)

 1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at the
    End of the Period                                                                    $     12,237,211 $        9,950,750
 2. Available Borrowing and Contract Authority at the End of the Period                                   0               0

All AWCF obligations represent reimbursable obligations in apportionment category B.


The AWCF Statement of Budgetary Resources includes intraentity transactions because the statements are presented as 

combined.


At the end of the fiscal year, all unused contract authority is withdrawn.





                                                                                                                               Fiscal Year 2008 United States Army Annual Financial Statement
There are no legal arrangements affecting the use of unobligated balances of budgetary authority.





                                                          117
Note 21. Reconciliation of Net Cost of Operations to Budget

 As of September 30                                                                      2008               2007
 (Amounts in thousands)

 Resources Used to Finance Activities:
 Budgetary Resources Obligated:
 1. Obligations incurred                                                            $    18,818,961    $    16,764,820
 2. Less: Spending authority from offsetting collections and recoveries (-)             (17,552,670)       (17,826,926)
 3. Obligations net of offsetting collections and recoveries                        $     1,266,291    $    (1,062,106)
 4. Less: Offsetting receipts (-)                                                                 0                  0
 5. Net obligations                                                                 $     1,266,291    $    (1,062,106)
 Other Resources:
 6. Donations and forfeitures of property                                                         0                  0
 7. Transfers in/out without reimbursement (+/-)                                           (272,573)          (345,832)
 8. Imputed financing from costs absorbed by others                                         155,381            163,133
 9. Other (+/-)                                                                             540,870           (245,300)
 10. Net other resources used to finance activities                                 $       423,678    $      (427,999)
 11. Total resources used to finance activities                                     $     1,689,969    $    (1,490,105)
 Resources Used to Finance Items not Part of the Net Cost of Operations:
 12. Change in budgetary resources obligated for goods, services and benefits
     ordered but not yet provided:
       12a. Undelivered Orders (-)                                                  $    (2,286,461)   $     (948,969)
       12b. Unfilled Customer Orders                                                        368,319          1,365,535
 13. Resources that fund expenses recognized in prior Periods (-)                           (13,886)           (25,497)
 14. Budgetary offsetting collections and receipts that do not affect Net Cost of
     Operations                                                                                   0                  0
 15. Resources that finance the acquisition of assets (-)                                (8,176,389)        (8,180,607)
 16. Other resources or adjustments to net obligated resources that do not affect
     Net Cost of Operations:
       16a. Less: Trust or Special Fund Receipts Related to exchange in the
            Entity’s Budget (-)                                                                   0                  0
       16b. Other (+/-)                                                                   (268,298)            591,131
 17. Total resources used to finance items not part of the Net Cost of
     Operations                                                                     $ (10,376,715)     $    (7,198,407)
 18. Total resources used to finance the Net Cost of Operations                     $    (8,686,746)   $    (8,688,512)




Army Working Capital Fund
Principal Financial Statements, Notes and Supplementary Information   118
 As of September 30                                                                         2008              2007
 (Amounts in thousands)

 Components of the Net Cost of Operations that will not Require or Generate Resources in the Current Period:
 Components Requiring or Generating Resources in Future Period:
 19. Increase in annual leave liability                                                $        9,697    $           2,576
 20. Increase in environmental and disposal liability                                                0                  0
 21. Upward/Downward reestimates of credit subsidy expense (+/-)                                     0                  0
 22. Increase in exchange revenue receivable from the public (-)                                     0                  0
 23. Other (+/-)                                                                               13,096                  25
 24. Total components of Net Cost of Operations that will Require or Generate
     Resources in future periods                                                       $       22,793    $           2,601
 Components not Requiring or Generating Resources:
 25. Depreciation and amortization                                                     $       61,145    $        57,291
 26. Revaluation of assets or liabilities (+/-)                                             2,433,172          1,515,071
 27. Other (+/-)
      27a. Trust Fund Exchange Revenue                                                               0                  0
      27b. Cost of Goods Sold                                                               6,126,441          5,249,313
      27c. Operating Material and Supplies Used                                                      0                  0
      27d. Other                                                                             (861,061)         (658,702)
 28. Total Components of Net Cost of Operations that will not Require or
     Generate Resources                                                                $    7,759,697    $     6,162,973
 29. Total components of Net Cost of Operations that will not Require or
     Generate Resources in the current period                                          $    7,782,490    $     6,165,574
 30. Net Cost of Operations                                                            $     (904,256)   $   (2,522,938)

Due to AWCF’s financial systems limitations, budgetary data is not in agreement with proprietary expenses and assets
capitalized. The difference between budgetary and proprietary data is a previously identified deficiency.




                                                                                                                             Fiscal Year 2008 United States Army Annual Financial Statement
Resources that Finance the Acquisition of Assets were adjusted by $384.3 million to bring the note schedule into agreement
with the Statement of Net Cost.

The following Reconciliation of Net Cost of Operations to Budget lines are presented as combined instead of consolidated
due to interagency budgetary transactions not being eliminated:

     n Obligations Incurred
     n Less: Spending Authority from Offsetting Collections and Recoveries
     n Obligations Net of Offsetting Collections and Recoveries
     n Less: Offsetting Receipts
     n Net Obligations
     n Undelivered Orders
     n Unfilled Customer Orders




                                                        119
Resources, Other consists of other gains and other losses from non exchange activity primarily attributable to
intragovernmental transfers-in/out for which trading partners could not be identified and the correction of prior period
adjustments that did not meet the materiality thresholds.

Other Resources or adjustments to net obligated resources that do not affect Net Cost of Operations, Other consists of
other gains and losses from non exchange activity primarily attributable to intragovernmental transfers-in/out for which
trading partners could not be identified and the correction of prior period adjustments that did not meet the materiality
thresholds.

Components Requiring or Generating resources in a Future Period, Other consists of the unfunded Federal Employee
Compensation Act (FECA) expense and the change in the related actuarial liability.

Components not Requiring or Generating Resources Other, Other consists of cost capitalization offsets. Agencies
must first record all expenses to Operating Expenses/Program Costs. These expenses are then offset using the Cost
Capitalization Offset account when the costs are capitalized to the appropriate “in-process type” account.


Note 22. Disclosures Related to Incidental Custodial Collections
Not applicable.


Note 23. Earmarked Funds
Not applicable.


Note 24. Other Disclosures
Not applicable.


Note 25. Restatements
Not applicable.




Army Working Capital Fund
Principal Financial Statements, Notes and Supplementary Information   120
                                                        INSPECTOR GENERAL

                                                      DEPARTMENT OF DEFENSE

                                                         200 ARMY NAVY DRIVE

                                                    ARLINGTON, VIRGINIA 22202-4704




                                                                                                                            November 8, 2008

MEMORANDUM FOR ASSISTANT SECRETARY OFTHE ARMY (FINANCIAL MANAGEMENT AND
COMPTROLLER)

SUBJECT: Independent Auditor’s Report on the Army Working Capital Fund FY 2008 and FY 2007 Basic Financial
         Statements (Report No. D-2009-020)

The Chief Financial Officers Act of 1990, as amended, requires the Department of Defense Inspector General to audit
the accompanying ArmyWorking Capital Fund Consolidated Balance Sheets as of September 30, 2008 and 2007, and the
Consolidated Statement of Net Cost, the Consolidated Statement of Changes in Net Position, the Combined Statement of
Budgetary Resources, and related notes for the fiscal years then ended. The financial statements are the responsibility of
Army management. The Army is also responsible for implementing effective internal control and for complying with laws
and regulations.

We are unable to express an opinion on the Army Working Capital Fund FY 2008 and FY 2007 Basic Financial Statements
because of limitations on the scope of our work. Thus, the financial statements may be unreliable. In addition to
our disclaimer of opinion on the financial statements, we are including the required Report on Internal Control and
Compliance with Laws and Regulations. The Report on Internal Control and Compliance with Laws and Regulations is an
integral part of our disclaimer of opinion on the financial statements and should be considered in assessing the results of our
work.

Disclaimer of Opinion on the Financial Statements




                                                                                                                                               Fiscal Year 2008 United States Army Annual Financial Statement
The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us that the ArmyWorking
Capital Fund FY 2008 and FY 2007 Financial Statements would not substantially conform to accounting principles
generally accepted in the United States of America (GAAP), and that Army financial management and feeder systems
were unable to adequately support material amounts on the financial statements as of September 30, 2008. Section
1008(d) of the FY 2002 National Defense Authorization Act limits the Department of Defense Inspector General to
performing only those audit procedures required by generally accepted government auditing standards that are consistent
with the representations made by management. Accordingly, we did not perform auditing procedures required by U.S.
Government auditing standards and Office of Management and Budget (OMB) Bulletin 07-04, “Audit Requirements for
Federal Financial Statements,” as amended,1 to determine whether material amounts on the financial statements were
fairly presented. Prior audits have identified, and the Army has acknowledged, the long-standing material internal control
weaknesses identified in the Summary of Internal Control. These pervasive material weaknesses affect the reliability of


1
    OMB Memorandum M-08-24, Technical Amendments to OMB Bulletin No. 07-04, “Audit Requirements for Federal Financial Statements,”
    August 25, 2008.




                                                                   121
certain information contained in the annual financial statements—much of which is taken from the same data sources as the
basic financial statements.2 Therefore, we are unable to express, and we do not express, an opinion on the basic financial
statements. Additionally, the purpose of the audit was not to express an opinion on Management’s Discussion and Analysis,
Required Supplementary Information, and Other Accompanying Information presented with the basic financial statements.
Accordingly, we express no opinion on that information.

Summary of Internal Control

In planning our work, we considered Army internal control over financial reporting and compliance with applicable laws
and regulations. We did this to determine our procedures for auditing the financial statements and to comply with OMB
guidance, but our purpose was not to express an opinion on internal control. Accordingly, we do not express an opinion
on internal control over financial reporting and compliance with applicable laws and regulations. However, previously
identified significant deficiencies, all of which are material, continued to exist in the following areas:

        n Financial Management Systems

        n Inventory
        n General Property, Plant, and Equipment

        n Accounts Payable

        n Statement of Net Cost

        n Intragovernmental Eliminations

        n Other Accounting Entries

        n Reconciliation of Net Cost of Operations to Budget

We identified the following additional material weakness in FY 2008:

        n Abnormal Account Balances

A material weakness is a significant deficiency, or a combination of significant deficiencies, resulting in more than a remote
likelihood that a material misstatement of the financial statements will not be prevented or detected.3

A control deficiency exists when the design or operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to prevent or detect misstatements on a timely basis. A significant
deficiency is a control deficiency, or a combination of control deficiencies, adversely affecting the entity’s ability to initiate,
authorize, record, process, or report financial data reliably in accordance with GAAP. Significant deficiencies result in more
than a remote likelihood that a misstatement of an entity’s financial statements that is more than inconsequential will not be
prevented or detected.




2
    The annual financial statements include the basic financial statements, Management’s Discussion and Analysis, Required Supplementary Information, and
    Other Accompanying Information.
3
    The term “remote” is defined as when the chance of a future event or events occurring is slight. Therefore, the likelihood of an event is “more than remote”
    when it is at least reasonably possible.




Army Working Capital Fund
Principal Financial Statements, Notes and Supplementary Information                122
We identified the following significant deficiency in FY 2007. It remains a significant deficiency in FY 2008.

     n	 Statement of Budgetary Resources

Internal control work that we conducted as part of our prior audits would not necessarily disclose all significant
deficiencies. The Attachment offers additional details on significant deficiencies, most of which we consider to be material
internal control weaknesses.

Summary of Compliance with Laws and Regulations

We limited our work to determine compliance with selected provisions of applicable laws and regulations related to
financial reporting because management acknowledged that instances of noncompliance identified in prior audits continued
to exist. The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us that Army
financial management systems do not substantially comply with Federal financial management system requirements, GAAP,
and the U.S. Government Standard General Ledger at the transaction level. Therefore, we did not determine whether the
ArmyWorking Capital Fund complied with all applicable laws and regulations related to financial reporting. Providing an
opinion on compliance with certain provisions of laws and regulations was not an objective of our audit and, accordingly, we
do not express such an opinion. See the Attachment for additional details on compliance with laws and regulations.

Management’s Responsibilities

Management is responsible for:

     n	 preparing the financial statements in conformity with GAAP;

     n	 establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad control
        objectives of the Federal Managers’ Financial Integrity Act are met; and

     n	 complying with applicable laws and regulations.

We provided a draft of this report to the Office of the Deputy Assistant Secretary of the Army (Financial Operations), who
provided technical comments, which have been incorporated as appropriate. Army officials expressed their continuing
commitment to address the problems this report outlines.




                                                                                                                               Fiscal Year 2008 United States Army Annual Financial Statement
                                                                  Patricia A. Marsh, CPA
                                                                  Assistant Inspector General
                                                                  Defense Business Operations




Attachment:
As stated




                                                         123
Army Working Capital Fund
Principal Financial Statements, Notes and Supplementary Information   124
                                         Report on Internal Control and 

                                      Compliance with Laws and Regulations


Internal Control

Management is responsible for implementing and maintaining effective internal control and for providing reasonable
assurance that accounting data are accumulated, recorded, and reported properly; that the requirements of applicable laws
and regulations are met; and that assets are safeguarded against misappropriation and abuse. Our purpose was not to, and
we do not, express an opinion on internal control over financial reporting. However, we have identified the following
material weaknesses and significant deficiency that could adversely affect the Army financial management operations.

Previously Identified Material Weaknesses. Management acknowledged that previously identified significant
deficiencies, all of which are material, continued to exist in the following areas.

         Financial Management Systems. ArmyWorking Capital Fund systems do not meet the requirements for full
         accrual accounting. The systems do not collect and record financial information as required by GAAP. Financial
         and nonfinancial feeder systems do not contain the required system integration to provide a transaction-level
         audit trail for the amounts reported in the proprietary and budgetary general ledger accounts. The Army Working
         Capital Fund derives a majority of its financial information from noncompliant financial systems, such as the
         Commodity Command Standard System and the Standard Industrial Funds System.

         In FY 2003, the Army began deploying the Logistics Modernization Program system as its Army Working Capital
         Fund core accounting system. However, implementation problems at the initially deployed field locations and the
         system’s inability to produce auditable outputs and achieve compliance with the Federal Financial Management
         Improvement Act prevented further system deployment. The Government Accountability Office and DoD
         Office of Inspector General have issued audit reports that identify data integrity and system integration problems,
         questioning whether the Logistics Modernization Program system correctly records transactions. The Army has
         developed a Compliance Management Plan to achieve and maintain Federal Financial Management Improvement
         Act compliance and address auditor-identified deficiencies. The Army plans to deploy the Logistics Modernization
         Program system to the Aviation and Missile Life Cycle Management Command and subordinate organizations in
         FY 2009. The Army is planning full operational capability of the Logistics Modernization Program in FY 2010.

         Inventory. The inventory valuation method used for most Army Working Capital Fund inventory does not




                                                                                                                               Fiscal Year 2008 United States Army Annual Financial Statement
         produce an auditable approximation of historical cost. In FY 2008, the Army reported that the ArmyWorking
         Capital Fund can only value 17 percent of its inventory at moving average cost. The Army Working Capital Fund
         uses the latest acquisition cost method of valuing most inventory because the Army designed legacy inventory
         systems for materiel management, rather than for accounting in conformance with GAAP. The systems provide
         accountability and visibility for inventory items but do not maintain the historical cost data necessary to comply
         with Statement of Federal Financial Accounting Standards No. 3, “Accounting for Inventory and Related Property.”
         In addition, the systems are unable to produce financial transactions using the U.S. Government Standard General
         Ledger accounts, and neither the Defense Finance and Accounting Service nor the Army reconciled all differences
         between the accounting records and the logistical records. Instead, they accepted the data from the logistical
         records and adjusted the accounting records by $3.7 billion.

         The ArmyWorking Capital Fund does not adequately report inventory items in excess of their approved
         acquisition objective and inventory items suspended from current sales as inventory held for future sale, both of



                                                                                                                 Attachment



                                                        125
           which are DoD accounting requirements. In FY 2009, the Army plans to take steps to identify and report the
           value of inventory held for future sale. In addition, Note 9 does not adequately disclose the amount of inventory
           held for remanufacture, because the Army Working Capital Fund systems are unable to determine the value of
           remanufactured inventory. The Army will not properly disclose this amount until full operational capability of the
           Logistics Modernization Program occurs.

           General Property, Plant, and Equipment. The reported value of Army Working Capital Fund General
           Property, Plant, and Equipment is unreliable because the Army lacked the documentation needed to support the
           historical acquisition costs of its assets. The Army has not established and implemented a methodology to baseline
           acquisition costs for all property, plant, and equipment. Also, the Army Working Capital Fund organizations
           sometimes recorded the acquisition date and cost incorrectly or received incorrect information from the feeder
           systems. During FY 2008, the Army did not implement the DoD capitalization threshold for real property assets,
           as required by DoD policy.

           The DoD Office of Inspector General completed an audit to evaluate controls over real property and found that
           the ArmyWorking Capital Fund did not have adequate controls over the addition, disposal, and improvement
           transactions entered into the Integrated Facilities System to maintain accurate account balances. During FY
           2008, the Army began implementing the guidance contained in its Real Property Audit Preparation Handbook.
           The Assistant Chief of Staff for Installation Management required that each Army installation inventory all real
           property and establish auditable documentation records for all real property assets. When fully implemented,
           these audit readiness procedures will address most of the control weaknesses identified during the audit. In
           September 2009, when ArmyWorking Capital Fund organizations complete their real property validations and
           the Army implements the DoD capitalization threshold, the Army should be able to develop an auditable baseline
           for all of its real property assets. However, the reported value of General Property, Plant, and Equipment may
           continue to be unreliable until the Army also implements: (1) a methodology to baseline the acquisition costs of
           the other categories of property and equipment, and (2) internal control measures to ensure that ArmyWorking
           Capital Fund organizations maintain accurate balances.

           Accounts Payable. DFAS Indianapolis adjusted accounts payable balances to derive the reported balances.
           DFAS Indianapolis adjusted Accounts Payable with the Public upward by $128 million for undistributed
           disbursements. Also,ArmyWorking Capital Fund systems cannot reconcile accounts payable with the
           corresponding intragovernmental accounts receivable that generated the payables. As a result, DFAS Indianapolis
           made $307.7 million in unsupported adjustments to decrease intragovernmental accounts payable to force the
           amounts to agree with ArmyWorking Capital Fund trading partners. In addition, the Supply Management,Army
           activity group does not establish accounts payable in accordance with Statement of Federal Financial Accounting
           Standards No. 1, “Accounting for Selected Assets and Liabilities,” which requires the Army to establish an account
           payable when it accepts title to goods or services.

           Statement of Net Cost. The ArmyWorking Capital Fund does not present its Statement of Net Cost by
           responsibility segments. The ArmyWorking Capital Fund accounting systems did not accurately capture costs
           for ArmyWorking Capital Fund programs or properly account for intragovernmental transactions and related
           eliminations. In addition, the ArmyWorking Capital Fund used budgetary obligation, collection, and disbursement
           data to present some of the information reported on the Statement of Net Cost.

           Intragovernmental Eliminations. DoD is unable to collect, exchange, and reconcile buyer and seller
           intragovernmental transactions, resulting in adjustments that are not verifiable. DoD and ArmyWorking
           Capital Fund systems do not capture the trading partner financial data at the transaction level needed to



Attachment


Army Working Capital Fund
Principal Financial Statements, Notes and Supplementary Information   126
         facilitate reconciling and eliminating intragovernmental transactions. DoD procedures require that the Army
         Working Capital Fund adjust its buyer-side transaction data to agree with seller-side transaction data from other
         Government entities without the entities performing proper reconciliations. As a result, Defense Finance and
         Accounting Service (DFAS) Indianapolis made $10.2 billion in adjustments to ArmyWorking Capital Fund
         accounts to force the accounts to agree with the corresponding records of intragovernmental trading partners.

         Other Accounting Entries. DFAS Indianapolis did not adequately support $4.6 billion in journal vouchers
         used to prepare the ArmyWorking Capital Fund financial statements. DFAS Indianapolis made the unsupported
         adjustments to force amounts to agree with other sources of information and records used in preparing the FY
         2008 Army Working Capital Fund Financial Statements. In addition, DFAS Indianapolis did not always follow the
         established minimum requirements for documenting the analytical process used to develop the journal vouchers
         and support adjusting accounting entries made to the general ledger accounts. The resulting unsupported
         accounting adjustments presented a material uncertainty regarding the line item balances on the FY 2008 Army
         Working Capital Fund Financial Statements.

         Reconciliation of Net Cost of Operations to Budget. Statement of Federal Financial Accounting
         Standards No. 7, “Revenues and Other Financing Sources,” requires a reconciliation of proprietary and budgetary
         information to assist users in understanding the relationship of the data. The ArmyWorking Capital Fund is unable
         to reconcile budgetary obligations incurred and its Statement of Net Cost without preparing $384 million in
         unsupported adjustments to the general ledger accounts to force costs to match obligation information.

Material Weaknesses Identified During FY 2008. As a result of our financial-related work during FY 2008, we
identified a significant deficiency that we consider to be material.

         Abnormal Account Balances. During FY 2007, we reported abnormal account balances as a significant
         deficiency. During FY 2008, we reviewed the compilation of the quarterly ArmyWorking Capital Fund financial
         statements and found that Army managers and DFAS Indianapolis personnel had not detected and reported, or
         taken action to eliminate, abnormal balances reported by Army Working Capital Fund field-level organizations.
         The Army Working Capital Fund organizations reported 57 abnormal account balances (at the limit level),
         valued at $753.7 million. Nineteen of the 57 abnormal account balances, valued at $51.6 million, were from
         the Logistics Modernization Program system. The Army and DFAS Indianapolis used the 57 abnormal balances
         to compile the amounts reported on the Balance Sheet for: Intragovernmental Accounts Receivable, Inventory,
         Intragovernmental Accounts Payable,Accounts Payable, and Other Liabilities.




                                                                                                                             Fiscal Year 2008 United States Army Annual Financial Statement
Other Significant Deficiencies. Management acknowledged that a previously identified significant deficiency
continued to exist in the following area.

         Statement of Budgetary Resources. The Army Working Capital Fund did not use data from Army Working
         Capital Fund budgetary general ledger accounts to populate the Statement of Budgetary Resources. Instead,
         DFAS Indianapolis used budget execution data. OMB Circular No.A 136, “Financial Reporting Requirements,”
         June 3, 2008, states that the reporting entity should derive the Statement of Budgetary Resources predominantly
         from the general ledger accounts, not from budget execution data.

These financial management deficiencies may cause inaccurate management information. As a result,Army management
decisions based in whole or in part on this information may be adversely affected. Financial information reported by DoD
may also contain misstatements resulting from these deficiencies.



                                                                                                                Attachment



                                                        127
Compliance with Laws and Regulations

Management is responsible for compliance with existing laws and regulations related to financial reporting. We limited
our work to determine compliance with selected provisions of the applicable laws and regulations because management
acknowledged instances of noncompliance, and previously reported instances of noncompliance continue to exist.
Therefore, we did not determine whether the ArmyWorking Capital Fund was in compliance with selected provisions of all
applicable laws and regulations related to financial reporting. Our objective was not to, and we do not, express an opinion
on overall compliance with applicable laws and regulations.

Federal Financial Management Improvement Act of 1996. The Federal Financial Management Improvement Act of
1996 requires DoD to establish and maintain financial management systems that comply substantially with Federal financial
management systems requirements, applicable Federal accounting standards, and the U.S. Government Standard General
Ledger at the transaction level. For FY 2008, the Army Working Capital Fund did not fully comply with the Federal
Financial Management Improvement Act of 1996. The Army acknowledged that many of its critical financial management
and feeder systems did not substantially comply with Federal financial management systems requirements, Federal
accounting standards, and the U.S. Government Standard General Ledger at the transaction level as of September 30, 2008.

Government Performance and Results Act. Congress enacted the Government Performance and Results Act of
1993 to establish strategic planning and performance measurement in the Federal Government. Strategic plans, annual
performance plans, and annual program performance reports comprise the main elements of the Government Performance
and Results Act. Although the Army has established a comprehensive strategic plan as a blueprint for achieving auditable
financial statements,Army managers have not fully supported the strategic plan with the tactical plans required to complete
the actions and meet the milestones. Further, there are no uniform methods or procedures to report percent completion
and start and finish dates of tasks, and not all system implementation dates were aligned with milestones in the plan.

Antideficiency Act. Section 1341, title 31, United States Code (31 U.S.C. 1341) limits the Army Working Capital Fund
and its agents to making or authorizing only expenditures or obligations that do not exceed the available appropriations or
funds. Additionally, the ArmyWorking Capital Fund or its agents may not contract or obligate for the payment of money
before an appropriation is made available for that contract or obligation unless otherwise authorized by law. According to
31 U.S.C. 1351, if an officer or employee of an executive agency violates the Antideficiency Act, the head of the agency
must report immediately to the President and Congress all relevant facts and a statement of actions taken. During FY 2008,
the Army Working Capital Fund reported no potential Antideficiency Act violations.

Audit Disclosures

The Deputy Assistant Secretary of the Army (Financial Operations) acknowledged to us on March 17, 2008, that the Army
financial management and feeder systems cannot provide adequate evidence supporting various material amounts on
the financial statements, and previously identified material weaknesses continue to exist. Therefore, we did not perform
detailed testing related to previously identified material weaknesses. In addition, we did not perform audit work related
to the following selected provisions of laws and regulations: Federal Credit Reform Act of 1990, Pay and Allowance
System for Civilian Employees, Prompt Payment Act, and Provisions Governing Claims of the United States Government
(including provisions of the Debt Collection Improvement Act of 1996).

This report does not include recommendations to correct the material internal control weaknesses, significant deficiency,
and instances of noncompliance with laws and regulations, because previous audit reports contained recommendations for
corrective actions or because audit projects currently in progress or planned will include appropriate recommendations.


Attachment


Army Working Capital Fund
Principal Financial Statements, Notes and Supplementary Information   128
                                                                                                                     We are interested in your feedback regarding the content of this report.

                                                                                                                  Please feel free to e-mail your comments to AAFS@hqda.army.mil or write to:


                                                                                                                                      Department of the Army
                                                                                                                                 Office of the Deputy Assistant Secretary of the Army 

                                                                                                                                      (Financial Management and Comptroller)

                                                                                                                                    Office of the Financial Reporting Directorate

                                                                                                                                          Room 3A312, 109 Army Pentagon

                                                                                                                                             Washington, DC 20310-0109


                                                                                                                    Additional copies of this report can be obtained by sending a written request to 

                                                                                                                                       the e-mail or mailing address listed above.


*Unless otherwise noted, all photos on the cover and inside pages are courtesy of the U.S. Army. (www.army.mil)   You may also view this document at: http://www.asafm.army.mil/fo/fod/cfo/cfo.asp
                                                                                       Fiscal Year 2008 United States Army Annual Financial Statement
                   The Soldier’s Creed
                        I am an American Soldier.

                 I am a Warrior and a member of a team. 

    I serve the people of the United States and live the Army Values.


                     I will always place the mission first.

                            I will never accept defeat.

                                   I will never quit.

                      I will never leave a fallen comrade.


              I am disciplined, physically and mentally tough,

                 trained and proficient in my warrior tasks

                   and drills. I always maintain my arms,

                         my equipment and myself.


                   I am an expert and I am a professional.


                   I stand ready to deploy, engage, and

                 destroy the enemies of the United States

                        of America in close combat.


                     I am a guardian of freedom and the

                            American way of life.


                          I am an American Soldier.





                                                                                                                                                                                       2008
                                                                                      2008                                                                           Fiscal Year 2008 United States Army Annual Financial Statement
                                                                                                                                                        Financing America’s Army: The Strength of the Nation
United States Army : 1500 Army Pentagon : Washington, DC, 20310-1500 : www.army.mil
